          REDACTED – PUBLIC VERSION




THE DRUG ENFORCEMENT ADMINISTRATION’S
      INTERNATIONAL OPERATIONS


          U.S. DEPARTMENT OF JUSTICE
        OFFICE OF THE INSPECTOR GENERAL
                AUDIT DIVISION

             AUDIT REPORT 07-19
               FEBRUARY 2007




          REDACTED – PUBLIC VERSION
                          REDACTED – PUBLIC VERSION


           THE DRUG ENFORCEMENT ADMINISTRATION’S
                 INTERNATIONAL OPERATIONS*

                              EXECUTIVE SUMMARY

      The Drug Enforcement Administration (DEA) is the primary federal
agency responsible for investigating illicit drug trafficking organizations
operating within the United States. The ultimate goal of the DEA’s efforts is
to significantly disrupt drug trafficking operations and to dismantle the
criminal organizations entirely, while ultimately bringing their leaders to
prosecution, either in the United States or through another country’s judicial
system.

       In order to combat the highest priority drug trafficking organizations,
the DEA must extend its operations to other countries where major drug
traffickers live and preside over illegal operations. As a result, the DEA has
751 employees in 59 other countries who work with foreign law enforcement
agencies, as well as with other U.S. agencies operating in the international
arena, to accomplish its mission.1 To support its personnel and operations
abroad, in fiscal year (FY) 2006 the DEA had a budget of $312 million for its
international operations.

      The Department of Justice (DOJ), Office of the Inspector General (OIG)
conducted this audit of the DEA’s international operations. The objectives of
the audit were to: (1) review the DEA’s foreign office performance,
including its efforts to track operational activity and its internal mechanisms
for evaluating the performance of its foreign operations; (2) examine the
DEA’s involvement and management of international investigative activity;
(3) assess the DEA’s relationships with its law enforcement counterparts
abroad, including its liaison associations and the exchange of information;
(4) analyze the DEA’s processes and controls over foreign administrative
functions, including those related to security, firearms, property
management, and fiscal matters; and (5) review the training provided or
coordinated by the DEA to its foreign counterparts and DEA personnel
stationed abroad.



        * The full version of this report includes information that the DEA considered to be
law enforcement sensitive and therefore could not be publicly released. To create this
public version of the report, the OIG redacted (deleted) the portions of the full report that
were considered sensitive by the DEA and indicated where those redactions were made.
       1
        The 751 employee figure represents the number of allocated positions as of
May 2006.


                          REDACTED – PUBLIC VERSION
                           REDACTED – PUBLIC VERSION


      Our review included work at DEA headquarters components and at
10 DEA foreign offices in 5 countries: Colombia, Italy, Mexico, Thailand, and
Turkey. Our methodology involved selecting locations that would provide a
broad overall perspective of DEA’s international operations, including diverse
geographic location, jurisdiction, operational activity, and personnel
composition. During our field visits abroad, we interviewed DEA personnel
as well as representatives from U.S. and foreign agencies who work with the
DEA internationally. We also reviewed pertinent DEA documentation and
analyzed data from DEA databases. Appendix I contains additional details
related to our audit objectives, scope, and methodology.

Background

         In 2002, DOJ created a register of the United State’s most significant
illicit drug trafficking targets called the Consolidated Priority Organization
Target (CPOT) list. According to DOJ officials, this list is updated at least
annually based on a collection of intelligence from various agencies, and
since its inception the CPOT list has contained a total of 80 targets, none of
whom resided in the United States. As of June 2006, the list included
46 targets.

       Since the current DEA Administrator took office in 2003, the DEA has
increased its number of foreign offices, bolstered its international funding,
and augmented the number of personnel assigned to combat foreign drug
trafficking and organizations. Since 1997, the DEA has increased its foreign
allocated personnel by 195 positions, from 556 to 751. The DEA’s foreign
budget has increased from $201 million in FY 2000 to $312 million in
FY 2006. Moreover, the percentage growth in the DEA’s international
operations budget has outpaced that of its overall budget, as shown in the
following graph.

            DEA BUDGET PERCENTAGE GROWTH SINCE FY 2000
               TOTAL BUDGET vs INTERNATIONAL BUDGET
                                         Total Budget    International Budget

                     80%

                     70%

                     60%

                     50%

                     40%

                     30%

                     20%

                     10%

                     0%

                    -10%
                        2000   2001   2002       2003        2004       2005    2006      2007
                                                                                       (projected)

            Source: OIG analysis of Drug Enforcement Administration budget figures



                                                        ii
                           REDACTED – PUBLIC VERSION
                         REDACTED – PUBLIC VERSION


       According to the DEA, it only opens offices in countries that are in
some way tied to the flow of illegal drugs into the United States. This
includes countries that are a source of drugs or precursor chemicals,
countries where significant money laundering occurs, or countries that are
linked to drug trafficking organizations that threaten the United States.2 The
host country, the U.S. Chief of Mission, and Congress must authorize the
DEA to open a new foreign office. As a sovereign state, any host country
may withdraw this permission at any time. In addition, the DEA’s legal
operating ability in other countries is much different than in its domestic
offices because DEA agents stationed overseas do not have law enforcement
jurisdiction. DEA’s authorities differ from country to country depending on
host-country laws, agreements between governments, international treaties,
and local policies issued to U.S. agencies by the U.S. Ambassador. Despite
different working environments in its foreign offices, the DEA maintains five
principal objectives for working with foreign counterpart agencies:
(1) participate in bilateral investigations, (2) cultivate and maintain quality
liaison relations, (3) promote and contribute to foreign institution building,
(4) support intelligence gathering and sharing efforts, and (5) provide
training opportunities.

      In 2007, the DEA intends to open new offices in Dubai, United Arab
Emirates, and Dushanbe, Tajikistan. In addition, the DEA has received
congressional approval to open an office in Bishkek, Kyrgyzstan. The DEA is
also working with the government of Mexico to obtain its authorization for
the opening of congressionally approved offices in Matamoros, Nogales, and
Nuevo Laredo, Mexico. The placement of DEA’s international offices as of
June 2006 is shown on the following map.




      2
        Precursor chemicals are materials used in the manufacture of a controlled
substance.


                                            iii
                         REDACTED – PUBLIC VERSION
                                        REDACTED – PUBLIC VERSION

                                               DEA Foreign Offices
                                                                    3
                                                   (as of June 2006)




Source: Drug Enforcement Administration’s Office of International Programs

    3
      The office in Warsaw, Poland, opened in 2006. The future offices identified in Mexico are pending approval from the
    government of Mexico.


                                                           iv
                                        REDACTED – PUBLIC VERSION
                          REDACTED – PUBLIC VERSION


       In foreign countries, DEA offices are part of the U.S. Embassy mission
and may be housed within or outside the Embassy or the Consulate. The
primary DEA office in another country is referred to as the DEA Country Office
and secondary offices are called Resident Offices. A typical DEA foreign office
is staffed by Special Agents, Intelligence Research Specialists, administrative
support personnel, and foreign national hires, also known as foreign service
nationals (FSNs).4 The senior DEA position in each Country Office is the DEA
Country Attaché. In addition to reporting to DEA management, the DEA
Country Attaché must also report to the U.S. Ambassador on DEA matters
and activities within the host country.

       The DEA has divided its foreign offices into seven regions that were
established based upon the trafficking trends and environments of the
various countries. These regions are managed by Regional Directors who
are located within certain DEA foreign offices. A Regional Director has
overall responsibility for the activities of DEA Country Offices and Resident
Offices in multiple countries. For example, the DEA Regional Director for the
Andean Region is located in Bogotá, Colombia, and is responsible for
countries predominantly located along the northern portion of the Andes
mountain range in South America, including Colombia, Peru, Ecuador, and
Venezuela. The seven regions and the location of the Regional Director’s
office are shown below.

              DEA Foreign Region              Regional Director Location

                    Andean                          Bogotá, Colombia
                   European                            Rome, Italy
             Mexico/Central America                Mexico City, Mexico
                    Far East                        Bangkok, Thailand
                  Middle East                        Ankara, Turkey
                 Southern Cone                        La Paz, Bolivia
                   Caribbean                      San Juan, Puerto Rico5

Performance Management

      In this audit, we reviewed DEA data related to the success of its
foreign offices’ highest priority cases, which are labeled Priority Target


       4
         Foreign service nationals are non-U.S. citizens who enter into employment
contracts with U.S. government offices abroad, including DEA foreign offices.
       5
          The Caribbean Region is managed by the Special Agent in Charge of the DEA’s
San Juan Division, which the DEA considers a domestic office with oversight responsibility
for DEA domestic and foreign offices in the Caribbean. This Special Agent in Charge
effectively performs the function of a Regional Director for the DEA’s Caribbean Region.


                                             v
                          REDACTED – PUBLIC VERSION
                           REDACTED – PUBLIC VERSION


 Organizations (PTO).6 According to this data, as of June 2006 the DEA’s
 international offices were actively targeting a total of 212 PTOs. The data
 indicates that the DEA foreign offices were pursuing high-priority cases and
 had succeeded in disrupting or dismantling a significant portion of these
 organizations.
                                   DEA Foreign Offices
                 Priority Target Organizations Disrupted and Dismantled
                              March 2002 through June 2006
                     Total    Active    Targets      Targets     Percent of              Percent of
                      PTO      PTO     Disrupted Dismantled Total PTO                    Total Cases
     Foreign         Cases    Cases     (active and (only closed   Cases                 Dismantled
     Region         (active &             closed)      cases)    Disrupted                    (active and
                      closed)                                              (active and          closed)
                                                                             closed)
Andean                 114          68            29           23            25%                20%
            7
Caribbean                65         30            22           16            34%                25%
European                 53         16            20           13            38%                25%
Far East                 56         25            19             7           34%                13%
Mexico/
                         37         29             7             2           19%                  5%
Central America
Middle East             43         25            8              4            19%                 9%
Southern Cone           42         19           13              9            31%                21%
   TOTALS              410        212          118             74            29%                18%
Source: OIG analysis of Drug Enforcement Administration Priority Target Activity and Resource
        Reporting System data

        Further, our review of DEA work hours data for foreign offices
 demonstrated that DEA foreign offices, on average, were spending a
 significant proportion of its investigative effort on priority target cases. For
 FY 2006 (through July 14, 2006), DEA Special Agents and Intelligence
 Research Specialists (or intelligence analysts) stationed in foreign offices
 were, in total, expending 44 percent of their investigative work hours on
 priority target cases. The following chart illustrates the percentage of work
 hours in total that DEA agents and intelligence analysts spent on
 investigative cases from October 2005 through mid-July 2006.

        6
          The establishment of a PTO requires a nomination by the DEA case agent and
 approval by field and headquarters management. The case agent is responsible for
 updating information on the PTO case in the DEA’s Priority Target Activity and Resource
 Reporting System (PTARRS) at least once quarterly. The DEA began its use of the PTARRS
 system in March 2002.
        7
          The Caribbean Division data includes DEA foreign offices located in the Caribbean
 and the DEA offices in the Bahamas.


                                             vi
                           REDACTED – PUBLIC VERSION
                          REDACTED – PUBLIC VERSION



 DEA Foreign Office Special Agents and Intelligence Research Specialists
         Percentage of Investigative Work Hours by Case Type
                  October 2005 through mid-July 20068
                1%
          2%
                                                   Priority Target Organization
     3%
                                                   Undefined Case Type

               13%              44%                Transportation/Smuggling

                                                   Structured Criminal Organization

                18%                                Independent Trafficker

                         20%                       Money Laundering

                                                   Other

      Source: OIG analysis of Drug Enforcement Administration work hours data

       Using analyses similar to ours, DEA management in the field and at
headquarters can assess the percentage of time that foreign field personnel
spend on particular types of cases (e.g., a PTO, a money laundering
enterprise, a non-PTO narcotic trafficking organization). However, in our
discussion with DEA Headquarters management on tools used to evaluate
foreign office operational activity, work hours data was not noted as a
measure used in such assessments. Further, only two of the five Regional
Directors with whom we met stated that they actually used work hours data
to identify the focal areas of investigative activity in the region. For
example, the Regional Director in Bogotá, Colombia, used work hours data
to evaluate the types of activity on which offices in the region were focusing.
This Regional Director instituted a goal that 65-75 percent of the case
activity in the region should be related to PTO investigations.

         The DEA also does not have a comprehensive evaluation of the impact
that its foreign office activities and operations collectively have had on the
illicit drug trade in the United States. During our review, DEA personnel
primarily cited highlights of individual case accomplishments as evidence of
the success of the agency’s international efforts. Subsequent to our audit
close-out meeting, the DEA provided the following information concerning its
international-related enforcement efforts during FY 2006:




      8
          The total of the percentages in the chart is 101 percent due to rounding.


                                             vii
                          REDACTED – PUBLIC VERSION
                     REDACTED – PUBLIC VERSION


      •   458 DEA-wide PTO investigations (21 percent of all active PTO
          cases) were directed at or linked to 44 of the 46 international
          targets on the DOJ’s CPOT list;

      •   100 active PTO cases (increasing from 82 in FY 2005) were linked
          to terrorist organizations;

      •   the DEA helped link 17 CPOTs to terrorist organizations and
          contributed to the successful indictment of 16 of these terrorist
          enterprises; and

      •   the DEA was involved in the extradition of 7 major international
          drug traffickers, including 4 CPOTs, to face prosecution in U.S.
          courts.

Strategic Planning

      The DEA has a strategic plan that is tied to DOJ’s Strategic Goal II to
“enforce federal laws and represent the rights and interests of the American
people.” The DEA has pursued its strategic goals with various initiatives for
combating drug trafficking.

      The DEA’s strategic plan includes operational goals and measures to
use in evaluating its achievements, as well as a description of the means and
resources believed necessary to accomplish these goals. According to DEA’s
planning process, this agency-wide strategic document is supposed to be
complemented by performance plans for DEA field components. However,
the DEA did not require its foreign regions and offices to prepare annual
performance plans for FYs 2004 through 2006. During this period, the DEA
did not employ structured planning instruments for its foreign offices to use
in complementing the DEA’s organization-wide, strategic plan. We found
that, as a result, DEA foreign regional management employed disparate
planning strategies and evaluated performance inconsistently.

       DEA headquarters provided a draft version of its Foreign Regional
Management Plan Annual Guidelines subsequent to our audit close-out
meeting and stated that it would soon finalize these guidelines for use by its
Regional Directors in annual performance planning. We reviewed this
document and consider it a sound performance planning instrument.
However, a DEA headquarters executive manager acknowledged that even
after the DEA promulgated its new regional planning instrument the agency’s
planning protocol would still be deficient because it had not yet established
practices for developing performance plans at the Country Office level. We
believe that a top-to-bottom performance planning design is necessary for



                                     viii
                     REDACTED – PUBLIC VERSION
                      REDACTED – PUBLIC VERSION


the DEA to sufficiently assess the performance of its foreign offices’
operations and activities.

Lead Tracking System

       The DEA could not provide us with fundamental objective data related
to assistance its foreign offices provided to other DEA offices and
counterpart agencies because it does not have an agency-wide system for
tracking the requests for assistance received by its foreign offices. An
essential objective for DEA foreign offices is to provide support to existing
DEA cases, to the investigative needs of other DEA offices, and to foreign
counterparts in their anti-drug efforts. Without a system to track leads, DEA
Regional Directors, Assistant Regional Directors, Country Attachés, and other
managers in the foreign offices cannot adequately monitor or oversee the
efforts of foreign offices to provide such assistance.

      We found that, in the absence of a universal tracking system, 6 of the
10 foreign DEA offices we visited had mechanisms or processes to track
requests for assistance. DEA offices in Rome and Milan, Italy; Guadalajara,
Mexico; Ankara and Istanbul, Turkey; and Bangkok, Thailand; had
developed mechanisms to help manage work requests submitted to their
respective offices. The practices in Guadalajara and Bangkok represented
the beginnings of a cataloging system. The most complete tracking systems
existed in the Ankara, Milan, and Rome offices. These offices employed
correspondence logs for tracking requests for assistance between foreign
counterparts and the DEA. The Milan office went one step further and
developed an action log that recorded all non-foreign assistance requests,
including DEA investigative leads and other U.S. agency requests for
assistance.

       One Assistant Regional Director in an office without a local lead-
tracking system with whom we spoke stated that some leads probably get
lost or fall through the cracks. This manager further stated that the office
relied on the requesting domestic offices to follow up on matters for which
they did not receive a response. Another DEA manager acknowledged that
requests from all sources should be tracked to ensure that the foreign offices
take appropriate action in response to all action items.

      In our judgment, DEA foreign office managers need a standardized
tracking system to use in prioritizing and tracking investigative lead and
assistance requests. Moreover, the DEA could also use data within such a
system to evaluate the effectiveness of a foreign office’s ability to support
domestic office cases and assist foreign counterparts. The absence of such a
system means that the DEA can only estimate the number of investigative


                                       ix
                      REDACTED – PUBLIC VERSION
                      REDACTED – PUBLIC VERSION


leads or requests for information that are handled by its foreign offices,
which prevents the DEA from tracking the amount or type of tasks being
requested of its offices and ensuring that these requests have been met.

Investigative Activity

        Our audit revealed significant deficiencies with the DEA’s management
and oversight of its investigative activities within its vetted unit program, an
initiative that involves screening and training foreign law enforcement
personnel and funding them to perform work on behalf of the DEA.
[SENSITIVE INFORMATION REDACTED].

       The use and management of vetted units varies from country to
country. The DEA typically provides financial support for the vetted units’
activities, and the vetted units are typically managed on a day-to-day basis
by a senior foreign police officer, with a DEA advisor providing general
oversight. Generally, in the countries where the DEA operates vetted units,
these units are a vital means of pursuing its investigative needs in that
location.

      The DEA uses two types of vetted units: (1) vetted units that are part
of the DEA’s Sensitive Investigative Unit (SIU) Program and (2) non-SIU
vetted units. The DEA’s SIU program was created in FY 1997 when
Congress appropriated $20 million for the creation of vetted units in Bolivia,
Colombia, Mexico, and Peru. In FY 2006, the budget to support the SIU
Program was $18.3 million. The DEA FY 2007 budget proposes an expansion
of the SIUs into four additional countries. The DEA does not separately
budget for expenses related to its non-SIU vetted units.

       There are distinct differences between how the two types of foreign
vetted units are organized, trained, and funded. First, with regard to SIU
vetted units, Congress has designated specific locations, and the DEA
allocates funds specifically to its SIU Program. Also, SIU members
participate in a specially designed training course at the DEA Training
Academy in Quantico, Virginia. The DEA has also developed an SIU Program
Manual detailing guidelines for administering the SIU Program, and it
concluded an internal assessment of the SIU Program in FY 2005. By
contrast, the non-SIU vetted units are not congressionally designated, are
not allocated funding from DEA headquarters, do not have a manual, and do
not receive standardized training at the DEA Training Academy.




                                       x
                      REDACTED – PUBLIC VERSION
                           REDACTED – PUBLIC VERSION


Non-SIU Vetted Units

      We queried DEA headquarters staff for records related to its non-SIU
vetted units. DEA headquarters personnel acknowledged that the DEA did
not maintain any centralized records of the non-SIU vetted units. According
to DEA headquarters management, these units are not part of a formal DEA
program. Their proliferation is the result of foreign managers recognizing
the utility of the vetted unit concept and implementing good business
practices in their offices.

       At our request, the DEA surveyed its foreign offices to obtain
information related to its non-SIU vetted units. According to the data
received, DEA offices in 16 countries operated non-SIU vetted units
comprised of 888 foreign personnel. However, the DEA noted at the audit
close-out meeting that its foreign offices forwarded incorrect information on
the number of non-SIU vetted unit members.9 The DEA acknowledged that
its foreign offices needed tighter controls in this area.

SIU Vetted Units

       According to the DEA, its offices in Colombia were the first to use
vetted units. The DEA Regional Director in Colombia credited its SIU
operation with supporting the vast majority of the DEA’s investigations in
that country. Many DEA personnel with whom we spoke considered the SIUs
critical to accomplishing the DEA’s foreign mission, increasing the safety of
DEA personnel, helping to reduce the chance of sensitive information being
compromised, and most importantly providing the DEA with an operational
arm in foreign countries. For example, in May 2006, SIUs in Colombia and
Brazil, working with several other DEA domestic and foreign offices,
completed a 3-year investigation that resulted in over 100 arrests, including
an individual identified on the CPOT list. The operation also resulted in the
seizure of about 52 tons of cocaine and nearly $70 million in assets.

      In February 2006 a Mexican SIU unit conducted a surveillance
operation with assistance from the DEA that resulted in the arrest of a CPOT
residing in Mexico. Additionally, the SIU program in Mexico was
instrumental in the successful completion of a major methamphetamine
investigation that resulted in the seizure of 15 methamphetamine labs and
over 130 pounds of methamphetamine with a potential street value of over
$1 million.




      9
          This data did not include the vetting status of the foreign personnel.


                                              xi
                           REDACTED – PUBLIC VERSION
                      REDACTED – PUBLIC VERSION


      DEA management in Thailand told us of an SIU-assisted investigation
that resulted in the indictment of the leader and seven top lieutenants of a
worldwide heroin and methamphetamine-trafficking organization that was
believed to have been responsible for $1 billion in heroin trafficking into the
United States since 1985. The investigation involved the execution of
26 search warrants that resulted in the seizure of 18,000 methamphetamine
tablets, $25.6 million in cash, 86 kilograms of heroin, and various weapons
and explosives.

       However, although the DEA was able to provide us with these and
other examples of individual SIU accomplishments, we found that the DEA
was unable to empirically demonstrate the accomplishments of its SIU
program as a whole. For example, the DEA does not collect and analyze
activity statistics attributable to its SIU Program, such as arrests, the
number of surveillance operations, or efforts tied to a CPOT or a PTO
investigation. Additionally, the DEA has not evaluated the collective effect of
the SIU Program. While we recognize that the investigative activities of the
SIUs are often run by the host country, we believe the DEA should collect
and analyze appropriate empirical data relating to the accomplishments of
the SIUs.

SIU Management and Oversight

       We also evaluated the DEA’s management of, and selected practices
governing, its SIU Program, both at DEA headquarters and at DEA foreign
offices in Colombia, Mexico, and Thailand. Our examination of the DEA’s SIU
Program revealed significant deficiencies, including: (1) poor recordkeeping,
(2) [SENSITIVE INFORMATION REDACTED], (3) inadequate control over SIU
equipment, (4) inadequate practices for supplying salary supplement
payments to unit members, (5) excessive span of control ratios for
management of the units, (6) insufficient evidence of training, and
(7) failure to perform exit briefings of outgoing SIU members.




                    [SENSITIVE INFORMATION REDACTED]




                                      xii
                      REDACTED – PUBLIC VERSION
                         REDACTED – PUBLIC VERSION



                       [SENSITIVE INFORMATION REDACTED]




                       [SENSITIVE INFORMATION REDACTED]




     We also queried DEA management and operational personnel assigned
to DEA foreign offices in three countries regarding exit briefings of outgoing
SIU members, which are required by DEA guidelines covering the program.10
[SENSITIVE INFORMATION REDACTED]. We found that the DEA generally
had not conducted exit briefings in the countries we visited.




                       [SENSITIVE INFORMATION REDACTED]




Relationships

       A crucial aspect contributing to the success or failure of DEA
investigative activity abroad is the relationships DEA personnel stationed
overseas develop and maintain with counterpart agencies. These
relationships include those with: (1) other DEA offices – both foreign and
domestic, (2) other U.S. law enforcement agencies abroad, and (3) foreign
governments and their law enforcement components charged with
combating illicit drug trafficking.


      10
          DEA guidelines prescribe a 5-year term limit for SIU members, requiring Regional
Director approval to extend SIU member terms beyond 5 years.


                                           xiii
                         REDACTED – PUBLIC VERSION
                     REDACTED – PUBLIC VERSION


      During our interviews, we were told that as a result of the cultural
attitudes in many foreign countries, personal bonds between individuals first
need to be developed and are very significant in fostering a mutually
beneficial professional working relationship. DEA personnel commented that
having formed a good relationship with their foreign counterparts often
resulted in more timely cooperation in response to DEA requests for
information. DEA officials told us that they spend a great deal of effort
developing and fostering relationships with their counterparts.

      During our fieldwork, we met with 31 personnel from foreign
counterpart agencies to discuss their relationships with the DEA. The overall
consensus was that DEA personnel had established excellent relationships
with their foreign counterparts and that working with the DEA was beneficial
to foreign law enforcement efforts, particularly in building international
partnerships, providing training opportunities, and supplying useful
investigative equipment.

       We also found that DEA domestic personnel were pleased with the
relationships they had with DEA foreign offices and with the feedback
received from these offices. Further, the DEA foreign offices generally
maintained good partnerships with the other U.S. agencies operating
abroad.

Foreign Administrative Functions

        Our review included an evaluation of certain administrative functions
for DEA foreign offices, including an assessment of the DEA’s administration
of its imprest funds and its security and firearms practices and records. We
found certain deficiencies in these areas due to weak management oversight
and poor implementation of established rules and procedures.

Imprest Funds

      Imprest funds are fixed or petty-cash funds held in the form of
currency or coins that are advanced to designated cashiers, who in turn
advance the funds to employees to cover investigative expenses, to make
small purchases, to pay informants, and for other uses. At the time of our
fieldwork, the imprest funds in DEA foreign offices totaled approximately
$3.18 million.




                                     xiv
                     REDACTED – PUBLIC VERSION
                          REDACTED – PUBLIC VERSION


       We reviewed selected imprest fund activities at 7 of the 10 foreign
offices we visited.11 These seven offices were accountable for $963,000 in
imprest fund monies. At these offices, we interviewed cashiers about their
responsibilities, observed a count of the respective office’s imprest fund, and
tested a sample of transactions.

       At six of the seven offices where we observed the imprest fund count,
the cash, expenditure documents, and reimbursement checks equaled the
total amount authorized for the imprest funds. In one office, our cash count
observations revealed minor irregularities.

      We also reviewed a sample of FY 2005 and 2006 imprest fund
transactions at seven DEA foreign offices. We selected and reviewed a
sample of 233 transactions out of a universe of 3,266 transactions. Based
on our testing, we identified numerous discrepancies, including missing
supporting documentation, untimely return of “flashroll” currency, omitted
signatures, and untimely clearing of advanced funds.12

Security

      While conducting our fieldwork in DEA foreign offices, we performed
observational walk-throughs of DEA work space, observed office and
personnel security practices, reviewed safe and door combination change
records, and examined firearms storage practices. We identified poor security
practices in each of these areas. For example, in two DEA foreign offices we
observed DEA personnel communicating on cellular phones inside a controlled
access area in violation of Department of State (State Department) policy.
We also found that DEA management in two offices had not ensured that the
combinations to doors and safes were changed regularly as required.

Firearms

      According to the DEA Agents Manual, all Special Agents (except those
assigned to headquarters staff positions) must qualify semi-annually with
their DEA-issued handguns and any approved personally owned handguns
they seek to have authorization to carry. The manual allows for an
exemption to these requirements for personnel stationed in foreign offices

       11
           Two of the offices (Milan and Rome, Italy) did not have an imprest fund. In
addition, we were unable to fully review the imprest fund in Mazatlán, Mexico, because the
imprest fund cashier was not in the office at the time of our fieldwork, and DEA regulations
prohibit other employees from accessing the fund in the absence of the designated cashier.
       12
          A “flashroll” is a temporary advance issued to a Special Agent during the course of
an investigation and used as “show money” to procure evidence.


                                             xv
                          REDACTED – PUBLIC VERSION
                         REDACTED – PUBLIC VERSION


without appropriate local firearms training facilities. In these instances, the
policy requires the agents to qualify at a DEA training facility on their next
return to the United States.

       Our review of DEA firearms files in foreign offices and qualification
data at DEA headquarters demonstrated that the DEA was not ensuring
firearms certification and many agents were long overdue in weapons
qualifications. Further, at least one agent that was overdue for weapons
qualification stated that he did not re-certify his weapons proficiency when
last in the United States. This exemplifies a lack of emphasis that the DEA
placed on firearms proficiency for its personnel located overseas.

       The DEA informed us at the audit close-out meeting that it recognized
a need for improvement in this area and planned to better enforce its policy
requiring foreign office employees to qualify when on official or personal
travel in the United States, including any approved home leave. However,
we believe that this requirement still allows for the possibility of agents not
certifying proficiency on a weapon issued in a foreign office if during their
foreign tenure they are stationed in an area without an available DEA-
approved qualification facility and they do not return to the United States on
official or personal travel. For example, we found DEA agents in one foreign
office had never qualified on the weapons they received at post, and these
agents had been stationed in the country for 2 to 4 years.

       We also noted that certain DEA offices employed foreign service
nationals (FSNs) as Investigative Assistants, allowing them to carry weapons
in their capacity as DEA employees. For example, one FSN has been
carrying a weapon with the DEA’s tacit consent for more than 20 years.
Allowing FSNs to carry a weapon without determining their weapons
proficiency could result in a significant liability for the agency. The DEA
stated that it recognized this vulnerability, which prompted the agency to
develop a policy addressing FSNs carrying firearms during official DEA duty.
The DEA promulgated this policy in July 2006, and we were provided this
policy subsequent to our audit close-out meeting. Our review of the policy
revealed that it allows for an FSN stationed in a country without a DEA-
approved firearms facility to be exempt from qualification standards.

      Additionally, we followed up with the DEA regarding how the policy
applied specifically to FSNs carrying personally owned firearms during official
duty, [SENSITIVE INFORMATION REDACTED].13 The DEA responded that
FSNs are prohibited from carrying personally owned firearms while on official

      13
         The DEA stated that FSNs may carry firearms only if it complies with host nation
law and only after being authorized by the host nation government.


                                           xvi
                         REDACTED – PUBLIC VERSION
                        REDACTED – PUBLIC VERSION


DEA duty. Moreover, the DEA also stated that the intent of the policy was
for firearms and ammunition to be issued to FSNs only on a day-to-day
basis, unless the Regional Director specifically approves an exemption and
allows the FSN to carry the DEA-issued weapon on a 24-hour basis. We
believe the DEA should review its policy and ensure that this temporary
authorization element and the prohibition of carrying personally owned
firearms is addressed in the agency’s FSN firearms policy.

International Training Endeavors

      We found that the DEA provided training opportunities to its foreign
law enforcement counterparts and these efforts contributed to the DEA’s
good reputation for cooperation and assistance. However, we found some
room for improvement in the DEA’s coordination of its international training
with other agencies that provide similar opportunities for training.
Additionally, DEA personnel stationed in foreign offices did not receive
appropriate training on certain administrative functions important to the
maintenance of DEA foreign office operations, such as imprest fund
administration and accountable property management.

      According to the DEA, it has offered counternarcotics training to its
foreign counterparts since its inception in 1973, providing instruction
internationally and in the United States, usually at the DEA Training Academy
located in Quantico, Virginia. DEA officials stated that the DEA currently
trains approximately 2,500 foreign law enforcement officers each year. The
intent of DEA international training is to develop lasting working relationships
between countries and to build institutional infrastructure within foreign law
enforcement agencies and judicial systems.

       During our numerous interviews with personnel from foreign law
enforcement agencies, we were repeatedly told that they greatly valued the
training opportunities that the DEA provided to them. In addition, many of
these individuals commented that the DEA is an important source for drug
enforcement knowledge and expertise.

      The DEA’s international training efforts are varied and include basic
and advanced training for foreign law enforcement officials who are part of
the DEA’s SIU Program, as well as various regular seminars and
conferences. The DEA also provides training at the State Department’s
International Law Enforcement Academies (ILEA).14 The leadership of these
      14
          The State Department developed the ILEA Program and opened the first ILEA in
Budapest, Hungary, in 1995. The DEA provides training there and at the ILEAs in Bangkok,
Thailand; Gaborone, Botswana; and San Salvador, El Salvador. The ILEA budget averages
approximately $16 million annually.


                                          xvii
                        REDACTED – PUBLIC VERSION
                      REDACTED – PUBLIC VERSION


ILEAs is shared among participating U.S. agencies, and as of July 2006, the
DEA held executive management positions at two of the facilities.

      In addition to its instructional training to foreign counterparts, the DEA
seeks to improve international drug enforcement capabilities by sponsoring
information-sharing opportunities. One such initiative is the annual
International Drug Enforcement Conference (IDEC). The IDEC was founded,
sponsored, and coordinated by the DEA, and the DEA Administrator serves as
the permanent IDEC co-President. The IDEC XXIV was held in Montreal,
Canada, in May 2006 and included representatives from 76 countries.

       Funding for the DEA’s international training comes from both internal
and external sources. Internally, the DEA supports international training by:
(1) allocating a portion of its budget to the DEA International Training Section,
and (2) allowing its foreign offices to use their discretionary funds for training-
related purposes. Externally, the DEA receives resources for training from the
Departments of Justice, State, and Defense (DOD).

       We attempted to determine the total amount of funds from all sources
that the DEA expended on international training matters each fiscal year.
However, the DEA stated that it may not completely capture all the training
that it provided or arranged to be provided to its foreign counterparts because
of the decentralized fashion in which other agencies distribute funding for
international training opportunities. The DEA did provide available funding
information, and, according to this data, approximately $3.2 million was
expended to supply training to DEA foreign counterpart personnel in FY 2005.
The DEA’s portion of this funding amounted to 40 percent and DOJ provided
another 18 percent. External sources such as the DOD and the State
Department provided the remaining 42 percent, as shown in the following
exhibit.




                                      xviii
                      REDACTED – PUBLIC VERSION
                              REDACTED – PUBLIC VERSION


           SOURCES OF INTERNATIONAL TRAINING FUNDS
                       FISCAL YEAR 2005
                                                    Department of Justice
                                                          $589,215
                      Department of Defense                 18%
                             $4,624
                              0%


                                                                            Drug Enforcement
                                                                              Administration
                                                                                $1,258,217
                                                                                   40%

             Department of State
                 $1,320,514
                    42%




             Source: OIG analysis of the Drug Enforcement Administration’s
                     International Training Section budget data


      Including DEA funding, DOJ provides 58 percent of the financial
support for DEA foreign training. The State Department provides most of
the remaining funding. State Department headquarters representatives
informed us that budget rescissions will severely limit the resources the
State Department will be able to provide the DEA in the future. This
projected reduction in the resources available for international training
increases the importance of the DEA’s efforts to coordinate its activities with
others. During our fieldwork, State Department personnel in Colombia
informed us that their office had resources to provide additional anti-drug
and law enforcement-related training to foreign counterparts. Although DEA
personnel in Colombia told us that they were in need of additional training
resources, they had not approached the State Department to discuss such
possibilities.

       Another area of training that we examined was instruction provided to
DEA foreign personnel. Due to the relatively small staff size of its foreign
offices, many DEA Special Agents, Intelligence Research Specialists, and
support staff are assigned collateral duties in foreign offices and may be
given responsibility for administrative functions, such as maintaining the
imprest fund, accounting for equipment, and maintaining inventories. Often,
these personnel had never previously performed such tasks and reported
having received no training for these responsibilities. As we noted earlier,
we found several compliance issues involving certain administrative
functions. We believe that the DEA needs to increase its efforts to provide


                                              xix
                              REDACTED – PUBLIC VERSION
                      REDACTED – PUBLIC VERSION


training on administrative functions, particularly to DEA foreign personnel
responsible for imprest fund administration and accountable property
management.

Conclusion and Recommendations

       We found that DEA has established valuable relationships with foreign
counterparts who help its efforts to combat major drug trafficking
organizations affecting the United States and has earned a good reputation
for its training of foreign law enforcement personnel. DEA performance data
indicates that the DEA’s international offices were pursuing high-priority
cases and had succeeded in disrupting and dismantling many of these
organizations.

       However, the DEA could not provide us with basic data regarding the
activity of its international offices. For example, the DEA does not have a
standardized system for its foreign offices to use in tracking the leads and
requests for assistance received. Additionally, we found that the DEA did
not require its foreign regions and offices to develop annual performance
plans for FYs 2004 through 2006. Moreover, DEA headquarters was not
using available empirical data, such as work hours data, in its oversight of
foreign office activity. The absence of established goals and essential
management tools such as a lead tracking system hurts the DEA’s ability to
monitor and evaluate the performance of its foreign offices.

      Our audit also revealed significant deficiencies with the DEA’s
management and oversight of its investigative activities within its vetted
units. In addition, we identified deficiencies in the DEA’s management of
imprest funds and practices and records for security and firearms.

      We believe that improvements to administrative and management
functions of DEA foreign offices and programs would remedy most of these
findings. [SENSITIVE INFORMATION REDACTED]

     In total, the OIG has made 22 recommendations to assist the DEA in
improving its international operations.




                                      xx
                      REDACTED – PUBLIC VERSION
                           REDACTED – PUBLIC VERSION

 AUDIT OF THE DRUG ENFORCEMENT ADMINISTRATION’S
            INTERNATIONAL OPERATIONS

                               TABLE OF CONTENTS

CHAPTER 1: INTRODUCTION .............................................................1
  Overview of the DEA ...................................................................... 1
  DEA Foreign Field Offices ................................................................ 4
  DEA Funding and Personnel ............................................................. 8
  Prior Reports ............................................................................... 12
  Audit Approach ............................................................................ 12

CHAPTER 2: FOREIGN OFFICE PERFORMANCE MEASUREMENT........15
  Tracking Investigative Leads ......................................................... 15
  Performance Planning ................................................................... 17
  Measuring Performance................................................................. 19
  Regionalization Concept ................................................................ 24
  Conclusion .................................................................................. 26
  Recommendations........................................................................ 27

CHAPTER 3: INVESTIGATIVE OPERATIONS.....................................28
  Foreign Investigative Environment ................................................. 28
  Vetted Investigative Units ............................................................. 29
  Sensitive Investigative Units.......................................................... 30
  Non-SIU Vetted Units ................................................................... 44
  Conclusion .................................................................................. 45
  Recommendations........................................................................ 45

CHAPTER 4: RELATIONSHIPS .........................................................47
  Foreign Office Relationships with Other DEA Offices .......................... 47
  Other U.S. Law Enforcement Agencies ............................................ 50
  Foreign Counterpart Agencies ........................................................ 51
  Conclusion .................................................................................. 53

CHAPTER 5: ADMINISTRATIVE FUNCTIONS ....................................54
  Imprest Funds ............................................................................. 54
  Operational Accounts.................................................................... 58
  Security Matters .......................................................................... 58
  Firearms Qualification ................................................................... 62
  Administrative Cost Determinations ................................................ 66
  Conclusion .................................................................................. 67
  Recommendations........................................................................ 67




                           REDACTED – PUBLIC VERSION
                           REDACTED – PUBLIC VERSION

CHAPTER 6: INTERNATIONAL TRAINING ........................................69
  International Training Section ........................................................ 69
  Other International Initiatives ........................................................ 75
  Preparatory Training for Foreign Assignments .................................. 76
  Training on Foreign Administrative Functions ................................... 77
  Recommendation ......................................................................... 78

APPENDIX I           - OBJECTIVES, SCOPE, AND METHODOLOGY ............79

APPENDIX II - COUNTRY PROFILES OF FIELDWORK LOCATIONS ..84
   Republic of Colombia .................................................................... 84
   Italian Republic............................................................................ 86
   United Mexican States .................................................................. 88
   Kingdom of Thailand..................................................................... 91
   Republic of Turkey ....................................................................... 93

APPENDIX III - DEA PERSONNEL IN FOREIGN OFFICES .................95

APPENDIX IV - TIMELINE OF DEA FOREIGN OFFICE
              ESTABLISHMENT ...................................................98

APPENDIX V           - RECORD OF INTERVIEWS CONDUCTED ................103

APPENDIX VI - DRUG ENFORCEMENT ADMINISTRATION
              RESPONSE ...........................................................110

APPENDIX VII - OFFICE OF THE INSPECTOR GENERAL
               ANALYSIS AND SUMMARY OF ACTIONS
               NECESSARY TO CLOSE THE REPORT ....................164




                           REDACTED – PUBLIC VERSION
                           REDACTED – PUBLIC VERSION


                         CHAPTER 1: INTRODUCTION

      Illegal drug trafficking is a global problem, with criminal organizations
worldwide participating in these illegal drug trafficking activities. In a recent
study, the United Nations estimated the world market for illicit drugs at
$322 billion.15 In 2002 the U.S. government projected the economic cost of
drug abuse on the United States at $180 billion.16

Overview of the DEA

      On July 1, 1973, a Presidential Executive Order created the Drug
Enforcement Administration (DEA), and it became the primary federal
agency responsible for investigating illicit drug trafficking organizations
operating within the United States. The DEA’s stated mission is to enforce
the controlled substances laws and regulations of the United States, bringing
to justice the illicit drug organizations and their principal members involved
in the growth, manufacture, or distribution of controlled substances that are
smuggled into and throughout the country. The DEA’s enforcement
philosophy is to develop investigative cases to attack the organizational
command and control structures of major drug trafficking organizations.

       The ultimate goal of these efforts is to significantly disrupt drug
trafficking operations and to dismantle the criminal organizations entirely,
while ultimately bringing their leaders to prosecution, either in the United
States or through another country’s judicial system. The Department of
Justice (DOJ) maintains a working list, which is updated at least annually
based on a collection of intelligence from various agencies, of the drug
trafficking organization kingpins throughout the world whose operations
most significantly affect the United States. According to DOJ officials, since
its inception in 2002, this “Consolidated Priority Organization Target” (CPOT)
list has contained a total of 80 targets, none of whom resided in the United
States. As of June 2006, the list included 46 targets. Therefore, to combat
the highest priority drug trafficking organizations, the DEA extends its efforts
to countries where major drug traffickers live and operate. DEA personnel
are stationed abroad to work closely with other foreign law enforcement
agencies, as well as other U.S. agencies operating in the international arena.

     According to the DEA, the U.S. government was operating offices
overseas to combat illicit drug trafficking well before the DEA was created in
       15
            United Nations, Office of Drugs and Crime. Annual Report, 2005.
       16
          The Executive Office of the President of the United States, Office of National Drug
Control Policy. The Economic Costs of Drug Abuse in the United States 1992-2002,
December 2004.

                                       1
                           REDACTED – PUBLIC VERSION
                           REDACTED – PUBLIC VERSION


1973. In 1951, for example, the U.S. government opened its first foreign
office dedicated to drug trafficking matters in Rome, Italy. Offices in Beirut,
Lebanon, and Paris, France, followed in 1954 and 1959.17 A major example
of international partnerships occurred as early as 1960 when U.S. foreign
drug agents worked with their foreign counterparts to investigate morphine
trafficking out of Lebanon and Turkey to France for heroin production. This
international coordination resulted in the Turkish government banning
morphine production and led to the dismantling of French heroin trafficking
organizations.

      Since the current DEA Administrator took office in 2003, she has
pursued an increase in DEA resources dedicated to the international arena.
During this time, the DEA has increased its number of foreign offices,
bolstered its international funding, and augmented the number of personnel
assigned in the foreign arena to combat illicit drug trafficking organizations
at their foundation.

DEA Headquarters

      DEA headquarters, located in Arlington, Virginia, is responsible for
developing the strategic objectives, management policies, and operational
protocol for the agency.18 It provides oversight and assistance to its
operational field entities located throughout the United States and across the
world. Six operational divisions comprise the majority of the workforce for
DEA headquarters. The Operations Division contains the components that
have the most interaction with and responsibility for DEA foreign activities.
The following is an organizational chart of the DEA’s Operations Division.




       17
            This Beirut office closed in 1958, reopened in 1959, and closed again in 1976.
       18
           Certain headquarters-level components are located outside of the DEA’s main
headquarters campus in Arlington, Virginia. For instance, the DEA Training Division is
stationed in Quantico, Virginia; the Special Operations Division (SOD) is housed in Chantilly,
Virginia; and the El Paso Intelligence Center (EPIC) resides in El Paso, Texas.

                                       2
                           REDACTED – PUBLIC VERSION
                           REDACTED – PUBLIC VERSION


                DEA Operations Division Organization Chart


                                         Chief




   Office of   Office of     Office of    Special                    Office of       Office of
                                                       Office of
  Operations   Diversion     Financial   Operations                International   Enforcement
                                                       Aviation
 Management     Control     Operations    Division                   Programs       Operations

Source: Drug Enforcement Administration

       In brief, the Operations Division contains the headquarters offices
responsible for the support of all DEA operational activity, both foreign and
domestic. The first four offices in the chart above support specialized DEA
investigative activity and developing and promulgating agency policy. The
Office of Operations Management is involved with foreign offices and
activities mainly by generating management policies and coordinating formal
working agreements with international law enforcement counterparts. The
Office of Diversion Control assists foreign offices in activity related to
precursor chemical awareness and movement.19 The Office of Financial
Operations is responsible for initiating policy and coordinating matters
related to money laundering investigations, which the DEA Administrator has
announced as a major priority of the agency. The Special Operations
Division (SOD) coordinates intelligence related to and derived from pen
registers and communication intercepts for domestic and foreign offices.20
The DEA’s Office of Aviation is also managed by its Operations Division and
has posts located internationally, such as in Colombia and Mexico, to provide
support to various DEA operations.

      The remaining two Operations Division offices have the most
involvement in DEA foreign offices. All drug enforcement matters –
domestic and foreign – are coordinated through the Office of Enforcement

      19
         Precursor chemicals are materials used in the manufacture of a controlled
substance.
      20
           A pen register is a tool employed by law enforcement agencies that allows an
investigator to view phone numbers called and received from a specific phone. A
communication intercept is the recording of telephone conversations and can be a hardline
phone tap or an interception of wireless communication. These are two of the SOD’s
principal functions.

                                       3
                           REDACTED – PUBLIC VERSION
                      REDACTED – PUBLIC VERSION


Operations. This office’s foreign functions include ensuring cooperation of
investigative cases between domestic and foreign DEA offices, coordinating
large international operations, and developing strategic targeting initiatives.

       The DEA’s Office of International Programs is dedicated to supplying
necessary administrative support to DEA foreign offices and international
programs. This office is also responsible for representing the DEA within the
international law enforcement community, coordinating foreign dignitary
visits to DEA domestic offices, arranging for DEA Administrator meetings
with foreign counterparts, planning international conferences, managing the
overall DEA foreign budget, and preparing DEA personnel for foreign
postings. The Office of International Programs has no involvement in any
enforcement activities.

DEA Foreign Objectives

       The DEA’s legal operating authority abroad is different than in its
domestic offices because DEA agents stationed overseas do not have law
enforcement jurisdiction. The DEA’s operating authorities differ from country
to country depending on host-country laws, agreements between
governments, international treaties, and local policies issued to U.S. agencies
by the U.S. Ambassador. Despite different working environments, DEA
foreign offices pursue five principal objectives when working with foreign
counterpart agencies: (1) participate in bilateral investigations; (2) cultivate
and maintain quality liaison relations; (3) promote and contribute to foreign
institution building; (4) support intelligence gathering and sharing efforts;
and (5) provide training opportunities.

DEA Foreign Field Offices

       According to the DEA and the DOJ’s CPOT list, the criminal syndicates
involved in the trafficking of illegal drugs into and throughout the United
States often reside in other countries, beyond the DEA’s enforcement
jurisdiction. DEA officials further asserted that the DEA must develop and
maintain relationships with foreign law enforcement agencies to obtain
information necessary to further its investigations and to successfully
combat drug trafficking into and within the United States. To this end, the
DEA has an established network of foreign field offices that liaison and work
bilaterally with foreign law enforcement agencies, as well as with other
U.S. entities located abroad.

      DEA foreign field offices are considered part of the U.S. Embassy
mission and may be housed within or outside the Embassy or Consulate.
The primary DEA office in a foreign country is referred to as the DEA Country

                                  4
                      REDACTED – PUBLIC VERSION
                           REDACTED – PUBLIC VERSION


Office. In some instances, the DEA has more than one office in a country,
and these secondary offices are called Resident Offices. A typical DEA
foreign office is staffed by Special Agents, Intelligence Research Specialists,
administrative support personnel, and foreign national hires, also known as
foreign service nationals (FSNs).21 The senior DEA position in each Country
Office is the DEA Country Attaché. In addition to reporting to the
appropriate DEA management, the DEA Country Attaché must also report to
the U.S. Ambassador on DEA matters and activities within the host country.
The DEA Resident Offices report to the DEA Country Office.

      The chart below shows the overall growth in the number of DEA
foreign offices over the last 30 years. The DEA increased its foreign offices
from 66 in 1975 (shortly after its inception) to 79 in fiscal year (FY) 2005.


                          Number of DEA Foreign Offices
                               1975 – Present22

                                                                                      86
                                                               77          79
     66                                 70          68
                 57         60




    1975        1980       1985        1990        1995       2000        2005      Current
  Source: Drug Enforcement Administration Office of International Programs

      Currently the DEA operates 80 foreign offices and is in the process of
opening 6 more offices, which will give it a total of 86 offices in 62 foreign
countries. The map on the following page indicates the locations of DEA
foreign offices, noting Country Offices (red dot), Resident Offices (green
dot), and future offices (black dot).




       21
           Foreign service nationals are non-U.S. citizens who enter into employment contracts
with U.S. government agencies abroad, including DEA foreign offices.

       22
         The current DEA foreign office figure in the chart represents foreign offices that
the DEA opened in FY 2006 and offices that the DEA is in the process of opening.

                                       5
                           REDACTED – PUBLIC VERSION
                                            REDACTED – PUBLIC VERSION
                                                   DEA Foreign Offices
                                                                       23
                                                      (as of June 2006)




Source: Drug Enforcement Administration’s Office of International Programs

     23
        The office in Warsaw, Poland, opened in 2006. The future offices identified in Mexico are pending approval from the
     government of Mexico.
                                                        6
                                            REDACTED – PUBLIC VERSION
                          REDACTED – PUBLIC VERSION


       According to a DEA headquarters official, the agency is constantly
asked by foreign governments to open offices in other countries. However,
the DEA only opens offices in countries that are in some way tied to the flow
of illegal drugs into the United States. This includes countries that are a
source of drugs or precursor chemicals, countries where significant money
laundering occurs, or countries that are linked to drug trafficking
organizations that threaten the United States. Ultimately, the host
government, the U.S. Chief of Mission, and Congress must authorize the
opening of a new foreign office. As a sovereign state, any host country may
withdraw this permission at any time.

       In 2004, the DEA divided its foreign offices into seven regions. These
regions are managed by Regional Directors who are located within certain
DEA foreign offices. The position and role of a Regional Director is
equivalent to that of a DEA Special Agent in Charge (SAC) for a domestic
office.

       A Regional Director has overall responsibility for the activities of DEA
Country Offices and Resident Offices in multiple countries.24 For instance,
the DEA Regional Director for the Andean Region is responsible for countries
predominantly located along the northern portion of the Andean mountain
range in South America, including Colombia, Ecuador, Peru, and Venezuela.
Comparably, the SAC for the DEA Atlanta Division oversees DEA offices and
activities in Georgia, North Carolina, South Carolina, and Tennessee. The
following exhibit shows the DEA foreign regions and the cities in which the
DEA Regional Directors are located.




       24
           Being the highest ranking DEA officer in the country, the Regional Director is also
the DEA Country Attaché. The Caribbean Region is managed by the DEA’s San Juan
Division; the San Juan office is a domestic field division managed by a SAC.

                                      7
                          REDACTED – PUBLIC VERSION
                                 REDACTED – PUBLIC VERSION


                                          DEA Foreign Regions




                                          Rome




                               San Juan
 Mexico City
                              Caribbean
                                                                                  Far East Region
                              Region
  Mexico & Central
  American Region                                            Ankara
                                                            Middle East
                Bogotá                                                  Bangkok
                                                              Region
                                          Europe & Africa
       Andean Region                          Region


                     La Paz


                                    Southern Cone
                                        Region




 Source: Drug Enforcement Administration

DEA Funding and Personnel

       The DEA’s FY 2006 overall budget was approximately $1.67 billion.25
Its foreign offices and activities comprise nearly 20 percent of this funding,
with an allocation of almost $312 million. The amount of resources allocated
to foreign offices varies from country to country, and from location to
location. Each office is provided a funding allocation, the amount of which is
determined based upon the breadth of operational activity and the number
of personnel assigned to the office. In turn, the level and type of allowable
operational activity determines the staffing size of DEA foreign offices. For
example, if host country officials permit DEA personnel to work with them in
conducting bilateral investigations, a DEA foreign office may have a larger
staff than other locations that are limited to more liaison-type activities.
Further, the exact number of positions located in foreign offices requires
approvals from various Department of State (State Department) officials
including the U.S. Ambassador, and in some cases the host government.
The number of DEA personnel stationed in a foreign office varies from 109
allocated positions in Colombia to 2 positions each in Australia, Japan, and
Laos. On average, DEA foreign offices are allocated about 9 positions.




         25
         Drug Enforcement Administration. FY 2007 Congressional Budget Submission,
February 2006.

                                             8
                                 REDACTED – PUBLIC VERSION
                        REDACTED – PUBLIC VERSION


DEA Budget

       Over the last 7 years, the DEA’s overall budget grew by 33 percent,
from $1.25 billion in FY 2000 to $1.67 billion in FY 2006. During this same
period, the DEA’s foreign budget increased 55 percent, from about
$201 million in FY 2000 to almost $312 million in FY 2006. Thus, the DEA
proportionately increased the budget for its foreign activities at a greater
rate than its overall growth. The DEA’s proposed FY 2007 budget request is
over $1.7 billion, including nearly $352 million for international endeavors.
If these amounts are appropriated, the DEA’s budget for foreign activities
will have expanded by 75 percent from its FY 2000 funding allocation. The
greater proportionate growth in the DEA’s foreign budget, compared to its
overall budget over the last several years demonstrates the agency’s
increased emphasis on international activities. The following table illustrates
percentage growth from FY 2000 for the DEA’s overall budgets and the
funding dedicated to international operations.

            DEA BUDGET PERCENTAGE GROWTH SINCE FY 2000
               TOTAL BUDGET vs INTERNATIONAL BUDGET
                             Total Budget   International Budget

  80%

  70%

  60%

  50%

  40%

  30%

  20%

  10%

   0%

 -10%
     2000      2001      2002        2003      2004        2005     2006      2007
                                                                           (projected)

 Source: OIG analysis of Drug Enforcement Administration budget figures




                                    9
                        REDACTED – PUBLIC VERSION
                         REDACTED – PUBLIC VERSION


DEA Personnel

       In total, the DEA had 10,866 authorized positions for FY 2006, dividing
its personnel resources into seven main categories: (1) Special Agents;
(2) Intelligence Research Specialists; (3) Diversion Investigators;
(4) professional, administrative, technical, and clerical (PATC) staff;
(5) Investigative Technology Specialists; (6) chemists; and (7) attorneys.
Special Agents are the standard investigative personnel of the federal law
enforcement community, while Intelligence Research Specialists provide
support to DEA investigations by collecting and analyzing drug intelligence
relevant to the DEA’s mission. Diversion Investigators investigate the illegal
diversion of pharmaceuticals, coordinate with the pharmaceutical industry,
and educate the public about precursor chemicals and the impact of diverted
prescription drugs. The majority of the DEA’s administrative support
functions are handled by PATC employees.

      Approximately 7 percent of the DEA total allotted positions are
allocated to foreign offices. DEA personnel must apply for foreign
assignments, all of which are competitive positions. DEA management
informed us that only experienced DEA personnel are eligible for an overseas
posting. The DEA also hires FSNs for certain positions such as secretaries,
drivers, and investigative assistants in its foreign offices. The following table
shows the number of DEA authorized positions for FY 2006.

                     FY 2006 DEA Authorized Personnel26
                                                                         Percent in
    Type of Position                              Total      Foreign      foreign
                                                                           offices
    Special Agent                                 5,295        491         9.27%
    Intelligence Research Specialist                860         87        10.12%
    Diversion Investigator                          621         14         2.25%
    PATC                                          3,484        154         4.42%
    Investigative Technology Specialist             197          5         2.54%
    Chemist                                         331          0         0.00%
    Attorney                                         78          0         0.00%
                                  Totals         10,866        751         6.91%
    Source: OIG analysis of the Drug Enforcement Administration’s Office of Resource
            Management, May 2006 data




      26
          The DEA also had 259 contract employees in its foreign offices in FY 2006. These
included FSNs, spouses of other U.S. Embassy employees, and other U.S. citizens living
abroad.

                                     10
                         REDACTED – PUBLIC VERSION
                                            REDACTED – PUBLIC VERSION


      Since 1997, the DEA has increased its foreign allocated personnel by
195 positions, from 556 to 751. The most significant area of increase was in
Special Agent positions, which increased from 382 in 1997 to 491 in 2006.
Additionally, its Intelligence Research Specialist positions and PATC positions
have also increased significantly during this period. The following chart
provides a perspective of the change in DEA foreign personnel resources
from 1997 through 2006.

                             Change in DEA Authorized Foreign Personnel Positions
                                             1997 through 2006
                           550
                           500
                           450
                           400                                                Special Agent
     Number of Personnel




                           350                                                Diversion Investigator

                           300                                                Intelligence Research Specialist
                                                                              Administrative Support Specialist
                           250
                                                                              Investigative Technology Specialist
                           200
                           150
                           100
                            50
                             0
                                  1997         2000        2003        2006

                             Source: OIG analysis of the Drug Enforcement Administration’s Office of
                                     Resource Management data

DEA Foreign Rightsizing

       In October 2003, the DEA completed a review of its foreign offices in
an effort to determine the number of personnel needed to fulfill the
objectives and needs of each office. This rightsizing review resulted in a
proposal that called for adjustments in the number of authorized positions
within particular DEA foreign offices. The proposal recommended reducing
the personnel size of some offices, increasing others, and keeping the
majority of its foreign offices’ position levels the same. In all, the report
recommended that 17 foreign office positions be reallocated to other foreign
offices and 65 domestic positions be transferred to foreign offices. The
report also recommended that the DEA open five new foreign offices in
Bishkek, Kyrgyzstan; Matamoros, Nogales, and Nuevo Laredo, Mexico; and
Paramaribo, Suriname.27 Since this original review, the DEA has instituted a

                     27
         The Suriname office opened in 2006 and the Kyrgyzstan office is slated to open in
2007. The proposed new offices in Mexico have been approved by Congress and are
pending approval from the government of Mexico.

                                                        11
                                            REDACTED – PUBLIC VERSION
                         REDACTED – PUBLIC VERSION


foreign rightsizing assessment into its annual resource planning, which the
DEA will consider when preparing its budget requests.

Prior Reports

       The OIG previously reviewed various programs and management areas
of the DEA that pertain in some way to this audit of the agency’s
international operations. In September 2003, the OIG released a report on
the DEA’s compliance with the Government Performance and Results Act.28
The OIG found that while the DEA had developed a strategic plan in line with
DOJ's strategic plan, the agency had not developed objectives and measures
definitive enough to effectively evaluate performance and operational
outcome. As of September 2006 the OIG continues to coordinate with the
DEA on resolving this deficiency.

       In May 2005 the OIG issued a report on the DEA’s payments to
confidential informants detailing procedural and management control issues
regarding such payments.29 We made 12 recommendations in that report,
calling for improvements to the DEA's risk management and procedural
control over payments to informants. While that review of DEA informant
payments concentrated on DEA domestic offices, we believe the
implementation of some of the report’s recommendations also applies to the
DEA’s foreign offices. Because of that report, and the DEA’s agreement to
address the recommendations in that report, this review of the DEA’s
international operations did not include a direct assessment of DEA foreign
office payments to confidential informants.

Audit Approach

       The objectives of this audit were to: (1) review the DEA’s foreign
office performance, including its efforts to track operational activity and its
internal mechanisms for evaluating the performance of its foreign
operations; (2) examine the DEA’s involvement and management of
international investigative activity; (3) assess the DEA’s relationships with its
law enforcement counterparts abroad, including its liaison associations and
the exchange of information; (4) analyze the DEA’s processes and controls
over foreign administrative functions, including those related to security,
firearms, property management, and fiscal matters; and (5) review the

      28
          Department of Justice, Office of the Inspector General. The Drug Enforcement
Administration's Implementation of the Government Performance and Results Act, Audit
Report 03-35, September 2003.
      29
          Department of Justice, Office of the Inspector General. The Drug Enforcement
Administration's Payments to Confidential Sources, Audit Report 05-25, May 2005.

                                     12
                         REDACTED – PUBLIC VERSION
                          REDACTED – PUBLIC VERSION


training provided or coordinated by the DEA to its foreign counterparts and
DEA personnel stationed abroad.

       To accomplish these objectives we conducted numerous interviews
with DEA personnel, representatives from other U.S. government agencies,
and foreign government officials. Additionally, we reviewed DEA internal
documentation such as manuals, financial reports, and workload data; we
analyzed DEA empirical data pertaining to investigative casework and
personnel utilization; and we conducted fieldwork at 10 DEA foreign offices
in five foreign countries: Colombia, Italy, Mexico, Thailand, and Turkey. We
selected locations that would provide us with a broad overall perspective of
DEA’s international operations, including geographic location, jurisdiction,
operational activity, and personnel composition.

      In addition, we met with officials at DEA headquarters to discuss the
foreign offices’ goals and objectives, and the DEA’s oversight and support of
foreign offices and operations. We also interviewed personnel at the DEA’s
Training Academy, the SOD, the EPIC, and three DEA domestic offices
(Washington, D.C.; Chicago, Illinois; and El Paso, Texas) about their
interaction with DEA foreign offices.

       We also interviewed representatives from various DOJ components,
such as the Office of International Affairs, the Narcotics and Dangerous
Drugs Section, and the Federal Bureau of Investigation (FBI), about their
agencies’ coordination with the DEA in the foreign environment. We also
spoke with several State Department components, including the Office of
Rightsizing and the Bureau for International Narcotics and Law Enforcement
Affairs (INL), about the DEA’s communication and coordination with those
offices. Additionally, we held discussions with officials from the Department
of Homeland Security’s Bureau of Immigration and Customs Enforcement
(ICE), the Office of National Drug Control Policy (ONDCP), and the
Department of Defense.

      In each of the five countries in which we conducted fieldwork we
reviewed the DEA Country Office, and in four of the five we performed work
at selected DEA Resident Offices. At the offices we visited, we interviewed
DEA management officials, such as the Regional Director or Country Attaché
and Assistant Regional Directors, about the DEA’s foreign activities. At each
Embassy, we interviewed the U.S. Ambassador or the Chief of Mission
designate, representatives from various State Department offices, and
personnel from other U.S. law enforcement, intelligence, and defense
agencies.30 At these locations, we also reviewed DEA procedures,

      30
           A complete listing of agencies with which we met is contained in Appendix V.

                                      13
                          REDACTED – PUBLIC VERSION
                     REDACTED – PUBLIC VERSION


documentation, and files applicable to our review. Moreover, we discussed
the DEA’s activities and conduct in each country with representatives from
the host government’s law enforcement and judicial entities with which the
DEA foreign offices work. The following table indicates the DEA foreign
offices in which we conducted fieldwork. Appendix II includes profiles for
each country we visited during this review.

              DEA Foreign Offices – Fieldwork Locations
                                Resident Office        Resident Office
                  Country
  Country                           in U.S.            independent of
                   Office
                                  Consulate         U.S. foreign property
 Colombia          Bogotá                                 Cartagena
    Italy          Rome              Milan
   Mexico        Mexico City      Guadalajara              Mazatlán
  Thailand        Bangkok
   Turkey          Ankara           Istanbul




                                 14
                     REDACTED – PUBLIC VERSION
                          REDACTED – PUBLIC VERSION


CHAPTER 2: FOREIGN OFFICE PERFORMANCE MEASUREMENT

       According to its strategic plan, the DEA’s primary operational objective
is to combat the drug trafficking organizations most significantly affecting
the United States. The DEA believes its international operations are critical
to accomplishing this goal. Its foreign offices support DEA’s efforts to
investigate drug trafficking organizations that often reside in foreign
countries. DEA foreign offices are also responsible for assisting counterpart
agencies in their drug-related investigations.

       According to DEA data, its foreign offices have had success in
disrupting and dismantling priority drug trafficking organizations operating
throughout the world. Further, DEA work hours data demonstrates that its
foreign personnel spend a significant proportion of their time investigating
priority targets.

       However, the DEA could not provide us with basic objective data
regarding the activity of its international offices. For instance, the DEA does
not require its foreign offices to track the requests for assistance that they
receive. Therefore, the DEA could not objectively assess the quantity or
quality of support that its foreign offices provided to other DEA offices and
counterpart agencies. Additionally, the DEA did not require its foreign
regions and offices to prepare annual performance plans for FYs 2004
through 2006. Instead, we found that DEA foreign regional managers
employed a variety of performance planning and evaluation techniques and
did so with varying degrees of adequacy. Further, DEA headquarters did not
use available data, such as work hours data, in its oversight and evaluation
of foreign office activity.

Tracking Investigative Leads

      DEA foreign personnel stated that a primary function of their offices
was to support DEA domestic investigations by handling investigative leads
that are passed on to their offices.31 Additionally, DEA foreign offices receive
leads or requests for assistance from other DEA foreign offices, other U.S.
government agencies, and foreign counterparts. However, the DEA has no
formal, standardized system to catalog and track the investigative leads or
assistance requests received by its foreign offices.




       31
           An investigative lead is information or a request for information concerning an
active or possible investigative case. A lead typically contains information that investigators
use to validate case information or spur an investigation of a suspect or an organization.

                                      15
                          REDACTED – PUBLIC VERSION
                      REDACTED – PUBLIC VERSION


       Our review revealed that, in the absence of an agency-wide system,
several offices had independently created local mechanisms that resembled
a lead tracking system. DEA offices in Rome and Milan, Italy; Guadalajara,
Mexico; Ankara and Istanbul, Turkey; and Bangkok, Thailand; had
developed office-specific practices to help manage work requests submitted
to their offices. For example, the DEA Guadalajara office had developed a
spreadsheet to track incoming investigative leads. However, the entire
office was not consistently utilizing the spreadsheet because it identified the
receipt of only 18 leads in about 6 weeks, which was not commensurate with
the level of activity reported for this office. Additionally, a senior Special
Agent had recorded no leads, one agent had just two leads, and another
agent had just one lead in the system.

      The DEA Bangkok office did not have a formal, centralized tracking
system, but two supervisors we interviewed had developed their own
methods, such as systematically identifying action items within e-mails to
track the leads they received.

       The most complete tracking systems existed in the Ankara, Istanbul,
Milan, and Rome offices. These offices employed correspondence logs for
tracking requests for assistance between foreign counterparts and the DEA.
The Milan office went one step further and developed an action log that
recorded all non-foreign assistance requests in an electronic spreadsheet,
including DEA investigative leads and other U.S. agency requests for
assistance. The log assigned a unique number to each request and included
such information as the date it was received, the requesting office and area
(i.e., country or city) of responsibility, the subject of inquiry, what type of
action was required (e.g., meeting or research), the agent to whom it was
assigned, and the date it was completed. The DEA Milan Resident Agent in
Charge (RAC) stated he used these logs to monitor the status and
completion of assistance requests. In total, the DEA Milan office had
systems to sufficiently track all investigative leads and requests for
assistance received by the office.

      Other offices we visited did not employ systems to manage the leads
they received, even though these offices stated they received leads and
assistance requests. For example, an agent in the Colombia field office said
that he received 50 leads every day. He further stated that he discarded
those leads he determined not to be a priority. One Assistant Regional
Director in this office acknowledged that some leads probably get lost or fall
through the cracks. This manager further stated that the office relied on the
requesting domestic offices to follow up on matters for which they did not
receive a response. DEA management in Colombia stated that a lead
tracking system would help in monitoring the office’s investigative activity

                                  16
                      REDACTED – PUBLIC VERSION
                         REDACTED – PUBLIC VERSION


and supporting other DEA cases and counterpart requests for assistance.
Another DEA manager remarked that requests from all sources should be
tracked to ensure that the foreign offices take appropriate action in response
to all action items.

       In our judgment, DEA managers in the foreign field offices need a
standardized tracking system to monitor an office’s fulfillment of
investigative lead and assistance requests and to prioritize work. The DEA
could also use the data within this system to evaluate the effectiveness of its
foreign offices’ support of domestic office cases and assistance of foreign
counterparts. The absence of such a system in foreign offices means that
the DEA can only estimate the number of investigative leads or requests for
information that are handled by its foreign offices, which prevents the DEA
from tracking the amount and type of tasks being requested of its foreign
offices. Additionally, such a system would provide foreign management with
an effective tool to ensure that requests are timely met according to office
priorities. At the audit close-out meeting, DEA officials stated that it would
develop a template for foreign offices to use in tracking and prioritizing
investigative leads and requests for assistance.

Performance Planning

      The DEA maintains a strategic plan that is tied to the DOJ’s Strategic
Goal II to “enforce the federal laws and represent the rights and interests of
the American people”. This plan includes operational objectives and
measures to use in the evaluation of each strategic goal, as well as a
description of the means and resources believed necessary to accomplish the
goals. According to DEA’s planning process, this agency-wide strategic
document is supposed to be complemented by performance plans for the
DEA’s field components. These field component plans should set the goals
by which foreign offices and operations can be measured against the DEA’s
mission, strategic objectives, and budget.

      In FY 2004, the DEA announced the regionalization of its foreign office
structure.32 Before that, each DEA Country Office was required to submit an
annual planning document to DEA headquarters that detailed operational
objectives for the upcoming year. In October 2003, DEA headquarters
announced that these country plans were no longer required because the
agency was creating a uniform planning protocol to correlate with the new
regional structure of the DEA’s foreign program. Subsequent to our audit
close-out meeting, DEA headquarters provided a draft version of its Foreign
Region Management Plan Annual Guidelines, dated September 2006, and
       32
          As discussed in Chapter 1, the DEA divided its foreign presence into seven
regions, each headed by a Regional Director stationed in a select foreign office.

                                     17
                         REDACTED – PUBLIC VERSION
                      REDACTED – PUBLIC VERSION


stated that it would soon finalize these guidelines for use by the Regional
Directors in annual performance planning. A DEA headquarters executive
manager acknowledged that even after the DEA promulgated its new
regional planning instrument the agency’s planning protocol would still be
deficient because it had not yet established practices for developing
performance plans at the Country Office level. Such comprehensive plans
would include more specific office objectives and operational goals that
would feed into the region’s strategic plan, thereby complementing the
DEA’s overall strategic plan. The following diagram depicts how the various
plans flow into DOJ’s strategic plan.

          DIAGRAM OF STRATEGIC PLANNING PROGRESSION



                                          DOJ
                                      STRATEGIC
                                         PLAN




                                 DEA STRATEGIC PLAN
                                         &
                                  OVERALL BUDGET
                         S




                                                      RE
                      AL




                                                       SU
                    GO




                                                          LTS



                                 DEA REGIONAL PLAN




                                 DEA COUNTRY PLAN




       We recommend that the DEA consider including certain performance
indicators in its country plans that are not included in its regional planning
instrument. For example, each Country Office should set annual targets for
the resources dedicated to the country’s priority areas. Additionally, we
suggest the DEA incorporate quantitative data gleaned from the institution of
a lead tracking system in its foreign offices to assist in the evaluation of the
level of coordination between DEA offices and foreign counterpart agencies,
as well as with other DEA foreign and domestic offices.


                                  18
                      REDACTED – PUBLIC VERSION
                        REDACTED – PUBLIC VERSION


      During the 3-year period that DEA headquarters was developing a
standard foreign office planning instrument, there was no requirement for its
foreign offices to submit annual performance plans. Three Country Offices
we visited continued to develop country-specific planning documents, while
two offices halted the process altogether. As a result, we found that DEA
foreign regional managers employed disparate planning strategies and
procedures, which we determined had varying degrees of success.

      For instance, managers in the DEA Andean Region (located in Bogotá,
Colombia) developed a performance plan for their region that included a
strategic vision, operational goals, and action items to achieve certain
objectives. The Regional Director updated this document annually and
ensured that the regional performance plan corresponded to the DEA’s
overall mission and strategic goals. Our evaluation of this document and our
discussion with DEA Andean Region management revealed that this region
was developing performance goals and objectives and using the resulting
planning document for strategic operating guidance.

      The Middle East Region had also developed a regional performance
plan. Regional management indicated that it generated the regional
document using the individual country plans. This process should be
reversed (as illustrated in the previous diagram), with the regional plans
setting the overarching goals against which country plans should be created.
Although other DEA regional offices we reviewed had plans for their
immediate offices, they had not developed strategic planning documents to
guide the entirety of their regions. DEA regional managers also mentioned
that they use regional management meetings and coordination conferences
to develop operational plans and objectives.

Measuring Performance

       In addition to developing strategic performance objectives, we believe
that regional managers should identify and utilize performance measures
and mechanisms of evaluation to determine the level of success the DEA has
experienced in meeting performance targets. These goals and methods
should also be incorporated into performance planning documents. Similar
to our findings related to DEA foreign regional management’s strategic
planning efforts, we found divergent practices for measuring the operational
activity within the various DEA foreign offices that we visited.33 Additionally,


      33
            The OIG’s September 2003 audit report on The Drug Enforcement
Administration's Implementation of the Government Performance And Results Act included
recommendations for the DEA to establish goals and performance indicators that evaluate
its efforts in meeting the agency’s strategic mission.

                                    19
                        REDACTED – PUBLIC VERSION
                                REDACTED – PUBLIC VERSION


   DEA headquarters generally did not use all available empirical data to
   evaluate the activity and operational focus of its foreign offices.

   Disruption and Dismantlement of Priority Target Organizations

          The DEA’s Priority Target Activity and Resource Reporting System
   (PTARRS) is an informational database the DEA developed to track progress on
   its highest priority cases, which involve targets labeled by the DEA as Priority
   Target Organizations (PTO).34 DEA foreign regional managers and DEA
   headquarters management universally indicated that PTARRS was a crucial
   instrument for monitoring the performance of DEA investigative activity.

          We reviewed information from PTARRS related to the success of DEA’s
   foreign offices in attacking PTOs. According to the PTARRS data, as of
   June 2006 the DEA’s international offices were actively targeting a total of
   212 PTOs. The PTARRS data indicates that the DEA was pursuing high-
   priority cases and had succeeded in disrupting 29 percent and dismantling
   18 percent of these organizations.

                                     DEA Foreign Offices
                 Priority Target Organizations Disrupted and Dismantled
                              March 2002 through June 2006
                                                                Percent of                    Percent of
                     Total
                              Active    Targets     Targets     Total PTO                      Total PTO
    Foreign           PTO
                               PTO    Disrupted Dismantled        Cases                          Cases
    Region           Cases             (active and (only closed
                    (active & Cases                             Disrupted                     Dismantled
                                              closed)         cases)         (active and       (active and
                      closed)
                                                                               closed)           closed)
Andean                 114          68           29             23              25%               20%
Caribbean35             65          30           22             16              34%               25%
European                53          16           20             13              38%               25%
Far East                56          25           19              7              34%               13%
Mexico/
                         37         29            7              2              19%                 5%
Central America
Middle East             43         25            8               4              19%                9%
Southern Cone           42         19           13               9              31%               21%
    TOTALS             410        212          118              74              29%               18%
Source: OIG analysis of Drug Enforcement Administration Priority Target Activity and Resource Reporting
        System data

          34
             The establishment of a PTO requires a nomination by the DEA case agent and
   approval by field and headquarters management. The case agent is responsible for
   updating information on the PTO case in the PTARRS system at least once quarterly. The
   DEA began its use of the PTARRS system in March 2002.
          35
            The Caribbean Division data includes DEA foreign offices located in the Caribbean
   and the DEA offices in the Bahamas.

                                            20
                                REDACTED – PUBLIC VERSION
                      REDACTED – PUBLIC VERSION


       The DEA’s re-implementation of annual performance plans in its
foreign offices and the evaluation of PTO disruptions and dismantlements are
sound performance measurement tools. However, the DEA does not have a
comprehensive evaluation of the impact that its foreign office activities and
operations have collectively had on the illicit drug trade in the United States.
During our review, DEA personnel primarily cited highlights of individual case
accomplishments as evidence of the success of the agency’s international
efforts. Subsequent to our audit close-out meeting, the DEA provided the
following information concerning its international-related enforcement efforts
during FY 2006:

      •   458 DEA-wide PTO investigations (21 percent of all active PTO
          cases) were directed at or linked to 44 of the 46 international
          targets on the DOJ’s CPOT list;

      •   100 active PTO cases (increasing from 82 in FY 2005) were linked
          to terrorist organizations;

      •   the DEA helped link 17 CPOTs to terrorist organizations and
          contributed to the successful indictment of 16 of these terrorist
          enterprises; and

      •   the DEA was involved in the extradition of 7 major international
          drug traffickers, including 4 CPOTs, to face prosecution in U.S.
          courts.

Resource Utilization Data

       The DEA also tracks the work hours its core personnel – Special
Agents, Intelligence Research Specialists, and Diversion Investigators –
spend working a particular case. Work hours are tracked through a
centralized database at DEA headquarters that incorporates data from all
DEA offices, both domestic and foreign. This data is also integrated into
PTARRS. DEA management in the field and at headquarters can assess the
percentage of time that field personnel spend on particular types of cases
(e.g., a PTO, a money laundering enterprise, a non-PTO narcotic trafficking
organization). However, in our discussion with DEA headquarters
management on tools used to evaluate foreign office operational activity,
work hour data was not noted as a measure used in such assessments.

      Further, only two of the five Regional Directors with whom we met
stated that their office actually used work hour data to identify the focal
areas of investigative activity in the region. For example, the DEA Andean
Region used work hour data to evaluate the types of activity on which
Andean Region offices were focusing. This Regional Director instituted a

                                  21
                      REDACTED – PUBLIC VERSION
                         REDACTED – PUBLIC VERSION


goal that 65-75 percent of the case activity in the Andean Region should be
related to PTO investigations.

        The Regional Director in Rome, Italy, mentioned that he planned to
begin performing such analysis once the office’s program analyst position was
filled.36 In contrast, the Regional Director of the Mexico/Central America
Region stated that office visits and talking with personnel was the best way to
assess the performance of offices and operations. This Regional Director
further commented that after such face-to-face discussions there was little
utility in empirical performance measures, such as analysis of work hour data.

       Nevertheless, we believe that DEA managers should incorporate work
hour data into Country Office performance planning as a means of
measuring and verifying operational efforts towards country and regional
goals. We recommend that the DEA include work hour targets in its foreign
office performance planning and monitoring to ensure that field and
headquarters managers are adequately overseeing and reviewing the focus
of the work being conducted by foreign offices. All offices should establish a
target for the percentage of investigative work hours applied to PTO cases.
For offices with a significant focus outside of PTO cases, work hour targets
should be developed for these areas. For instance, if a major office priority
is the investigation of non-PTO money laundering organizations, the Country
Office should establish a work hour target for this type of case.

       Our review of foreign office work hours data for FYs 2000 through
2006 revealed that data for certain foreign offices were not included in the
DEA’s system used to track personnel work hours. For instance, FY 2006
data was missing for the DEA foreign offices in Quito, Ecuador; Tijuana,
Mexico; and Bangkok, Thailand.37 The existence of these omissions further
demonstrates that the DEA did not use work hour data in monitoring foreign
office activity.

       Our analysis of available DEA work hours data demonstrated that,
consistent with its strategic goals, DEA foreign offices were spending a
significant amount of investigative effort on priority target cases. For
FY 2006 (through July 14, 2006), DEA Special Agents and Intelligence
Research Specialists (or intelligence analysts) stationed in foreign offices
were, in total, expending 44 percent of their investigative work hours on

      36
         The analyst reported to duty shortly after we concluded our fieldwork at the DEA
Rome Office in April 2006.
      37
          Following our notification to the DEA regarding the omitted data, the DEA
informed us that these offices had begun inputting FY 2006 work hours data into the DEA
database.

                                     22
                         REDACTED – PUBLIC VERSION
                           REDACTED – PUBLIC VERSION


priority target cases. The following chart illustrates the percentage of work
hours in total that DEA Special Agents and intelligence analysts spent on
investigative cases from October 2005 through mid-July 2006.

 DEA Foreign Office Special Agents and Intelligence Research Specialists
         Percentage of Investigative Work Hours by Case Type
                 October 2005 through mid-July 200638
                 1%
           2%
                                                   Priority Target Organization
     3%
                                                   Undefined Case Type

                13%             44%                Transportation/Smuggling

                                                   Structured Criminal Organization

                 18%                               Independent Trafficker

                         20%                       Money Laundering

                                                   Other

           Source: OIG analysis of Drug Enforcement Administration work hours data

       Our review of DEA work hours data also revealed that the DEA foreign
offices, in total, steadily increased the proportion of combined agent and
intelligence analyst investigative work hours on PTOs between FYs 2002 and
2006.39 As the following chart illustrates, the DEA has increased the focus on
its PTOs since FY 2002 when it dedicated 19 percent of its Special Agents and
Intelligence Research Specialists work hours to priority target investigations.




      38
            The total of the percentages in the chart is 101 percent due to rounding.
      39
            The DEA began using its PTO designation in April 2001.

                                       23
                           REDACTED – PUBLIC VERSION
                           REDACTED – PUBLIC VERSION


DEA Foreign Office Special Agents and Intelligence Research Specialists
               Percentage of Investigative Work Hours
                    Spent on Priority Target Cases
          Fiscal Years 2002 through 2006 (as of July 14, 2006)

                                                                         44%

                                                          37%

                                           30%
                            25%
              19%




              2002          2003           2004           2005            2006
                                        Fiscal Year

            Source: OIG analysis of Drug Enforcement Administration work hours data

Regionalization Concept

       Within each of its seven international regions, the DEA’s Regional
Directors are responsible for all DEA activity and accomplishments. The DEA
informed us that the regional divides were determined by assessing the
international trafficking trends and the illicit drug environment of other
countries. Further, the DEA believed the creation of Regional Directors
would institute a strategic focus to management and operations in the field
and would place senior managers capable of making policy decisions in
locations more easily accessible to the other DEA offices in the area. During
our fieldwork, we visited five of the DEA’s seven foreign regional hubs.40

             DEA Foreign Region               Regional Director Location
             Andean                           Bogotá, Colombia
             European                         Rome, Italy
             Mexico/Central America           Mexico City, Mexico
             Far East                         Bangkok, Thailand
             Middle East                      Ankara, Turkey


       40
          We did not visit the La Paz, Bolivia, office, which hosts the Regional Director for the
DEA’s Southern Cone Region. We also did not visit the DEA’s San Juan Field Division, whose
Special Agent in Charge has management jurisdiction over DEA foreign activities in the
Caribbean.

                                       24
                           REDACTED – PUBLIC VERSION
                         REDACTED – PUBLIC VERSION


       The DEA requires that Regional Directors visit each DEA office in their
territory at least once annually, and that every quarter Assistant Regional
Directors visit offices for which they are responsible. Regional managers
with whom we spoke stated that these visits included speaking with office
managers, meeting with foreign counterparts, reviewing administrative
practices, and discussing recent operational activity. Regional Directors
believed these visits were important in evaluating the performance of DEA
foreign offices and operational activity.

       We found certain areas that we believe the DEA should consider for
improvement in the regionalization concept. Before the Regional Director
position was instituted in 2004, each DEA Country Attaché – the highest-
level DEA manager in each country – was responsible for all DEA activity in
that country and reported directly to headquarters. Now, Country Attachés
report to their Regional Director.41 The offices where the Regional Directors
are located received the added responsibilities to plan, manage, and report
the activities of the entire region to headquarters. These tasks were in
addition to the country-specific responsibilities the offices already possessed.

       In the DEA Rome office, we found that the addition of regional duties
caused DEA staff to neglect tasks specific to that office in order to address
regional needs. For example, an Intelligence Research Specialist stated that
he seldom has time to perform tactical intelligence to support the Special
Agents in Italy because he is often called upon to perform research and
strategic intelligence tasks for other offices in the region. Regional
managers in Rome agreed that significant time was being spent on regional
as opposed to local operational needs and stated that the addition of a
Program Analyst to the office should alleviate this situation. Additionally, the
DEA Rome office delegated the responsibility for managing DEA’s operational
activity for all of Italy to the Resident Agent in Charge of the Milan, Italy,
office. Thus, the Milan Resident Agent in Charge acted much like a Country
Attaché for DEA enforcement matters in Italy and reported on operational
activity to the Assistant Regional Director stationed in Rome.

      Another result of the DEA’s regionalization relates to travel. As noted
previously, the DEA requires its Regional Directors and Assistant Regional
Directors to visit offices within their jurisdiction. For those regions with
broad geographic territory and numerous offices, this results in extensive
travel. For instance, the DEA Andean Region has six offices in the
northernmost portion of South America, while the DEA European Region
includes 17 offices spread across all of Western Europe and most of Africa.

       41
          The Regional Directors also serve as the Country Attachés of the nation in which
they are placed; in these cases the Country Attachés report directly to headquarters.

                                     25
                         REDACTED – PUBLIC VERSION
                      REDACTED – PUBLIC VERSION


Additionally, DEA personnel in Mexico told us that the regional managers
located in Mexico City – the Regional Director and two Assistant Regional
Directors – were frequently on official travel. Staff in this office stated that
the recurring absence of high-level management in Mexico City affected the
continuity of operational activity.

      Overall, we believe the DEA should assess the impact that added
regional responsibilities place on an office, both administratively and
operationally. The DEA already conducts foreign rightsizing exercises and a
variety of office inspections. We encourage the DEA to use these
evaluations to assess the impact regionalization has had on its offices.

Conclusion

       We found that the DEA’s international offices were actively targeting
high-priority cases and had succeeded in disrupting and dismantling a
significant portion of these organizations. However, the DEA does not have
a comprehensive analysis of the impact that its foreign office activities and
operations collectively have had on the illegal drug trade in the United
States. Additionally, for the past 3 years the DEA foreign offices were not
required to develop annual performance plans. Moreover, the DEA could not
provide us with basic data regarding the activity of its international offices.
For example, the DEA does not require its foreign offices to maintain a
system for tracking the leads and requests for assistance that they received.
Also, DEA headquarters and several Regional Directors were not using
available empirical data, such as work hours data, in the oversight of foreign
office activity. The absence of a formalized process for performance
planning by its foreign regions and offices has precluded the DEA from
effectively establishing operational goals and identifying performance
indicators to monitor and evaluate its foreign offices.

       We believe that the DEA should improve performance planning and
measurement for its foreign offices, including the development and
implementation of a system for its foreign offices to track the investigative
leads they receive and answer. Moreover, the DEA should assess the impact
of its regionalization and ensure that all office responsibilities are adequately
managed given the changes brought about by the regionalization concept.




                                  26
                      REDACTED – PUBLIC VERSION
                     REDACTED – PUBLIC VERSION


Recommendations

     We recommend that the Drug Enforcement Administration:

1.   Implement a standardized system for foreign offices to use in tracking
     and prioritizing investigative leads and assistance requests received
     from other DEA offices and foreign counterparts.

2.   Implement performance planning instructions and guidelines for DEA
     Regional Directors to use in developing specific objectives and goals
     for the region, and develop a planning instrument for DEA Regional
     Directors to use in generating Country Office performance plans to
     compliment the regional workplans.

3.   Annually review foreign office performance plans to assess
     achievement against goals and objectives, and make revisions as
     needed.

4.   Require DEA Regional Directors and appropriate DEA headquarters
     management to routinely evaluate work hour data in monitoring
     foreign office performance against established regional priorities and
     office goals.

5.   Through the annual rightsizing reviews and formal inspection process,
     assess the impact that added regional responsibilities place on foreign
     offices, both administratively and operationally, and develop a plan to
     resolve areas in need of improvement.




                                 27
                     REDACTED – PUBLIC VERSION
                      REDACTED – PUBLIC VERSION


           CHAPTER 3: INVESTIGATIVE OPERATIONS

      The primary investigative responsibilities of DEA foreign offices are to
support DEA domestic operations and develop investigative cases against
the most significant drug trafficking organizations affecting the illicit drug
market in the United States. To this end, the DEA announced the
International Drug Flow Prevention Strategy in April 2005, which supports
the primary goals of the DEA’s Strategic Plan. According to the DEA, this
approach promotes an intensive use of intelligence and the planning and
execution of multi-agency enforcement operations to achieve sustained
disruption to the operations of drug trafficking organizations. The DEA
recognizes that successful use of this strategy requires strong cooperation
between the DEA and other law enforcement agencies, particularly those
abroad.

       Because major drug trafficking organizations compartmentalize
operations with numerous operational cells so that the compromise of one
cell will not jeopardize the entire organization, the DEA believes that
dismantling a single cell may not significantly impact operations of the major
drug trafficking organizations if a new cell soon rises in its place. As a
result, the DEA approaches its investigative operations with what it calls an
“organizational attack strategy,” which requires DEA field offices to target
not just one segment of a criminal enterprise, but the entire organization.

Foreign Investigative Environment

       DEA operations overseas differ from those conducted in its domestic
offices, since foreign investigations are conducted bilaterally with or through
foreign counterpart agencies. [SENSITIVE INFORMATION REDACTED].
Essentially, the DEA is a guest in another country, and many factors affect
the DEA’s foreign operations, such as host-country laws, agreements with
foreign government agencies, international treaties, and local policies issued
to U.S. agencies by the U.S. Ambassador. In some countries the DEA is
allowed to directly observe foreign counterpart operations, while in other
countries this may not be permitted. For example, DEA foreign agents’ main
function in European countries is to maintain liaison relationships with their
foreign counterpart agencies.

      To accomplish its mission abroad, it is often necessary for the DEA to
share information with its foreign counterparts. Moreover, in some
countries, the DEA participates in tactical operations with foreign law
enforcement agencies. Thus, the DEA must rely on its foreign partners.
According to DEA officials, this relationship is sometimes difficult to foster
and maintain, particularly in countries that have inherently corrupt law

                                  28
                      REDACTED – PUBLIC VERSION
                         REDACTED – PUBLIC VERSION


enforcement. Corruption is common in many countries where illicit drug
trafficking is a profitable venture. This makes security a major concern, and
the inappropriate disclosure of information can compromise the safety of
DEA personnel, the security of sensitive intelligence, and the integrity of
investigative cases.

Vetted Investigative Units

      A major investigative tool employed by DEA foreign offices is the
development of investigative units of foreign law enforcement personnel that
the DEA has put through a security screening or vetting process. These
foreign task forces are commonly referred to as “vetted units.”

       Upon entry into a DEA vetted unit, and at periodic intervals, foreign
law enforcement applicants have to pass certain security evaluations, such
as a background check, a polygraph examination, and a urinalysis test. The
vetting process is designed to provide the DEA with a higher level of
assurance that the information it shares with its counterparts will not be
compromised or disseminated to the wrong party, especially the drug
trafficking organizations the DEA is targeting. DEA personnel in foreign
offices stated that they needed to maintain safeguards when sharing
investigative information, even with vetted units, because of the level of
corruption in certain countries.

      The use and management of vetted units varies from country to
country. The DEA provides financial support for the units’ activities, which
are usually managed on a day-to-day basis by a senior foreign police officer,
with a DEA Special Agent providing general oversight. These vetted units
partner with the DEA but are not DEA enterprises. Vetted units perform
functions in support of the DEA such as conducting investigative operations,
surveillance, and wiretaps; checking on investigative leads; destroying drug
production laboratories; and interdicting drug shipments. Many DEA
personnel with whom we spoke considered the vetted units critical to
accomplishing the DEA’s foreign mission, increasing the safety of its
personnel, and helping to reduce the chance of sensitive information being
compromised.

      The DEA uses two types of vetted units: (1) vetted units that are part
of the DEA’s Sensitive Investigative Unit (SIU) Program, and (2) non-SIU
vetted units.42 There are distinct differences between these two types of
vetted units. First, the SIU Program is an official DEA program for which
Congress has designated specific SIU locations. In contrast, non-SIU vetted

     42
          Some Country Offices, such as Colombia, operate both types of vetted units.

                                     29
                         REDACTED – PUBLIC VERSION
                          REDACTED – PUBLIC VERSION


units are not part of an official DEA program. DEA officials stated that
non-SIU vetted units were created by Country Attaches that capitalized on a
“best practice” idea and implemented the vetted unit concept in their offices.
Second, each DEA foreign office that is part of the SIU Program receives
funds specifically for maintaining its SIUs. Examples of SIU expenditures
include payments for operation-related costs (such as travel expenses) and
equipment for SIUs to use during investigative activities. In contrast, a DEA
foreign office provides financial support to non-SIU vetted units through its
general operational funds. A third difference is that while SIU members
participate in a specially designed training course at the DEA Training
Academy in Quantico, Virginia, non-SIU vetted units do not receive this
training. Finally, the DEA developed an SIU Program Manual detailing
guidelines for both DEA headquarters and its foreign offices to follow in
administering the SIU program and in managing SIU activities. The DEA has
not developed guidance for its non-SIU vetted units.

Sensitive Investigative Units

      In House Report 104-676, which accompanied the FY 1997 omnibus
appropriations act, Congress authorized the DEA to initiate a vetted unit
program in Bolivia, Colombia, Mexico, and Peru.43 The conceptual basis of
this program, which later came to be called the SIU Program, is to identify
and train security-screened DEA foreign counterpart personnel to work on
sensitive bilateral investigations. As of July 2006, the DEA reported that its
SIU Program had 26 individual operating units and 968 members in 11
countries, as shown in the following table.




      43
           Pub. L. No. 104-208 (1996).

                                      30
                          REDACTED – PUBLIC VERSION
                       REDACTED – PUBLIC VERSION


             DEA Sensitive Investigative Unit Program
                         Number of     Number of    Program
      SIU Countries
                            Units      Members     Start Date
      Bolivia                         3              138             1997
      Brazil                          2                34            1998
      Colombia                        7              203             1997
      Dominican Republic              1               40             2001
      Ecuador                         2               59             1999
      Guatemala                       1               12             2005
      Mexico                          2              184             1997
      Pakistan                        1               60             1999
      Peru                            1               89             1997
      Thailand                        5              124             1998
      Uzbekistan                      1               25             2003
      TOTAL                          26              968
      Source: OIG analysis of Drug Enforcement Administration data

SIU Program Budget

      According to the DEA the initial FY 1997 appropriation for the SIU
Program in the original four countries was $20 million. In FY 2006, the
budget to support the SIU Program was $18.3 million. The DEA FY 2007
budget proposes expanding the SIU Program to four new countries: the
Bahamas, Jamaica, Panama, and Venezuela. Additional funding of
$11.4 million has been requested for this expansion.

SIU Operations

      According to the DEA, its offices in Colombia were the first to use
vetted units. The DEA Regional Director in Colombia credited its SIU
operation with supporting the vast majority of the DEA’s investigations in
that country. We found that the SIUs in Colombia were essential to the
DEA’s operations in that country.

      We were told of many examples of SIU operations resulting in drug
seizures and arrests, including some high-profile drug traffickers. For
example, in May 2006, SIUs in Colombia and Brazil, working with several
other DEA domestic and foreign offices, completed a 3-year investigation
that resulted in over 100 arrests, including an individual identified on the
CPOT list. The operation also resulted in the seizure of about 52 tons of
cocaine and nearly $70 million in assets.

                                   31
                       REDACTED – PUBLIC VERSION
                      REDACTED – PUBLIC VERSION


      A Colombian SIU also participated in an 11-month operation with other
Colombian agencies, the DEA’s Special Operations Division, a money
laundering task force in New York, and the Department of Homeland
Security’s Bureau of Customs and Border Protection. Using more than
45 wiretaps of both fixed and cellular telephones in Bogotá, Colombia,
investigators found that a specific money laundering organization was
capable of laundering millions of dollars for drug traffickers in Colombia. The
operation resulted in eight arrests, including the head of the money
laundering organization who was extradited to the United States to face
prosecution. Also, during the course of this investigation approximately
400 kilograms of cocaine, 5.5 kilograms of heroin, and over $2.3 million was
seized.

      Another Colombian SIU operation was credited with disrupting the
operations of an organization responsible for transporting multi-ton loads of
cocaine from the Pacific Coast of Colombia. This operation resulted in
15 arrests and the seizure of 60 million Colombian pesos (approximately
$24,000 U.S. dollars), $100,000 in jewelry, high frequency communication
equipment, 6 fishing vessels, and several weapons.

      In February 2006, a Mexican SIU unit conducted a surveillance
operation with assistance from the DEA that resulted in the arrest of a CPOT
residing in Mexico. Additionally, the SIU program in Mexico was
instrumental in the successful completion of a major methamphetamine
investigation that resulted in the seizure of 15 methamphetamine labs and
over 130 pounds of methamphetamine with a potential street value of over
$1 million.

       In Thailand, DEA personnel told us that they are working with Thai
officials to ensure that SIU activities are focused on cases that will impact
the United States. They said that an example of such an investigation is one
that resulted in the indictment of the leader and seven top lieutenants of a
worldwide heroin and methamphetamine-trafficking organization. This
group was considered one of the largest heroin-producing organizations in
the world and was believed to have been responsible for $1 billion in heroin
trafficking into the U.S. since 1985. The investigation involved the execution
of 26 search warrants that resulted in the seizure of 18,000
methamphetamine tablets, $25.6 million in cash, 86 kilograms of heroin,
and various weapons and explosives.

      Although the DEA was able to provide us with these and other
examples of individual SIU accomplishments, the DEA was unable to
empirically demonstrate the accomplishments of its SIU program as a whole.
For example, the DEA does not collect activity statistics attributable to its

                                  32
                      REDACTED – PUBLIC VERSION
                       REDACTED – PUBLIC VERSION


SIU Program, such as arrests, the number of surveillance operations, or
efforts tied to a CPOT or a PTO investigation. Additionally, the DEA has not
evaluated the collective effect of the SIU Program. While we recognize that
the investigative activities of the SIUs are often run by the host country, we
believe the DEA should identify and collect appropriate empirical data
relating to the accomplishments of the SIUs.

SIU Program Management

       To manage its SIU Program, the DEA developed an SIU Program
Manual to provide guidance and procedures to DEA headquarters and foreign
office personnel. Additionally, the DEA completed a self-assessment of its
SIU Program in FY 2005. The review resulted in a report that made
recommendations to the DEA Chief of Operations for policy changes in the
SIU Program Manual. The Chief of Operations approved these
recommendations, instituting five supplemental guidelines, which became
effective in October 2005.44 For instance, the acceptable ratio of DEA SIU
advisors to SIU participants was reduced from the previous standard of
1 to 30 to a ratio of 1 to 15. Also, the Chief of Operations instituted a
5-year term limit for SIU members, requiring Regional Director approval to
extend SIU member terms beyond 5 years.

       We evaluated the DEA’s management of the program and its practices
for ensuring that DEA operations, information, and personnel are protected
from compromise. Our examination revealed significant deficiencies related
to the DEA’s administration of the SIU program, including: (1) poor
recordkeeping practices, (2) [SENSITIVE INFORMATION REDACTED],
(3) insufficient control over SIU equipment, (4) unsatisfactory practices in
supplying salary supplement payments to unit members, (5) excessive span
of control ratios for managing units, (6) insufficient evidence of training, and
(7) failure to perform exit briefings. At the audit close-our meeting, DEA
officials generally agreed with our findings concerning the management of
the SIU program.

      Poor Recordkeeping




                     [SENSITIVE INFORMATION REDACTED]



      44
         The current DEA SIU Manual was dated November 2001. Additional policy
changes were incorporated into a memorandum dated September 22, 2005.

                                   33
                       REDACTED – PUBLIC VERSION
                     REDACTED – PUBLIC VERSION


[SENSITIVE INFORMATION REDACTED]. At our request, DEA headquarters
queried its foreign offices for the number of members in the SIU program
and determined that as of July 2006 there were 968 SIU members.
However, these numbers provided by the field offices could not be verified
by DEA headquarters.




                   [SENSITIVE INFORMATION REDACTED]




                   [SENSITIVE INFORMATION REDACTED]




                   [SENSITIVE INFORMATION REDACTED]




                                 34
                     REDACTED – PUBLIC VERSION
                     REDACTED – PUBLIC VERSION




                   [SENSITIVE INFORMATION REDACTED]




                   [SENSITIVE INFORMATION REDACTED]




[SENSITIVE INFORMATION REDACTED]

       The most important aspect of a vetted unit program is the screening
its applicants and members undergo. The SIU Program Manual contains
criteria for vetting foreign personnel who are a part of an SIU and states
that the vetting of an SIU member should include at a minimum a
background check, a urinalysis test, and a polygraph examination.
Applicants must pass these three tests before they can become part of an
SIU. Additionally, SIU members must submit to and pass periodic urinalysis
tests and polygraph examinations throughout their tenure as an SIU
participant. According to the manual, if individuals do not pass the
re-vetting process they should be transferred out of the unit. This vetting
process provides the DEA reasonable assurance of the integrity and
credibility of the foreign counterparts with which it is working. [SENSITIVE
INFORMATION REDACTED].




                   [SENSITIVE INFORMATION REDACTED]




                                 35
                     REDACTED – PUBLIC VERSION
 REDACTED – PUBLIC VERSION




[SENSITIVE INFORMATION REDACTED]




[SENSITIVE INFORMATION REDACTED]




[SENSITIVE INFORMATION REDACTED]




             36
 REDACTED – PUBLIC VERSION
                 REDACTED – PUBLIC VERSION




             [SENSITIVE INFORMATION REDACTED]45   46




               [SENSITIVE INFORMATION REDACTED]




45
     [SENSITIVE INFORMATION REDACTED]
46
     [SENSITIVE INFORMATION REDACTED]

                             37
                 REDACTED – PUBLIC VERSION
 REDACTED – PUBLIC VERSION




[SENSITIVE INFORMATION REDACTED]




[SENSITIVE INFORMATION REDACTED]




[SENSITIVE INFORMATION REDACTED]




[SENSITIVE INFORMATION REDACTED]




             38
 REDACTED – PUBLIC VERSION
                          REDACTED – PUBLIC VERSION




                      [SENSITIVE INFORMATION REDACTED]47




       Inadequate Equipment Management

      In addition to operational funds and training, the DEA provides
equipment to SIUs. In some countries, foreign law enforcement agencies do
not have the funds necessary to procure equipment needed to investigate
drug trafficking organizations. [SENSITIVE INFORMATION REDACTED].

      The SIU Program Manual requires DEA foreign offices to maintain a
complete list of all accountable property provided to SIUs. The manual also
states that an inventory of all SIU equipment and property must be
conducted annually. In addition to this scheduled inventory, one
unannounced inventory must be performed each year. We consider these
requirements to be appropriate property management practices.

      The DEA Mexico office did not maintain an inventory of equipment
provided to its SIU teams. DEA personnel indicated that instead, they relied
on the State Department’s Bureau for International Narcotics and Law
Enforcement Affairs (INL) section to keep an inventory of equipment. Using
DEA funds, INL handled the purchasing of equipment for the DEA’s SIU
teams under the auspices of its Narcotics Affairs Section (NAS).48 DEA
personnel in Mexico contended that it was then the responsibility of NAS to
maintain inventories of SIU equipment. We verified that NAS conducted
annual inventories. However, the DEA Mexico City office could not provide
evidence that it conducted any unannounced checks of the SIU inventory.

      The Colombia office was in the process of transferring to a barcode
inventory system for its SIU equipment. The person responsible for

       47
            [SENSITIVE INFORMATION REDACTED]
       48
          NAS receives program guidance, support, and funding from INL and plans and
executes counternarcotics policy, strategy, guidance, and operations in foreign countries.
Although NAS operates in many countries, it is not included in every U.S. mission abroad.

                                      39
                          REDACTED – PUBLIC VERSION
                     REDACTED – PUBLIC VERSION


inventorying the SIU equipment acknowledged that the office was behind
schedule in its annual SIU equipment inventories, mainly because it was
taking significant time to transfer to the new system. Additionally, although
SIU Special Agent advisors stated that they conducted unannounced
inventories of SIU equipment, most were not retaining physical records of
these checks.

      The DEA Thailand office was already using an advanced inventory
barcode system, which allowed equipment to be electronically scanned and
reconciled to an electronic property database. Barcoding also allowed the
DEA Special Agents working with the SIUs to conduct physical inventories in
a more efficient manner. However, we found that the Thailand SIU
inventory database had a few weaknesses. Specifically, the system did not
retain a history of the inventories conducted and, when appropriate, the
current condition of the equipment.

      The DEA provides a significant amount of equipment to the SIUs.
Proper inventories for this equipment can prevent waste and loss of taxpayer
dollars. [SENSITIVE INFORMATION REDACTED]



      Unsatisfactory Practices for Salary Supplement Payments

      Under the SIU Program, the DEA can give SIU members monetary
compensation to supplement the salaries they receive from their home
agencies. This compensation can be provided monthly and varies in amount
depending on the rank of the individual. For instance, in both Colombia and
Bolivia the DEA pays a total of approximately $60,000 a month in SIU salary
supplements. The amount of monthly salary supplements range from $70
paid to a constable in Pakistan to $900 for a lieutenant colonel in Bolivia.

      According to the SIU Program Manual, the DEA prefers salary
supplements be paid via electronic transfer or check payable directly to the
SIU member’s bank account. If this is not possible, the Special Agent
advisor should observe any cash payments as they are made to each SIU
member and ensure each signs a receipt for the funds. The SIU Program
Manual specifically states that DEA foreign offices should avoid paying an
SIU commander in a lump sum so that he can make subsequent cash
payments to the SIU members on his team.

      Of the three countries we visited that were a part of the SIU Program,
only the DEA offices in Colombia and Thailand provided its SIU members
salary supplements. We reviewed the process that these offices used for

                                 40
                     REDACTED – PUBLIC VERSION
                      REDACTED – PUBLIC VERSION


paying monthly salary supplements. In Thailand, the DEA submitted
payment to the SIU members via electronic funds transfer. We observed a
deposit book containing the monthly payment amounts and found no
abnormalities.

      By contrast, in the Colombia office, we found that the DEA provided
salary supplements for an entire unit in a lump sum to each of the SIU
commanders. We were told by DEA personnel and several SIU commanders
that the commanders divided the lump payment provided to pay each SIU
member their monthly stipend, and obtained a signature from each SIU
member for receipt of payment. However, DEA personnel informed us that
they did not always observe the payments made from the commander to
SIU members, and SIU commanders were not required to provide evidence
that the funds had been received by their members. DEA personnel
indicated that in many instances it would be difficult to observe the actual
payments because of the remote operating locations of the SIUs.

      We understand the difficulty in regularly observing payments from SIU
commanders to SIU participants, especially when the SIU is operating in a
remote location. However, we believe that, at a minimum, the DEA should
obtain the signed receipt of payment forms from the SIU commanders.
Additionally, as part of the SIU member profile, we suggest the DEA
generate a signature exemplar for each SIU member and use this tool to
help validate SIU member signatures. Additionally, when possible, DEA
personnel should be present when payments are made to SIU members.
DEA management in Colombia asserted that if an SIU member was not paid,
or paid the incorrect amount, a DEA SIU advisor would hear about it.
[SENSITIVE INFORMATION REDACTED]. We believe the SIU Program
Manual could provide clearer guidance with procedural controls for paying
SIU members’ salary supplements when payment by electronic funds
transfer is not possible.

      Excessive Span of Control Ratio

       At each foreign location with SIUs, the DEA assigns at least one
advisor to each SIU. According to the DEA SIU Program Manual, the advisor
should be an experienced Special Agent (or Diversion Investigator for an SIU
that is focused on diversion activities) who is able to effectively monitor the
activity of the SIU. Although a foreign law enforcement employee serves as
the SIU commander and is responsible for day-to-day management, the DEA
SIU advisor is responsible for overseeing the unit’s activity by maintaining
contact with the SIU commander through information sharing, planning
operations, and monitoring the status of equipment issued to the unit.


                                  41
                      REDACTED – PUBLIC VERSION
                         REDACTED – PUBLIC VERSION


      As previously noted, a new SIU guideline issued by the DEA’s Chief of
Operations in September 2005 requires that the DEA Special Agent advisor
to SIU-member ratio be no more than 1 advisor to 15 SIU members. This
was a change from the previous guideline, which required a 1 to 30 ratio.

      Using the figures provided to us in July 2006 by DEA headquarters for
the number of DEA SIU advisors and SIU foreign members, we computed
the ratio for each country in the SIU Program. As illustrated in the following
table, the DEA was in excess of the new control ratio in Bolivia, Colombia,
Pakistan, and Peru.

                           DEA SIU Program
                   Span of Control Ratios by Country
          According to Data Submitted by DEA Headquarters
                               SIU         DEA
        Country                                      Ratio
                            Members      Advisors
        Bolivia                138            7      19.7
        Brazil                  34            4       8.5
        Colombia               203          10       20.3
        Dominican Republic      40            3      13.3
        Ecuador                 59            6       9.8
        Guatemala               12            2       6.0
        Mexico                 184          21        8.8
        Pakistan                60            3      20.0
        Peru                    89            4      22.3
        Thailand               124            9      13.8
        Uzbekistan              25            2      12.5
        Source: OIG analysis of Drug Enforcement Administration Office of International
                Programs SIU member and advisor data


      Besides the information submitted by DEA headquarters and analyzed
in the above table, during our fieldwork we also reviewed SIU rosters
submitted by the DEA foreign offices. In a visit to the DEA office in
Mexico City in June 2006, we found that the DEA had only 3 Special Agents
involved in the SIU Program, and according to the records we obtained from
that office there were at least 68 SIU members stationed in Mexico City.
Therefore, though the analysis in the previous table shows Mexico in
compliance with the 1 to 15 ratio of DEA advisors to SIU members, we
believe the ratio for the DEA Mexico City office was at least 1 to 23, far
beyond the required ratio.




                                     42
                         REDACTED – PUBLIC VERSION
                             REDACTED – PUBLIC VERSION


       SIU Basic Training

      New SIU members are required to attend the SIU Basic Training
course at the DEA’s Training Academy in Quantico, Virginia. The DEA pays
for the travel costs of the training participants and the DEA SIU advisors who
accompany the trainees. Given the cost of travel and lodging for SIU
members to attend this training, members should only participate in it after
successfully passing the initial vetting process described previously.
According to DEA headquarters personnel, this training has been provided to
over 1,600 SIU participants. The course lasts 5 weeks, covering topics such
as interviewing, raid planning, first aid, technical training, wire intercept,
and computer training.49

      According to DEA officials, the agency relies on the SIU Basic Training
course to raise the investigative ability of SIU members, ensuring they use
sound investigative techniques and responsible procedures for handling
sensitive information. Our review of the DEA’s SIU Program included
comparing our sample SIU members from Mexico, Colombia, and Thailand
against SIU Basic Training course rosters maintained at the DEA Training
Academy. SIU translators are required to comply with all vetting protocol
but are not required to attend the SIU Basic Training. Our sample of SIU
members in Thailand included 6 translators; therefore the sample of Thai
SIU members was reduced to 24 and the total sample to 100 for this testing
element. We were unable to trace 26 members to the course rosters
maintained at the Training Academy, as shown below.

                             DEA SIU Program
               Testing of Member Participation in Basic Training
                                                           Evidence of Basic
                                SIU Members                    Training?
            Country
                                  Reviewed
                                                            Yes                 No
            Mexico                      32                   17                 15
            Colombia                    44                   35                  9
            Thailand                    24                   22                  2
            TOTAL                      100                   74                 26
            Source: OIG analysis of Drug Enforcement Administration Training Division, SIU
                    Basic Training course rosters

       49
           DEA Training Division personnel informed us that advanced, in-country training is
sometimes offered to veteran SIU members and the course topics depend upon the specific
needs of that location. Greater detail regarding DEA training provided to SIUs is included in
Chapter 6, where we discuss the entirety of DEA’s international training endeavors. In this
Chapter, our discussion focuses on DEA management’s oversight of the SIU program,
including its efforts to train SIU members.

                                         43
                             REDACTED – PUBLIC VERSION
                      REDACTED – PUBLIC VERSION


      SIU Member Exit Briefings

       The SIU Program Manual states that DEA foreign offices should
conduct exit briefings with outgoing SIU personnel and that a record of the
exit briefing should be maintained at the DEA foreign office, with a summary
of exit briefings forwarded semi-annually to DEA headquarters. We queried
DEA management and operational personnel assigned to DEA foreign offices
in Mexico, Colombia, and Thailand regarding SIU members’ exit briefings,
and found that the DEA generally did not conduct them in these three
countries. Such discussions with outgoing SIU personnel could provide the
DEA with useful information on any needed improvements for the SIU
Program. [SENSITIVE INFORMATION REDACTED]




Non-SIU Vetted Units

       According to DEA headquarters officials, several DEA managers in
foreign offices recognized the utility of vetted units within the SIU Program
and capitalized on the concept by creating vetted units outside the SIU
Program. DEA headquarters officials noted that these non-SIU vetted units
were not part of any official DEA program; they attributed the proliferation
of such units to the implementation of good business practices by foreign
managers. The DEA surveyed its foreign offices to obtain information
related to its non-SIU vetted units. According to the data received, DEA
offices in 16 countries operated non-SIU vetted units comprised of
888 foreign personnel. However, the DEA noted at the audit close-out
meeting that we were provided incorrect figures on the number of non-SIU
vetted unit members.

      DEA headquarters did not maintain records on its foreign offices’
non-SIU vetted units. Specifically, DEA headquarters did not have a list of
countries with such units, nor did it have an accounting of the number of
non-SIU vetted units managed by its foreign offices or the vetting status of
the unit members. The DEA stated at our audit close-out meeting that it
would begin requiring its foreign offices to maintain a roster of its non-SIU
vetted members, including their present vetting statuses.

       The DEA does not have guidelines for foreign office management to
use in developing and maintaining non-SIU vetted units abroad. As stated
earlier, the DEA developed an SIU Program Manual with guidelines for

                                  44
                      REDACTED – PUBLIC VERSION
                      REDACTED – PUBLIC VERSION


administering its SIUs, but this manual is not applicable to non-SIU vetted
units. Given the number of DEA foreign offices using non-SIU vetted units,
we believe the DEA should issue guidance to assist foreign office managers
in the creation and management of non-SIU vetted units. This instruction is
important to help ensure the safety of DEA information and personnel and to
protect the integrity of DEA operations.

Conclusion

      The DEA has credited its vetted units with performing significant
investigations that have resulted in the arrest of individuals on the CPOT list,
and the vetted units provide an important tool in the DEA’s international
operations. However, we identified various deficiencies related to the
administration of the SIU program, including: (1) poor recordkeeping
practices, (2) [SENSITIVE INFORMATION REDACTED], (3) insufficient control
over SIU equipment, (4) unsatisfactory practices in supplying salary
supplement payments to unit members, (5) excessive span of control ratios
for some managing units, (6) insufficient evidence of training, and (7) failure
to perform exit briefings. [SENSITIVE INFORMATION REDACTED]. We
recommend that the DEA strengthen its oversight of the SIU Program and
promulgate guidance regarding non-SIU vetted units.


Recommendations

      We recommend that the Drug Enforcement Administration:

6.    Identify performance measurements and implement a methodology to
      track and evaluate the activities and accomplishments of its SIU
      Program.

7.    [SENSITIVE INFORMATION REDACTED]:

      a.

                        [SENSITIVE INFORMATION REDACTED]


      b.


                        [SENSITIVE INFORMATION REDACTED]




                                  45
                      REDACTED – PUBLIC VERSION
                      REDACTED – PUBLIC VERSION



      c.




                        [SENSITIVE INFORMATION REDACTED]




8.    [SENSITIVE INFORMATION REDACTED].

9.    Enforce the policy for foreign offices to maintain a record of equipment
      issued to SIU teams, including a history of inventories conducted and
      the current condition and location of the equipment. These records
      should include equipment purchased by the DEA directly and indirectly
      using DEA funds funneled through another agency such as NAS.

10.   Revise SIU guidelines and controls for supplying salary supplement
      payments to SIU members to account for those circumstances where
      the SIUs are in remote operating environments and the DEA is unable
      to utilize electronic payments or observe cash payments to SIU
      members. This policy should include obtaining signed receipts and
      conducting periodic comparisons of the signatures on signed receipts
      to signature exemplars obtained from each SIU member.

11.   Ensure that the span of control for managing SIUs in Bolivia,
      Colombia, Mexico, Pakistan, and Peru is appropriate and complies with
      DEA guidelines.

12.   Determine if all SIU members received SIU basic training. If not,
      ensure all current members receive the Basic Training course.

13.   Ensure that foreign offices perform required exit briefings of departing
      SIU members and submit semi-annual reports to DEA headquarters.

14.   Issue guidance to assist foreign office management in creating and
      operating non-SIU foreign vetted units, including a requirement to
      [SENSITIVE INFORMATION REDACTED].




                                  46
                      REDACTED – PUBLIC VERSION
                         REDACTED – PUBLIC VERSION


                      CHAPTER 4: RELATIONSHIPS

       A crucial factor contributing to the success or failure of DEA
investigative activity abroad is the relationships DEA foreign office personnel
develop with counterpart agencies, including with: (1) other DEA offices –
both foreign and domestic, (2) other U.S. law enforcement agencies abroad,
and (3) foreign governments and their law enforcement components that
combat illicit drug trafficking. Generally, we found that the DEA foreign
offices maintained good relationships with their U.S. and foreign counterpart
agencies.

Foreign Office Relationships with Other DEA Offices

       An important responsibility of DEA foreign offices is to provide
information and support to DEA investigations through communication and
collaboration with other DEA offices, including other foreign offices, DEA
domestic field offices, DEA headquarters, and specialty offices such as the
Special Operations Division (SOD) and the El Paso Intelligence Center
(EPIC). For example, DEA foreign offices gather and share intelligence on
suspects in active DEA cases, arrange for confidential sources to travel into a
country, or investigate organizations suspected of having ties to drug
trafficking in the United States, among myriad other functions. DEA foreign
office managers mentioned that supporting domestic case needs was a chief
objective for their office.

DEA Domestic Offices

       Initially, to evaluate the relationships DEA domestic offices had with
foreign offices, we met with DEA management at three domestic field
divisions: (1) the Chicago (Illinois) Division, (2) the El Paso (Texas)
Division, and (3) the Washington (D.C.) Division.50 We discussed the quality
and timeliness of responses on investigative requests and leads. Overall,
the DEA domestic personnel with whom we spoke were pleased with the
relationships they had with DEA foreign offices and with the support received
from these offices. They believed their offices’ investigations benefited from
the DEA’s foreign presence and contacts, and the information they received
helped build their cases. Our analysis of DEA case data indicated that over
25 percent of DEA domestic investigative cases opened since FY 2000 had
an international dimension.



       50
          At these locations we met with Special Agents in Charge (SAC), Assistant Special
Agents in Charge (ASACs), and/or group supervisors of DEA investigative squads.

                                     47
                         REDACTED – PUBLIC VERSION
                      REDACTED – PUBLIC VERSION


       However, a limited number of DEA personnel in Mexico and Colombia
informed us that they believed DEA domestic offices do not utilize the
foreign offices as often as they should. Some of these employees believed
some DEA domestic personnel did not trust foreign law enforcement, and
thus were reluctant to forward appropriate information and leads to DEA
foreign offices, fearing foreign law enforcement counterparts would leak
sensitive case information. It was believed that this distrust could ultimately
hinder the success of DEA cases. Although only a small number of
individuals raised this viewpoint with us, it was noted by individuals in two
separate offices, each of which represents a significant component of the
DEA’s international operations.

       Mexico and Colombia DEA personnel also stated that domestic offices
and DEA headquarters did not utilize agents who had subject matter
expertise and were located in other countries. For example, DEA personnel
in offices in Colombia had expertise related to the operations of the
Revolutionary Armed Forces of Colombia (FARC), a dangerous narco-terrorist
organization in the region. However, we were informed by DEA personnel in
Colombia that in certain instances DEA domestic agents did not consult with
them on cases involving the FARC. Several individuals in Mexico expressed
similar sentiments and said they believed that the lack of use of their subject
matter expertise by domestic DEA officials stemmed from a lack of trust that
domestic agents place in the Mexico DEA offices because of the systemic
corruption among Mexican law enforcement. The DEA personnel in Mexico
believed this interfered with the transfer of leads from DEA domestic offices
to foreign offices in Mexico.

       However, DEA personnel noted to us that as more DEA employees
complete foreign assignments and return to domestic offices, the DEA’s
overall understanding of how domestic offices can utilize its foreign offices
will systemically improve. Yet, the examples of DEA domestic personnel not
fully utilizing DEA foreign offices in Mexico and Colombia indicate a need for
better understanding of the role of foreign offices. We believe the DEA
should better emphasize the utility that its foreign offices can provide to
domestic cases, such as presenting best practice examples during training
courses and conferences.

Other DEA Foreign Offices

       In many instances, a DEA foreign case will generate a connection to
another country. Our discussions with DEA personnel in Colombia, Italy,
Mexico, Thailand, and Turkey revealed that DEA foreign offices enjoy good
relations with one another and that communication and cooperation was
open and regular. For instance, DEA personnel in Mexico stated that they

                                  48
                      REDACTED – PUBLIC VERSION
                         REDACTED – PUBLIC VERSION


routinely contact the DEA offices in Colombia for information on Colombian
drug trafficking organizations and their operatives in Mexico. Additionally,
DEA personnel in Italy informed us of their coordination with DEA offices in
Colombia, Spain, and Turkey. This information was corroborated by our
review of the activity logs in the DEA’s Milan and Rome, Italy, offices, which
demonstrated these offices’ contact and operational coordination with other
DEA foreign offices. Again, however, the DEA’s lack of an agency-wide lead
tracking system prevented us from objectively evaluating the DEA’s foreign
office-to-foreign office coordination.

Special Operations Division

      The DEA’s SOD is integral in the coordination of major DEA cases.
According to DEA executive management, the most effective means of
ascertaining the breadth of a drug trafficking operation is to track the
communication between the parties involved. The SOD is a repository for
phone numbers used or called by persons who are part of a DEA
investigation. The SOD uses a database to collect these phone numbers and
can connect cases with hits on the same phone numbers.51 This allows the
DEA to link cases investigated by different offices across the country and
throughout the world.

       Routinely, the SOD will host coordination meetings on a case, either at
its facility in Chantilly, Virginia, or other domestic and international locations.
These meetings are usually held when it is discovered that several offices
are investigating the same organization in various geographic locations.
SOD officials provided us with examples of coordination meetings that
discuss cases with an international scope. For example, we were provided
evidence of one coordination meeting in Europe that involved the SOD, DOJ,
two domestic DEA offices, five foreign DEA offices, and representatives from
two foreign counterpart agencies.

      According to DEA foreign and domestic personnel whom we
interviewed, the SOD’s activities are critical to the DEA attacking the
command and control structures of major drug trafficking organizations.
Additionally, foreign counterpart officials commented on the benefit SOD
provided international investigations.




      51
          A hit refers to a number entered in the system that is found to match a number
already existing in the database.

                                     49
                         REDACTED – PUBLIC VERSION
                         REDACTED – PUBLIC VERSION


El Paso Intelligence Center

       EPIC was established in 1974 to improve coordination among agencies
addressing law enforcement matters related to the Southwest Border. EPIC
brings together representatives from many agencies including the FBI, the
U.S. Marshals Service (USMS), and the Department of Homeland Security’s
Bureau of Immigration and Customs Enforcement (ICE), who work together
on various matters related to drug-trafficking and immigration. DEA foreign
offices support EPIC by submitting case information to EPIC, which enables
analysts at EPIC to access the information for identification of related cases.
Several foreign DEA officials interviewed indicated EPIC was useful in their
investigative activity, particularly in providing intelligence on drug trafficker
movements and in maritime interdiction efforts.

Other U.S. Law Enforcement Agencies

      Other U.S. law enforcement agencies that maintain an overseas
presence include the FBI; the USMS; the Bureau of Alcohol, Tobacco,
Firearms and Explosives (ATF); ICE; and the U.S. Secret Service.52 The DEA
coordinates with other U.S. law enforcement representatives in international
cases and may jointly work with these other law enforcement agencies to
investigate the same target. We spoke with representatives from the
various U.S. law enforcement agencies who work with the DEA in the
countries we visited and, except for one instance identified below, found the
DEA to have good working relationships with them.

       The one exception was the relationship between the DEA and ICE
offices in Colombia, both of which acknowledged that there was a
contentious relationship between the two agencies and that coordination
needed much improvement. ICE officials in Colombia did not believe the
DEA coordinated any of its activities with them, and the DEA Regional
Director also voiced discontent with the relationship between the two
agencies. We were informed of instances in which the safety of DEA, ICE,
and Colombian law enforcement personnel was put at risk due to the lack of
coordination.

       At our audit close-out meeting, the DEA told us that its relationship
with ICE in Colombia changed since we conducted our fieldwork in
April 2006. Subsequently, we discussed the matter with the DEA Regional
Director and ICE Country Attaché in Colombia and both stated that the
relationship between the agencies has improved. Additionally, we were

       52
         For a complete listing of the agencies with which we met during this review, see
Appendix V.

                                     50
                         REDACTED – PUBLIC VERSION
                       REDACTED – PUBLIC VERSION


provided evidence of DEA efforts to enhance coordination with ICE in
Colombia.

Foreign Counterpart Agencies

       The DEA’s relationships with its foreign counterparts rely heavily on
individual personalities, cultural traditions, and the openness to
communication between the parties. We were told that as a result of
cultural attitudes in many countries, personal bonds first need to be
developed and are significant in fostering a professional working
relationship. In the countries we visited, DEA personnel commented that the
social culture makes it very important for a foreign counterpart
representative to accept and trust an individual on a personal basis. Once
this connection is established, a positive professional partnership can
develop that will assist the DEA in obtaining the information it requires.
Further, DEA personnel commented that a good relationship with their
foreign counterparts often resulted in more timely cooperation in response to
DEA requests for information. DEA officials told us that they spend a great
deal of effort developing relationships with their counterparts.

       During our fieldwork, we met with 31 individuals from foreign
counterpart agencies (shown in the following exhibit) to discuss their
relationships with the DEA.

           List of Foreign Agencies Consulted During Review
   COUNTRY         FOREIGN AGENCY
                   Armada Nacional
                   Cuerpo Técnico de Investigación
    Colombia
                   Departamento Administrativo de Seguridad
                   Policía Nacional de Colombia
                   Direzione Centrale Servizi Anti-Droga
      Italy        Guardia di Finanza
                   Polizia di Stato
                   Agencia Federal de Investigaciones
                   Instituto Nacional de Migración
     Mexico
                   Seguridad Pública de Guadalajara
                   Secretaría de Seguridad Pública
                   Royal Thai Police
    Thailand
                   Office of the Narcotics Control Board
                   Turkish Gendarmerie
     Turkey        Turkish Customs
                   Turkish National Police
 Source: OIG interviews with Drug Enforcement Administration foreign counterparts


                                   51
                       REDACTED – PUBLIC VERSION
                      REDACTED – PUBLIC VERSION


       The consensus of the foreign officials we interviewed was that the DEA
aided their law enforcement efforts, particularly in building international
partnerships, providing training opportunities, and supplying useful
investigative equipment. For instance, an Italian law enforcement manager
commented that the DEA’s international partnerships provided the
international law enforcement community with the capability to coordinate
multi-nation investigative operations against international drug trafficking
organizations. Similarly, a Colombian law enforcement representative told
us that the DEA makes the cooperation between the investigative and
prosecutorial components of the Colombian government more effective.
According to this representative, the communication between these two
entities would be deficient without the DEA acting as a facilitator.

      An official from one law enforcement agency in Thailand attributed its
current level of professionalism and specialization to the assistance received
from the DEA. A representative from another Thai agency stated that
working with the DEA provides a greater opportunity for obtaining drug-
related intelligence that will help to combat illegal drug activities in their
country.

       During our fieldwork in Turkey, a foreign official told us that DEA-
provided intelligence helps to speed up local investigations. Turkish officials
also told us about recent operations for which the DEA had provided
invaluable assistance. For example, a foreign official spoke of a case in
which a DEA-paid informant provided information about a heroin shipment,
resulting in the seizure of several tons of heroin. In another instance,
foreign officials in Turkey were aware of a Turkish shipment of 41 kilograms
of cocaine from Bolivia to Iran, but the smugglers were not going to take the
narcotics through Turkey. The vessel used for the shipment was from
Denmark, and the DEA assisted in the seizure of the narcotics by facilitating
communication between Turkey and Denmark officials.

      The DEA’s partnership with agencies abroad has also resulted in other
agencies sending officials to DEA offices in the United States. For example,
the United Kingdom has personnel from Her Majesty’s Custom and Excise
National Investigative Service working in the DEA’s SOD. Also, Italy’s
Direzione Centrale Servizi Anti-Droga has an agent stationed in the DEA
Miami office.

       We observed the interaction between the DEA and foreign counterpart
personnel during our fieldwork, and we generally perceived these
relationships to be positive. For example, we observed DEA agents in
Guadalajara, Mexico, having frequent contact with foreign counterpart
personnel regarding local law enforcement matters. In our interviews with
them, several foreign officials in Guadalajara spoke appreciatively about
                                  52
                      REDACTED – PUBLIC VERSION
                     REDACTED – PUBLIC VERSION


their personal and professional relationships with two particular DEA Special
Agents and in a large part attributed the success of the interaction between
the two agencies to these relations. Similarly, personnel from Colombian
counterpart agencies with whom we met in Bogotá and Cartagena expressed
satisfaction regarding the interaction between their agencies and the DEA.

Conclusion

     The relationships the DEA maintains with all its counterparts – both
domestic and foreign – are essential to its mission abroad. We found that
the DEA has established effective partnerships with its foreign counterparts.




                                 53
                     REDACTED – PUBLIC VERSION
                           REDACTED – PUBLIC VERSION


              CHAPTER 5: ADMINISTRATIVE FUNCTIONS

      Our review included an evaluation of certain administrative functions
for the DEA’s international operations in selected foreign offices, including an
assessment of the DEA’s administration of its imprest funds and its practices
and records related to security and firearms. We found deficiencies in these
areas, which we believe were caused by weak management oversight and
poor adherence to established rules and procedures.

Imprest Funds

       Imprest funds are fixed or petty-cash funds held in the form of
currency and coins that are advanced to designated cashiers, who in turn
advance the funds to employees for mission-related expenses. Agencies use
imprest funds to make a variety of payments to many types of recipients,
including reimbursing employees for investigative expenses, for making
small purchases and limited emergency non-investigative payments,
[SENSITIVE INFORMATION REDACTED]. According to records at DEA
headquarters, the total amount of imprest funds held by the DEA’s foreign
offices amounts to $2,786,000.53 Additionally, the DEA offices in Thailand
maintained imprest funds in Thailand’s national currency.54 Therefore, the
total amount of imprest funds in the DEA foreign offices was approximately
$3.18 million.

      Eight of the 10 foreign offices we visited had imprest funds.55 We
reviewed imprest funds for seven of these eight offices, which were
accountable for nearly $1 million dollars.56 A breakdown for each office is
shown in the following table:




       53
          The DEA determines the dollar amount of each imprest fund in each office by
reassessing annually the amount of investigative expenses used by an office.
       54
            These funds valued at $394,000 are advanced by the State Department and are
identified in the State Department’s general ledger.
       55
            The Milan and Rome, Italy, offices did not have imprest funds.
       56
           We were unable to fully review the imprest fund in Mazatlán, Mexico, because the
imprest fund cashier was not in the office at the time of our fieldwork and DEA regulations
prohibit other employees from accessing the fund in the absence of the designated cashier.

                                       54
                           REDACTED – PUBLIC VERSION
                           REDACTED – PUBLIC VERSION


                 DEA Imprest Fund Levels at Sites Reviewed
               LOCATION                                              AMOUNT
               Ankara, Turkey                                    $   65,000
               Bangkok, Thailand57                                  273,000
               Bogotá, Colombia                                     310,000
               Cartagena, Colombia                                  100,000
               Guadalajara, Mexico                                   75,000
               Istanbul, Turkey                                      40,000
               Mexico City, Mexico                                  100,000
               Total                                             $ 963,000
               Source: Drug Enforcement Administration

      In addition to its own imprest fund policies and procedures, the DEA
must abide by imprest fund regulations established by the Department of
Treasury (Treasury Department) and the State Department. These
regulations include Chapter 8 of the DEA Financial Management and Policy
Handbook, the Treasury Department’s Manual of Procedures and Instructions
for Cashiers, as well as the State Department’s Financial Affairs Manual,
Volume 4, and its Financial Management Procedures Handbook.

      During our fieldwork, we interviewed imprest fund cashiers about their
responsibilities, observed a count of the respective offices’ imprest fund, and
tested a sample of transactions.

Imprest Fund Cash Counts

       At seven DEA offices, we observed a cash count of the office’s imprest
fund that was conducted by the principal cashier, alternate cashier, or acting
supervisor who handled the funds and performed the actual count.58 All of
the cash, expenditure documents, and reimbursement checks equaled the
total authorized amount of the imprest fund allotted to each office, except
for the DEA office in Bangkok.

     While in Bangkok, we observed imprest fund cash counts on two
separate occasions. On one occasion, the cashier discovered a $1 overage

       57
           DEA’s Bangkok office kept its imprest fund of $273,000 in two currencies: $88,000 in
U.S. Dollars (USD) and 7.4 million in Thai Baht. The 7.4 million Thai Baht was considered by the
State Department to be held at a constant 40.00 Baht exchange rate equating to $185,000.

       58
          A principal cashier is the primary cashier who has been designated and authorized to
advance cash and carry out the cash operations, and who is personally liable for any loss or
shortage of funds. An alternate cashier disburses funds during short absences of the primary
cashier.

                                       55
                           REDACTED – PUBLIC VERSION
                         REDACTED – PUBLIC VERSION


in the U.S. fund. On another occasion, the cashier found that the Thai Baht
fund was short 24,000 Baht, an equivalent of $600 USD.59 As a result, we
asked the cashier to review the imprest fund accounting ledgers and
relevant documents to ensure that all transactions had been posted and that
everything had been calculated correctly, and we invited the cashier’s
immediate supervisor to count the funds. More than 2 hours later, after
multiple viewings of the count conducted by the cashier and the cashier’s
supervisor, the cashier found the missing Thai Baht outside the cash box
within the safe that houses the imprest funds.

DEA Audits of Imprest Funds

      DEA imprest funds are required to have quarterly unannounced audits
and an annual audit of the primary and alternate imprest funds as well as an
audit whenever a change in cashier duties occurs. These audits must be
performed by individuals not associated with imprest fund activities,
including supervisors of the imprest fund cashier. We tested the audits for
FYs 2005 and 2006 for the locations we reviewed with imprest funds. We
found that in Mexico City, Mexico, the DEA did not always conduct audits of
the alternate imprest fund, and the DEA office in Bogotá, Colombia, omitted
an audit of the primary imprest fund for one of the quarters we reviewed.
Further, we found quarterly audits were occasionally performed by persons
having supervisory responsibility over the imprest fund.

Imprest Fund Transactions Reviewed

      We selected and reviewed a judgmental sample of FYs 2005 and 2006
imprest fund transactions at the seven foreign offices. We selected a sample
of 233 transactions out of a universe of 3,266. We reviewed the supporting
documentation to determine if the transactions were allowable, supported,
properly classified, and accurately recorded. We also determined if imprest
fund advances [SENSITIVE INFORMATION REDACTED] were cleared within
authorized time limits. Finally, we determined if the imprest payments were
made only to DEA employees (not others such as Foreign Service Nationals)
as required by DEA’s Financial Management and Policy Handbook.

      Based on our testing, we identified numerous discrepancies relating to a
lack of supporting documentation, timeliness of clearing cash advances and
returning flashroll monies, missing signatures, and funds issued to improper



      59
         The U.S. Dollar equivalent was calculated using the State Department’s constant
exchange rate for this imprest fund of 40.00 Baht to the U.S. Dollar.

                                     56
                         REDACTED – PUBLIC VERSION
                             REDACTED – PUBLIC VERSION


  recipients.60 The following table displays for each location the number of
  transactions in our universe and testing sample, as well as the type and
  number of discrepancies noted during our testing.

                 DEA Foreign Imprest Fund Transactions Tested
                    Type and Number of Exceptions Found




                                                                            Guadalajara




                                                                                                     Mexico City
                                                                Cartagena
                                        Bangkok




                                                                                          Istanbul




                                                                                                                    TOTALS
                               Ankara




                                                   Bogotá
Type
of
Exception


Transaction Universe           87       694       1,051         939         189           85         221           3,266
Transaction Sample             11        50          50          58          29           10          25             233
Insufficient
supporting                        1          7          2             0              0        0               0        10
documentation
Receipts for
advances not                      0          9          7              2             0        0               3        21
cleared timely
Missing signatures                0      28           10          44           19             0         19          120
Funds issued to
                                  1      11                 0          1             0        0               1        14
improper recipients61
Flashroll not
                                -            2      -             -            -            -           -                    2
returned timely62
          TOTAL
                                 2       57          19          47           19             0         23           167
    EXCEPTIONS63
Source: OIG analysis of DEA imprest funds’ transaction documentation



         60
             A flashroll is a temporary advance issued to a Special Agent during the course of an
  investigation and used as “show money” to procure evidence.
         61
            The DEA’s Financial Management and Policy Handbook states that imprest funds
  should only be issued to DEA employees. DEA headquarters personnel stated that FSNs
  were not considered eligible recipients of imprest fund cash. Following our audit close-out
  meeting the DEA stated that it was currently revising its policy to explicitly prohibit FSNs
  from receiving cash from the imprest fund. Our testing included the identification of imprest
  fund disbursements issued to non-DEA employees, including FSNs.
         62
            In addition to the two incidents in Bangkok in which the flashroll was not returned
  timely, the cashier was not counting the currency upon return of the flashroll bags. The
  DEA’s Financial Management and Policy Handbook states that cashiers should verify the
  amount of cash in the flashroll when it is returned. Our transaction sample did not include
  any flashroll advances for the remaining offices. The transaction universe and transaction
  sample noted in the table do not include the flashroll transactions we tested in Bangkok.
         63
             For some transactions tested we identified multiple deficiencies. Therefore, a
  single transaction may have more than one deficiency noted in the table.

                                         57
                             REDACTED – PUBLIC VERSION
                           REDACTED – PUBLIC VERSION


In our opinion, the weaknesses we identified occurred due to weak
management oversight in the field and poor adherence to established
protocols. The DEA has established policies and procedures that if adhered
to should provide adequate controls over most imprest fund operations and
sufficient documentation to support individual transactions. In addition, DEA
headquarters has established a system of auditing DEA field office imprest
funds and addressing identified deficiencies with the appropriate offices on a
quarterly basis.

Operational Accounts

       In locations without imprest funds, the DEA allows Special Agents to
maintain reimbursable accounts called operational advances to be used for
[SENSITIVE INFORMATION REDACTED] and for small, appropriate office
expenses. The two DEA offices in Italy supplied each of three agents – one
in Milan and two in Rome – with $3,000 operational advance accounts.
According to the DEA Financial Management and Policy Handbook, agents
must obtain approval from a supervisor before expending funds from an
operational account. We selected a sample of 14 transactions in total from
these three accounts. We found no evidence that the agents obtained the
required authorization to incur the expense for 10 of the 14 transactions
sampled.

Security Matters

        The DEA foreign offices are physically located in U.S. Embassies,
Consulates, or stand-alone locations. In these offices, the security of space,
equipment, documentation, and intelligence is vitally important to the
protection of the DEA’s personnel and operations. The DEA is responsible for
abiding by all location-specific policies, including those promulgated by the
State Department’s Chief of Mission. Within an Embassy or Consulate, the
Regional Security Officer (RSO) administers and manages the U.S.
diplomatic mission security programs that include protection of personnel,
facilities, sensitive information, and U.S. citizens working or visiting the
region.

       We interviewed the RSO for each location we visited about the
respective DEA office’s security practices. Additionally, we interviewed DEA
employees assigned the collateral duty of “security officer” for DEA foreign
offices in which we conducted fieldwork.64 While on-site, we also conducted
       64
          The DEA security officer is responsible for ensuring the DEA foreign office follows
DEA security regulations, as well as Chief of Mission policies. The Chief of Mission is the title
given to the principal U.S. government representative to a country, usually the U.S.
Ambassador.

                                       58
                           REDACTED – PUBLIC VERSION
                      REDACTED – PUBLIC VERSION


observational walk-throughs of DEA work space, observed office and
personnel security practices, reviewed secure safe and door combination-
change records, and examined firearms storage practices. We identified
certain deficient security practices in each of these areas.

Controlled Access Areas

      The DEA offices we visited were either located entirely or partially in a
controlled access area (CAA), or had access to a portion of CAA space. CAAs
are specifically designated areas within a building where classified
information may be handled, stored, discussed, or processed. DEA offices
we visited in Mexico (Mexico City), Colombia (Bogotá and Cartagena),
Thailand (Bangkok), and Turkey (Istanbul) were completely located in CAA
space. Conversely, DEA offices in Italy (Milan and Rome), Mexico
(Guadalajara and Mazatlán), and Turkey (Ankara) had a designated CAA
within the office or in an area outside the office for working with classified
information.

       The State Department’s Foreign Affairs Manual states that the use of
cellular phones is prohibited in CAA space. Our review noted no security
violations regarding cellular phone usage in CAA space, except in the DEA
offices in Mexico City, Mexico, and Bogotá, Colombia.

       According to the RSO in Mexico City, on one occasion a security sweep
identified 30 cellular phones in the DEA’s CAA space. The RSO also stated
that DEA personnel were seen talking on cellular phones in the CAA on
several other occasions. During our fieldwork in Mexico City, we observed
several personnel who were in possession of their cellular phones within the
CAA space, and in one instance we witnessed a DEA employee using a
cellular phone in the CAA. In Bogotá, on at least one occasion we observed
a DEA employee carrying a cellular phone within the office’s CAA.

      We were told that the Deputy Chief of Mission spoke to the Mexico City
Regional Director around May 2005 about the DEA’s increasing number of
security violations identified during periodic RSO security checks. As a
result, DEA management in Mexico City reminded all personnel of proper
security procedures and implemented a nightly security checklist protocol for
the office. This checklist was designed to verify that all documents and
material were appropriately secured at the end of each day. The Deputy
Chief of Mission and the RSO told us that the number of security violations




                                  59
                      REDACTED – PUBLIC VERSION
                          REDACTED – PUBLIC VERSION


decreased significantly following the implementation of the end-of-day
security checklist.65

     In the other offices we visited, the RSOs did not indicate concern over
DEA CAA security, and we did not observe violations of security protocol.

Safe and Door Combination Locks

       The DEA utilizes combination safes and door locks to guard its CAA
areas that contain items such as sensitive documents, firearms, and imprest
fund cash. The DOJ Security Program Operating Manual and the DEA
Planning and Inspections Manual require that combinations be changed
when the equipment is placed into initial use, whenever a person knowing
the combination no longer requires access to it, and whenever a combination
has been subject to possible compromise. The State Department’s Foreign
Affairs Manual requires that the RSO change combinations at least every
12 months. In addition, good internal controls require that the DEA ensure
that its space and information are properly secured, which includes assuring
combinations are changed appropriately.

      For 8 of the 10 DEA foreign offices in which we conducted fieldwork,
we examined whether: (1) safe and door combinations were changed at
least every 12 months, and (2) the DEA maintained an accurate inventory of
the safes and secure door locks within its workspace, including current
combinations.66 We also attempted to verify the DEA’s records against the
RSO’s inventory records of door and safe combinations.

      Our review at these DEA foreign offices revealed that the DEA was not
adequately securing its offices in Mexico and Colombia because combinations
were not tracked and changed as required. In Mexico City, the DEA
provided an inventory showing the office maintained 78 safe and door
combination locks. However, we conducted a count of combination locks
with DEA personnel and found that there were only 54 combination locks in

       65
            However, our review of the completed checklists covering a 4-week period
revealed a weakness with the security checks. A primary purpose of the checklists was to
document the final security review of the day after all employees had left for the night. We
observed that some checklists clearly indicated that DEA personnel were still in the office
when the checklist was being completed. Therefore, the individual performing the security
sweep could not confirm that all safes and doors were locked and computers were turned
off. DEA management in Mexico City agreed with our assessment and provided evidence
that it instructed its staff immediately following our visit on the proper practices regarding
security sweep duties.
       66
         We did not conduct testing of safe and door lock inventories and combination
change dates in Guadalajara and Mazatlán, Mexico.

                                      60
                          REDACTED – PUBLIC VERSION
                      REDACTED – PUBLIC VERSION


the DEA Mexico City office. Additionally, the DEA office in Cartagena,
Colombia, provided an inventory list noting 20 safe and door combination
locks were located within DEA space. However, our physical count revealed
that two locks (on two separate safes) were missing from the inventory.

       When records allowed us to test combination change dates, we
identified a significant number of instances in which the DEA had not
changed combinations in over 12 months. The following table details our
testing and related findings in this area.

                 Number of Overdue Combination Changes
                         in DEA Foreign Offices
                                      Over 12 Months
                Location             Since Combination
                                        Last Changed
                Colombia
                   Bogotá                               87
                   Cartagena                             0
                Italy
                    Rome                                 0
                    Milan                                0
                Mexico
                    Mexico City                         42
                Thailand
                    Bangkok                              0
                Turkey
                    Ankara                               0
                    Istanbul                             1
                 Source: OIG analysis of Drug Enforcement Administration
                         combination lock change practices


      Our analysis of the Istanbul records showed that the combination to
the lock on the DEA’s office entry door had not been changed since 2003. In
our analysis of 52 combination change cards in Mexico City, we found that
42 of them had not been changed in over 12 months. The only centralized
combination records available in Bogotá were maintained by the RSO, and
our analysis of these records revealed that combinations had not been
changed in the past year for 87 of 89 locks.

       Although the State Department has the responsibility for changing the
combinations of safes and door locks, the DEA must ensure the security of
its space and information. Therefore, we believe the DEA should confirm
that combinations are changed in accordance with all applicable regulations.
To do so, DEA offices must have a reliable inventory of secure devices
requiring combination changes. The DEA does not currently require such

                                  61
                      REDACTED – PUBLIC VERSION
                     REDACTED – PUBLIC VERSION


records. We recommend the DEA establish a policy for its foreign offices to
maintain a complete and accurate record of its safe and door lock
combinations, including the dates each combination was last changed.

Safe Security Observations

      In the DEA offices in Mexico City and Bogotá, we observed DEA
personnel leaving safes open and unattended. For instance, a DEA alternate
imprest fund cashier in Mexico City kept $5,000 in imprest fund cash in a
safe next to his desk, and we observed this safe open and unattended on
two separate occasions. In the DEA Bogotá office, we viewed multiple safes
unlocked with the drawers open while the responsible DEA personnel could
not be located in the office area. Our discussions with DEA personnel and
observations of safe contents indicated that safes contained sensitive
information, and at times an agent’s weapon.

      Although these safes were located in CAA space, we observed non-DEA
personnel frequently entering the DEA office. We believe that DEA personnel
in these offices need to be more diligent and follow security protocols more
closely. Additionally, any safe holding weapons or imprest fund cash should
be secured at all times when not in direct use.

Firearms Security, Safety, and Storage

      The DEA Agents Manual states that all Special Agents assigned to DEA
foreign offices should follow DEA policy unless modified by host-country or
Chief of Mission policy. The manual further states that, when unattended,
each firearm must be made safe and inoperable by one or more of the
following methods: (1) remove and separate the source of ammunition,
(2) install an issued gun safety lock, or (3) place the weapon in a
commercially available lock box. We did not observe any exceptions to DEA
or Chief of Mission policies for storage of weapons in our visits to
[SENSITIVE INFORMATION REDACTED], but we did find minor violations in
the other countries we visited.

      For example, the Chief of Mission protocol for the U.S. Embassy in
Bangkok, Thailand, stated that all weapons should be cleared using a proper
clearing tube. However, we observed an agent clearing his weapon in a safe
near his desk before presenting the firearm for our inspection.

Firearms Qualification

      According to the DEA Agents Manual, all Special Agents (except those
assigned to headquarters staff positions) must qualify semi-annually with

                                 62
                     REDACTED – PUBLIC VERSION
                         REDACTED – PUBLIC VERSION


their DEA-issued handguns and any approved personally owned handguns
they seek to have authorization to carry. In foreign offices, the DEA general
firearms policy is modified, if necessary, to conform with the requirements of
the host-country law or policy and Chief of Mission policy. DEA regulations
further state that if there are no appropriate firearms facilities nearby, then
the employee, when on official continental U.S. assignment (e.g., home
leave or temporary duty assignment), should make arrangements to qualify
at the nearest DEA office or at the DEA Training Academy facility in
Quantico, Virginia.

       Additionally, the DEA Agents Manual states that the original record of
qualification should be maintained in a file within the office to which the
agent is assigned. Primary firearms instructors are responsible for
maintaining records of qualification in each agent’s file, which should follow
the agent from post to post. Our initial review of DEA firearms files in
foreign offices revealed that a number of files were not presently maintained
in the respective DEA foreign office, as required. Additionally, several files
available for review were incomplete while other files showed that many
agents had not certified their weapons proficiency in over a year.

        We also contacted the DEA Training Division and requested firearms
qualification information for all agents assigned to a foreign office. The
listing provided to us on February 3, 2006, contained information for 379
employees, including the dates each agent last qualified. We compared this
list to our sample of field personnel and found that 10 of the 122 sampled
employees were not on the list provided by the Training Division. As a result
of the incomplete state of firearms records for DEA foreign personnel, we
were unable to complete our testing in this area. Further, we identified the
following three conditions related to weapons qualifications that pose serious
liability risks to the DEA foreign offices.

       •      In Italy, the five DEA agents authorized to carry weapons in-
              country had not completed firearms qualification since their
              arrival at post, which was between 17 months and 4 years prior
              to our fieldwork.67 Agents attributed this to the lack of an
              available firing range and the absence of a primary firearms
              instructor in the region. Additionally, the agents in the DEA
              office in Milan had not had their firearms files forwarded to their
              current post.



       67
          Two additional agents were stationed in Italy at the time of our fieldwork in
April 2006. However, these individuals had recently arrived and had not yet received host-
country approval to carry their weapons.

                                     63
                         REDACTED – PUBLIC VERSION
                      REDACTED – PUBLIC VERSION


      •


                           [SENSITIVE INFORMATION REDACTED]




      •     DEA regulations state that agents transferred to a foreign office
            may be required to store their weapons in the United States for the
            period that they are stationed abroad. In these situations the agent
            is issued a weapon from the office’s available stock upon arrival to
            post. As a result, it is possible for a DEA agent to arrive at post and
            be issued a DEA-owned weapon and to have never qualified on that
            particular firearm. For example, we found DEA agents in Milan,
            Italy, had never qualified on the weapons they received at post.
            These agents had been stationed in Italy for 2 to 4 years.
            Additionally, at least one agent overdue for weapons qualification
            that we interviewed stated that he did not re-certify his weapons
            proficiency when last in the United States.

       DEA policy states that agents are exempt from firearms qualification
requirements while stationed at a foreign post in the event host-country or
U.S. Mission policies prevent compliance with the regulations, or if there is a
lack of training facilities. However, the overall state of the firearms
qualification for DEA personnel stationed in foreign offices, including the
general poor documentation at the DEA Training Division and in the DEA
foreign offices we visited, evidenced the lack of emphasis that the DEA
placed on firearms proficiency for its personnel located overseas. The DEA
informed us at the audit close-out meeting that it recognized a need for
improvement in this area and planned to better enforce its policy requiring
employees to qualify when on official or personal travel in the United States,
including any approved home leave. However, we believe that this
requirement still allows for the possibility of agents not certifying proficiency
on a weapon issued in a foreign office if they are not required to travel to
the United States on an operational matter and choose to spend their home
leave outside the United States. We suggest the DEA explore other
alternatives and develop procedures to address this policy gap. Also, we
encourage the DEA to consider requiring agents to qualify on the same make
and model of the weapon they will be issued by their foreign office before
being allowed to report to their foreign post, especially for those agents
reporting to a country that does not have a firearms testing facility
compliant with DEA qualification standards.

                                  64
                      REDACTED – PUBLIC VERSION
                         REDACTED – PUBLIC VERSION


Foreign Service Nationals

       We noted in certain DEA offices that foreign service nationals (FSN)
were allowed to carry weapons while on official duty for the DEA.68 The DEA
offices in [SENSITIVE INFORMATION REDACTED] employed FSNs as
Investigative Assistants. [SENSITIVE INFORMATION REDACTED].

       An FSN [SENSITIVE INFORMATION REDACTED] informed us that he
practiced firing his weapon at a local law enforcement firing range, but that
the DEA did not test him for proficiency or maintain a qualification file for
him. [SENSITIVE INFORMATION REDACTED], an FSN who carried a weapon
while on duty with the DEA informed us that the agency tested his weapons
proficiency, but did not maintain a record of his scores.

       FSNs have been issued DEA-owned weapons and at least one has been
carrying a weapon with the DEA’s tacit consent for more than 20 years.
Allowing an FSN to carry a weapon without determining whether the
individual is proficient could represent a significant liability for the agency.
The DEA stated that it recognized the same vulnerability, which prompted
the agency to develop a policy addressing FSNs carrying firearms during
official DEA duty. The DEA promulgated this policy in July 2006, and we
were provided this policy subsequent to our audit close-out meeting. Our
review of the policy identified the same gap as identified in our review of the
DEA firearms qualification policy for agents stationed in foreign countries.
Specifically, the policy allows for an FSN stationed in a country without a
DEA-approved firearms facility to be exempt from qualification standards.

      Additionally, we followed up with the DEA regarding how the policy
applied specifically to FSNs carrying personally owned firearms during official
duty, as was the situation [SENSITIVE INFORMATION REDACTED]. The DEA
responded that FSNs are prohibited from carrying personally owned firearms
while on official DEA duty. Moreover, the DEA also stated that the intent of
the policy was for firearms and ammunition to only be issued to FSNs on a
day-to-day basis, unless the Regional Director specifically approves an
exemption and allows the FSN to carry the DEA-issued weapon on a 24-hour
basis. We believe the DEA should review its policy and ensure that this
temporary authorization element and the prohibition of carrying personally
owned firearms are addressed in the agency’s FSN firearms policy.




      68
         The DEA stated that FSNs may carry firearms only if it complies with host nation
law and only after being authorized by the host nation government.

                                     65
                         REDACTED – PUBLIC VERSION
                     REDACTED – PUBLIC VERSION


Administrative Cost Determinations

      The State Department initiated the Interagency Consolidated
Administrative Support Services (ICASS) program in October 1997 to
provide and share the cost of common administrative support functions at
U.S. government posts abroad. Examples of the services provided through
ICASS are vehicle maintenance, travel services, mail and messenger
services, information management, purchasing and contracting, non-
residential security guard services, and building operations. Some services
are mandatory and most are voluntary. Agencies, for the most part, are
able to choose the services in which their office will participate.

       For FY 2005, the ICASS Service Center reported that the DEA
contributed approximately $17.5 million for ICASS administrative services.
The following table shows the FY 2005 final ICASS costs for the DEA in the
five countries that we visited.

                    Fiscal Year 2005 ICASS Costs for
                   DEA Offices in Countries Reviewed
                Country                      ICASS Cost
                Mexico                         1,412,157
                Colombia                   $     762,111
                Turkey                           629,474
                Thailand                         618,852
                Italy                            578,361
                TOTAL                     $ 4,000,955
                Source: State Department ICASS Service Center

       During our fieldwork, we discussed with DEA foreign office managers
their use and consideration of ICASS and whether they thought it was the
best method for procuring goods and services. In addition, DEA foreign
office managers evaluated ICASS services in their annual review of
administrative office needs. In some cases, the DEA determined that it was
more cost effective to go outside ICASS for certain services. For instance,
the DEA office in Bogotá, Colombia, does not participate in the Embassy’s
motor pool because DEA management determined that it is more cost-
effective to perform this function internally. Additionally, regional
management in Rome, Italy, and Ankara, Turkey, informed us that they do
not utilize ICASS for vehicle maintenance, as a better cost and quality of
service can be obtained through local vendors.




                                 66
                     REDACTED – PUBLIC VERSION
                          REDACTED – PUBLIC VERSION


Conclusion

       During our review of DEA foreign offices, we found that the agency
needed to improve certain aspects of its cash management, recordkeeping,
and security. For instance, we found 165 deficiencies in our testing of
233 imprest fund transactions.69 Valued at over $3 million, the DEA’s
foreign office imprest funds represent a significant amount of money that is
at increased risk for loss if established procedures are not followed.

      Additionally, DEA foreign offices in Mexico (Mexico City) and Colombia
(Bogotá and Cartagena) could not provide complete and accurate records for
safe and door combination-locks. We also observed DEA personnel in
Mexico City talking on cellular phones within CAA space, a violation of U.S.
Embassy security policy.

       Of particular concern is that DEA Special Agents could arrive in foreign
offices and be issued a weapon for which they had never qualified. In
addition, our review of FSNs hired as Investigative Assistants revealed that
the agency allowed FSNs to carry weapons but never certified their
proficiency in firing the weapons. The DEA has recently promulgated policy
addressing FSNs carrying firearms on official DEA duty, but we believe this
policy needs refinement and clarification. Inadequate weapons certification
for DEA employees, combined with generally poor evidence of weapons
qualification practices for employees in foreign offices, present liabilities to
the DEA and to the safety of its agents that we believe should be remedied.

Recommendations

       We recommend that the Drug Enforcement Administration:

15.    Re-emphasize to DEA foreign managers and personnel that:

       a.   audits of imprest funds should be performed and documented
            according to regulations, and

       b.   it is important to maintain adequate supporting documentation,
            clear advances of funds in a timely manner or obtain and
            document extensions, count flashroll monies when returned to a
            cashier, ensure all required signatures are obtained, and limit
            payments to eligible recipients of imprest funds.


       69
          We also found 2 deficiencies related to the untimely return of flashrolls, which
were not included in our 233 transaction sample.

                                      67
                          REDACTED – PUBLIC VERSION
                      REDACTED – PUBLIC VERSION


16.   Re-emphasize to agents with operational advances the importance of
      receiving authorization from a supervisor before expending funds from
      these accounts and retaining documentation of this approval for their
      records.

17.   Ensure all DEA personnel understand and adhere to proper security
      protocols in foreign offices by:

      a.   reiterating to foreign offices the DEA and State Department
           policies on proper cell phone practices and the proper care of
           safes, and

      b.   immediately changing safe and door combinations that have not
           been changed in the last 12 months and ensuring that all safe and
           door combinations are changed and recorded at least annually.

18.   Direct firearms coordinators to forward employee files for those who
      are no longer at post to their next post of duty or the Firearms
      Training Unit, and instruct foreign field offices to make current the
      firearms qualification files for their personnel and to provide notice to
      headquarters when completed.

19.   Revise the firearms qualification policy to address the situation where
      a DEA agent is located in a country without an available firearms
      testing facility that is compliant with DEA qualification standards and
      who does not officially or personally travel to the United States during
      a foreign post tenure.

20.   Determine why 10 of 122 sampled DEA Special Agents who were
      carrying firearms in foreign countries were not on the DEA Training
      Division’s centralized list of foreign DEA personnel certified to carry a
      weapon, and update the Training Division’s database accordingly.

21.   Refine its FSNs firearms policy, including:

      a.   addressing the possibility of FSNs that are unable to certify
           weapons proficiency because there is no available firearms testing
           facility compliant with DEA qualification standards, and

      b.   clarifying that FSNs are prohibited from carrying personal firearms
           during official DEA duty and that FSNs are to be issued weapons
           and ammunition on a day-to-day basis unless specifically
           authorized by the Regional Director to carry a DEA-issued firearm
           on a permanent basis.

                                  68
                      REDACTED – PUBLIC VERSION
                      REDACTED – PUBLIC VERSION


            CHAPTER 6: INTERNATIONAL TRAINING

      The DEA’s success overseas, as discussed in Chapter 4, often relies on
the quality of its relationships with foreign counterpart agencies and the
investigative capabilities of these foreign partners. The DEA views training
as an important means for building international partnerships and enhancing
the technical ability of foreign law enforcement. Additionally, the DEA must
ensure it is properly training its personnel for duties and responsibilities in
foreign offices.

      Our review found that the DEA provided extensive training
opportunities to foreign counterparts, and these counterparts complimented
the DEA on the training received and noted the DEA as an important source
for drug enforcement knowledge and expertise. However, we found room
for improvement in the DEA’s coordination of its international training,
particularly between the DEA and other agencies that provide similar
opportunities for training. Additionally, we determined that DEA personnel
stationed in foreign offices did not receive appropriate training on certain
administrative functions important to the effective maintenance of DEA
foreign office operations, specifically on imprest fund administration.

International Training Section

      The DEA’s Training Division includes the International Training Section,
which is responsible for managing DEA foreign-related training endeavors.
According to the DEA, it has offered counternarcotics training to its foreign
counterparts since its inception, providing instruction internationally and in
the United States, usually at the DEA Training Academy located in Quantico,
Virginia. DEA officials further stated that the DEA currently trains
approximately 2,500 foreign law enforcement officers each year. The intent
of DEA international training is to develop lasting working relationships
between countries and to build institutional infrastructure within foreign law
enforcement agencies and judicial systems. The DEA’s International
Training Section identified five objectives for its international training:

      •     upgrade the drug law enforcement capabilities of foreign law
            enforcement agencies;
      •     encourage and assist key countries in developing self-sufficient
            drug investigation training programs;
      •     increase cooperation and communication between foreign law
            enforcement personnel and the DEA in international drug
            trafficking intelligence and operations;


                                  69
                      REDACTED – PUBLIC VERSION
                         REDACTED – PUBLIC VERSION


      •       provide foreign officials with motivation, as well as the necessary
              skills and knowledge, required to initiate and continue high-level
              international drug investigations; and
      •       develop regional cooperation between countries and encourage
              long-range strategic planning to enhance enforcement and
              intelligence operations.

       The International Training Section provides training to foreign
counterpart agencies through three instructional teams specializing in
different types of training. As of June 2006, the three units, named Mobile
Team A, Mobile Team B, and Mobile Team C, had 20 authorized positions, of
which 18 personnel were on board and 2 Special Agent positions were
vacant. These figures represent a decrease in personnel resources allocated
to international training endeavors. In FY 1995, a total of 30 positions were
allocated to five mobile training teams. DEA Training Division
representatives stated that the DEA is providing more instruction with its
three mobile teams than it did with the previous five instructional teams,
even though they are operating with a third fewer positions. The five teams
put on about 35 classes per year, whereas the three teams now provide
about 70 classes.

Mobile Team A

       The International Training Section’s Mobile Team A provides training
for foreign law enforcement officials who are part of the DEA’s Sensitive
Investigative Unit (SIU) Program.70 SIU Basic Training, the unit’s 5-week
class held at the DEA’s Training Academy, typically includes instruction in
interviewing, raid planning, first aid, technical training, wire intercept, and
computer training, among other topics. When a specific need arises, the
DEA also provides specialized training to its SIUs, usually in the host
country. Examples of these subject-focused classes include training on
topics such as asset forfeiture, money laundering, and intelligence collection
and analysis methods.

       When possible, the SIU Basic Training course is composed of
participants from a single country. In other cases, the DEA may combine
SIUs, or portions of SIUs, from the same country or from different countries.
For example, the DEA presented a concurrent SIU Basic Training course to
SIU members from Guatemala and Mexico. The DEA reports to have trained
over 1,600 foreign personnel in its SIU Basic Training course between
October 1996 and June 2006.


      70
           We discussed the DEA’s SIU Program in Chapter 3.

                                     70
                         REDACTED – PUBLIC VERSION
                        REDACTED – PUBLIC VERSION


       During our fieldwork at DEA foreign offices, we met with SIU personnel
who attended the SIU Basic Training course. Overall, these representatives
generally indicated that the training was beneficial and important to
professional and technical development. However, although most SIU
commanders in Mexico and Colombia noted that the training instilled
professionalism and motivation in their units, a few SIU members we
interviewed believed the SIU training could be improved. For example,
some SIU commanders in Mexico and Colombia stated that their units would
benefit from training in sophisticated investigative techniques. An SIU
commander in Colombia commented that he relayed his sentiments to DEA
Training Division management, and he felt comfortable that his suggestions
would be considered. International Training Section management
commented to us that each SIU Basic Training class is specially designed
according to the SIU’s needs and country environment in an effort to
alleviate unnecessary instruction. Also, each participant completes a course
evaluation form and the course instructor prepares an after-action report.
Adjustments are made incrementally to the course content based on the
feedback provided in these reporting mechanisms. Further, the
International Training Section conducts a curriculum conference every
2 years to review all course curriculum and to make changes to course
content as necessary.

Mobile Team B

      International training unit Mobile Team B is mainly responsible for
providing training at the State Department’s International Law Enforcement
Academies (ILEAs) located in: (1) Bangkok, Thailand; (2) Budapest,
Hungary; (3) Gaborone, Botswana; and (4) San Salvador, El Salvador.71
The leadership of these ILEAs is shared among participating U.S. agencies.
The DEA holds the Directorship post at ILEA Bangkok and the Deputy
Director position at ILEA San Salvador. As of March 2005, the State
Department reported that the ILEAs trained over 13,000 officials from
68 countries in Africa, Asia, Europe, and Latin America.

      During our fieldwork, we toured the ILEA Bangkok facility and
interviewed the DEA Program Director. In his opinion, being heavily
involved in ILEA Bangkok raises the DEA’s profile and provides the agency
with useful contacts, while the foreign governments receive needed training
from the DEA. According to the Program Director, the facility was staffed by
37 persons and had an annual operating budget of about $3 million,
      71
          The State Department developed the ILEA Program and opened the first ILEA in
Budapest, Hungary, in 1995. A fifth ILEA is located in Roswell, New Mexico, which is a
“graduate school” for ILEA participants. The total ILEA budget averages approximately
$16 million annually.

                                    71
                        REDACTED – PUBLIC VERSION
                          REDACTED – PUBLIC VERSION


provided by the State Department and the DEA, to cover the costs of
equipment, supplies, and trainer and trainee travel-related expenses.72 The
government of Thailand provided land for the facility and supports the ILEA
by paying for its vehicles, guard service, and facility maintenance. We were
informed that the government of Thailand also plans to provide $2 million to
construct dormitories for ILEA training participants.

       Mobile Team B also provides training outside the ILEAs in its
International Narcotics Enforcement Management Seminar, a 3-week course
that stresses narcotics enforcement principles and techniques for the
management level. The seminar has been provided since 1969 to high-level
managers of foreign operational anti-narcotic units. Country officials in
attendance are expected to present a synopsis of the narcotics situation in
their home country. According to DEA officials, the seminar is held in the
United States and was held several times per year when there were five
mobile teams. Now, with three mobile teams, the International Training
Section conducts the seminar once a year. The 84th International Narcotics
Enforcement Management Seminar was recently held in Hawaii and was
co-sponsored by the Department of Defense’s Joint Interagency Task Force
(JIATF) West. It was attended by 19 foreign representatives from
16 countries.73

Mobile Team C

      Mobile Team C is responsible for providing training for the
International Money Laundering and Asset Forfeiture Program, which is
funded by the State Department. The DEA, the U.S. Marshals Service,
attorneys from the DOJ’s Asset Forfeiture and Money Laundering Section,
and occasionally representatives from other agencies present courses in
money laundering and asset forfeiture to foreign governments and their
personnel. Each year, Mobile Team C participates in 25 to 30 courses
around the world. In FY 2006, Team C provided seminars on advanced
international asset forfeitures in the Netherlands, Brazil, Singapore, and
South Korea.




       72
           The DEA Program Director stated that this ILEA does not maintain a full-time set
of instructors at the site because there is not enough work between courses to keep a team
occupied on a permanent basis.
       73
          JIATF West was formed in 1989 to provide support to U.S. counter-drug efforts by
conducting operations to detect, disrupt, and dismantle drug-related transnational threats in
Asia and the Pacific by providing interagency intelligence fusion and supporting U.S. law
enforcement abroad.

                                      72
                          REDACTED – PUBLIC VERSION
                     REDACTED – PUBLIC VERSION


Funding International Training

       Funding for the DEA’s international training comes from both internal
and external sources. Internally, the DEA supports international training by:
(1) allocating a portion of its budget to the International Training Section,
and (2) allowing DEA foreign offices to use their discretionary funds for
training-related purposes. Externally, the DEA receives resources for
training from the U.S. Departments of Justice, State, and Defense (DOD).
For example, DOJ provides funding for the international asset forfeiture
seminars and SIU basic classes, while the State Department supplies funding
used for DEA training at the ILEAs and for basic and advanced drug
enforcement seminars.

       We attempted to determine the total amount of funds (from all
sources) the DEA expended on international training each fiscal year.
However, the DEA informed us that it may not completely capture all the
training that it provided or arranged to be provided to its foreign
counterparts because of the decentralized fashion in which other agencies
distribute funding for international training opportunities. For instance, the
State Department recently changed its practice of providing training funding
in a lump sum to the DEA International Training Section and now allocates
this funding to international field components of the State Department’s
Bureau for International Narcotics and Law Enforcement Affairs (INL), which
in turn directly supports training at the field level through its Narcotics
Affairs Section (NAS). According to the data provided, the DEA expended
approximately $3.2 million to supply training to foreign government
personnel in FY 2005. The DEA’s portion of this funding amounted to
40 percent and DOJ provided 18 percent. External sources such as DOD and
the State Department provided the remaining 42 percent, as shown in the
following exhibit.




                                 73
                     REDACTED – PUBLIC VERSION
                              REDACTED – PUBLIC VERSION


            SOURCES OF INTERNATIONAL TRAINING FUNDS
                            FY 2005
                                                  Department of Justice
                                                        $589,215
                      Department of Defense               18%
                             $4,624
                              0%


                                                                          Drug Enforcement
                                                                            Administration
                                                                              $1,258,217
                                                                                 40%

             Department of State
                 $1,320,514
                    42%




           Source: OIG analysis of the Drug Enforcement Administration’s International
                   Training Section budget data


      Including DEA funding, DOJ provides 58 percent of the financial
support for DEA foreign training. The State Department provides most of
the remaining funding. However, State Department headquarters
representatives informed us that budget rescissions will severely limit the
resources it will be able to provide the DEA in the future. For example, we
were told that the U.S. Ambassador to Turkey called the State Department
asking for additional training funding for the DEA and his request was denied
because of budget shortages.

Coordinating International Training

       According to a June 2005 memorandum, the DEA Administrator
directed all international training conducted by DEA worldwide to be
coordinated with the International Training Section, which plans in advance
the courses it will provide using its mobile training units. DEA foreign offices
wanting to use their discretionary funds to provide training to foreign
counterparts are required to submit to the International Training Section a
memorandum showing the date of the proposed training, the course
curriculum, and a professional biography of instructors and their subject
matter expertise. According to Training Division officials, they review the
curriculum and instructor credentials and either approve or deny the
field-developed training courses.



                                          74
                              REDACTED – PUBLIC VERSION
                      REDACTED – PUBLIC VERSION


       To examine the DEA’s coordination on training matters, we met with
personnel from the Training Division, the DEA foreign offices we visited, and
applicable components in the State Department’s INL. As a result of our
inquiries, INL surveyed its NAS components on their relationships overseas
with the DEA. INL representatives reported that they received six responses
from offices other than those we visited, and none commented on any
discontent with the DEA. A NAS entity was in three of the five countries that
we visited: Colombia, Mexico, and Thailand. We evaluated the relationship
between NAS components and the DEA foreign offices in these countries and
generally found that good communication and coordination existed.
However, NAS personnel in Colombia informed us that their office had
resources to provide additional anti-narcotic and law enforcement-related
training to foreign counterparts, but the DEA had not approached the NAS
office regarding such possibilities. DEA personnel in Colombia told us that
they were in need of additional training resources.

       In each foreign office, one DEA employee is assigned the collateral
duty of training coordinator. This individual is responsible for arranging
training opportunities for foreign counterparts and coordinating with the
International Training Section on such matters. The success of DEA training
coordinators will become even more important if overall U.S. government
funds for international training are reduced, as mentioned by the State
Department officials with whom we spoke. Thus, locating alternative
funding sources will be crucial to the DEA achieving its international training
objectives. DEA foreign office managers must also ensure training
coordinators consult with the International Training Section on courses being
planned, supported, or performed by a DEA foreign office and its personnel.

Other International Initiatives

       In addition to its instructional training to foreign counterparts, the DEA
seeks to improve international drug enforcement capabilities by sponsoring
information-sharing opportunities. One such initiative is the annual
International Drug Enforcement Conference (IDEC), which the DEA founded,
co-sponsors, and coordinates. The first IDEC was held in 1983 in Panama
City, Panama. During that first conference, fewer than 10 countries
participated. Subsequent conferences have been held annually in various
countries such as Bolivia, Colombia, Mexico, the United States, and Canada,
which hosted 76 countries at IDEC XXIV in May 2006. The DEA
Administrator serves as the permanent IDEC co-President. The DEA requires
foreign attendees to be in policy-making positions for drug regulation and
enforcement within their countries. The IDEC’s agenda is centered on
working group sessions where country officials discuss common targets as
well as regional and global attack strategies.

                                  75
                      REDACTED – PUBLIC VERSION
                      REDACTED – PUBLIC VERSION


      In addition to the annual IDEC conference, DEA headquarters
developed the International Visitors Program. This initiative sponsors the
delivery of briefings to foreign officials and U.S. diplomats on drug-trafficking
trends and worldwide anti-drug activities. According to the DEA’s records,
4,517 officials had participated in the program as of June 2006, including
over 800 U.S. officials working overseas.

       Another DEA initiative is the Training Division’s Executive Observation
Program. Representatives from other countries interested in starting
training facilities similar to the DEA’s Training Academy are invited to visit
the school. The DEA estimates that it hosts about 125 foreign visitors each
year, who observe the workings of the Training Academy.

Preparatory Training for Foreign Assignments

       Upon selection for an overseas position, DEA personnel must
participate in certain training programs before reporting to a foreign post.
Principally, these programs involve foreign language instruction and an
orientation to working internationally.

Foreign Language Training

       To work in most DEA foreign offices, Special Agents, Intelligence
Research Specialists, and Diversion Investigators are required to have a
basic fluency rating in the native language of the country in which they are
stationed. Some personnel already have such proficiency and require no
training. However, many employees do not have the requisite fluency and
must participate in one-on-one language training courses, which cost the
DEA, on average, around $65,000 per employee. The DEA considers one-
on-one language training an effective method of instruction for learning a
foreign language. We received no negative feedback regarding language
training for operational personnel, and during our fieldwork we observed
DEA operational personnel successfully engaged in one-on-one conversations
in the host-country national language in Mexico, Colombia, and Italy.

Foreign Orientation Program

       All individuals selected for overseas positions are required to
participate in the DEA’s 1-week Foreign Orientation Program, which costs the
DEA about $3,000 per person. Unless there are significant budget
constraints, as there were in FY 2005, spouses of DEA employees are also
invited to attend the program at the DEA’s expense. For FY 2006, the DEA
planned to provide one orientation course every 3 months and more would
be added if necessary. The orientation courses incorporate 3 days of

                                  76
                      REDACTED – PUBLIC VERSION
                      REDACTED – PUBLIC VERSION


DEA-provided instruction, including an introduction to living in another
country, a discussion on DEA benefits and allowances, and briefings by
different DEA components that support international functions. The
remainder of the instruction includes the State Department’s Security
Abroad for Families and Employees (SAFE) School, which provides
instruction in such topics as personal safety, weapons of mass destruction,
and terrorism. All U.S. government employees in permanent foreign
assignments must attend the SAFE School at least every 5 years.

Training on Foreign Administrative Functions

      Often, DEA Special Agents, Intelligence Research Specialists, and
support staff stationed in foreign offices are assigned collateral duties, such
as administering an imprest fund or accounting for equipment and
maintaining inventories. In some cases, these personnel had never
previously performed these tasks. Therefore, a certain amount of training is
required for the duty to be fulfilled in accordance with policy and regulations.
Based on our fieldwork, we observed that DEA foreign personnel would
benefit from training in certain administrative functions.

Imprest Funds

      As we discussed in Chapter 5, we found several compliance issues
involving the administration and management of the DEA’s imprest funds.
As previously noted, imprest funds are administered by one or more
employees within an office who are formally designated as cashiers, and who
are ultimately accountable for these funds. Imprest funds are used to make
a variety of payments to various recipients and are typically used for
operational expenses, to make small purchases, and to pay informants.
Both DEA personnel responsible for the office imprest fund (or alternate
imprest fund) and DEA foreign office managers commented that training on
imprest fund policy and procedures was greatly needed. For the first time in
nearly 5 years, the DEA provided imprest fund training to foreign imprest
fund cashiers in February 2006. We encourage the DEA to continue
providing training to all imprest fund cashiers to ensure foreign personnel
are being instructed on sound cash management practices.

Accountable Property Management

     In addition to imprest fund training, DEA foreign managers and
operational personnel commented that training was needed on accountable
property management. In several foreign offices, DEA staff charged with
maintaining accountable property inventories stated that they had not


                                  77
                      REDACTED – PUBLIC VERSION
                      REDACTED – PUBLIC VERSION


received training in inventorying property or instruction on how to use the
DEA’s centralized accountable property database system.

       Headquarters staff informed us that the DEA used to present a course
entitled “Administrative Training” that presented policy information through
workshop instruction methods and included the participation of both foreign
administrative staff and foreign office managers. Although DEA officials
stated that they intended to provide this course every 2 years, it has not
been offered since FY 2003. We were told that this administrative training
symposium is provided only when funding is left after all necessary language
training and Foreign Orientation Program costs have been obligated.

       Although we agree that operational training is a higher priority,
administrative training is also important. The DEA’s lean administrative staff
sizes in foreign offices, compounded by the intricacies of the foreign working
environment, make training in administrative duties a necessary element in
the DEA’s management of its international operations. We encourage the
DEA to provide its Administrative Training course more regularly and ensure
that the course properly trains its staff who are given collateral
administrative duties.

Recommendation

      We recommend that the Drug Enforcement Administration:

22.   Ensure that personnel assigned collateral administrative duties receive
      training necessary to correctly perform these functions, particularly in
      the areas of imprest fund administration and accountable property
      management.




                                  78
                      REDACTED – PUBLIC VERSION
                       REDACTED – PUBLIC VERSION
                                                                  APPENDIX I
           OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

     The primary objectives of this audit of the DEA’s international
operations were to:

     •       review the DEA’s foreign office performance, including its efforts
             to track operational activity and its internal mechanisms for
             evaluating the performance of its foreign operations;
     •       examine the DEA’s involvement and management of
             international investigative activity;
     •       assess the DEA’s relationships with its law enforcement
             counterparts abroad, including its liaison associations and the
             exchange of information;
     •       analyze the DEA’s processes and controls over foreign
             administrative functions, including those related to security,
             firearms, property management, and fiscal matters; and
     •       review the training provided or coordinated by the DEA to its
             foreign counterparts and DEA personnel stationed abroad.

Scope and Methodology

      We performed our audit in accordance with the Government Auditing
Standards, and included such tests of the records and procedures that we
considered necessary to accomplish the objectives of the audit. Generally,
the scope of our review focused on the period between FY 2000 and
July 2006, although our testing and inquiry extended beyond this period in
certain instances. We performed testing of the DEA’s compliance with
certain internal controls in the accomplishment of our audit objectives and
include discussion on such in the finding and recommendation sections of
our report. The objectives of our audit did not require that we perform
testing of the DEA’s compliance with laws and regulations.

      We conducted work at DEA headquarters and other U.S. government
agency headquarters, and we judgmentally selected five countries in which
the DEA operated to perform fieldwork at its foreign offices. Our
methodology involved selecting locations that would provide a broad overall
perspective of the DEA’s international operations, including diverse
geographic location, jurisdiction, operational activity, and personnel
composition. We visited the 10 DEA foreign offices (noted with boxed text)
on the following map.


                                   79
                       REDACTED – PUBLIC VERSION
                          REDACTED – PUBLIC VERSION
                                                                             APPENDIX I
              DEA Foreign Regions and Locations of OIG Fieldwork



                                     Milan
                                   Rome



Mazatlán
                       Caribbean
Guadalajara            Region
                                                                               Far East Region
Mexico City            Cartegena
                                                        Ankara
Mexico & Central
American Region                                      Istanbul
              Bogotá                                 Middle East
                                   Europe & Africa     Region
      Andean Region                    Region                      Bangkok




                              Southern Cone
                                  Region




       To accomplish our objectives we interviewed DEA personnel at its
headquarters, foreign offices, and selected domestic field divisions. We also
interviewed other U.S. government agency officials stationed in the United
States and abroad, and met with law enforcement personnel from foreign
government agencies who work with the DEA internationally. Additionally,
we performed tests of administration of its imprest funds, management of its
Sensitive Investigative Unit (SIU) Program, and adherence to security and
firearms protocols. Our audit also involved the review of DEA documents,
policies, and procedures, as well as analyses of empirical DEA data.

Interviews

      Our review included interviews with officials from various U.S. and
foreign government agencies. These discussions and the documents
obtained during these interviews provided perspective on the DEA’s activity
abroad. In total, we conducted interviews with 417 persons during this
review.

      Domestically, we met with 106 DEA officials at its headquarters in
Arlington, Virginia; at the DEA Training Academy in Quantico, Virginia; the
Special Operations Division in Chantilly, Virginia; and the El Paso Intelligence
Center in El Paso, Texas. Our interviews included the Chief of Operations
and chiefs for other DEA headquarters components, including the Office of
International Programs, the Office of Enforcement Operations, and the Office
of Management Operations, as well as numerous other managers and staff.

                                      80
                          REDACTED – PUBLIC VERSION
                         REDACTED – PUBLIC VERSION
                                                                          APPENDIX I
We also interviewed 17 DEA personnel at the domestic field divisions in
Chicago, Illinois; El Paso, Texas; and Washington, D.C. Our audit included
interviews with 42 headquarters representatives from other U.S.
government agencies. Appendix V contains a complete listing of the
components with which we met during our review.

     During our fieldwork at the 10 DEA foreign offices, we interviewed
114 DEA personnel. We also met with 107 representatives from other U.S.
agencies stationed overseas, as well as 31 officials from foreign counterpart
agencies with which the DEA works. The table in Appendix V lists the
agencies contacted at each fieldwork location.

Data Analysis

       We obtained and analyzed available DEA data related to its foreign
operational activity. This included information from its systems that track
activity on priority targets and investigative resource utilization. The
information we obtained and reviewed covered the period of FY 2000
through July 14, 2006.74

Testing

      At the DEA foreign offices in which we conducted fieldwork, we
performed tests related to the DEA’s SIU Program, its imprest funds, its
security over space and information, and its practices for storing firearms
and recording weapons proficiency qualifications.

      SIU Program Testing – The DEA operated SIUs in three of the five
countries in which we conducted fieldwork: Mexico, Colombia, and Thailand.
In these countries, the DEA provided us with a listing of active SIU
members. We judgmentally selected a sample of 106 SIU members: 32 in
Mexico, 44 in Colombia, and 30 in Thailand. We attempted to verify dates of
vetting procedures for each of the sample SIU members, including
background checks, polygraph examinations, and urinalysis tests. As stated
in the report, records of these security screening mechanisms were
inadequate and impacted the comprehensiveness of our review.

      Imprest Fund Testing – The DEA maintained imprest funds in 8 of the
10 foreign offices that we reviewed. We did not perform testing at one of
these offices (Mazatlán, Mexico) because the imprest fund cashier was not
present during our fieldwork in this location. The seven locations in which

      74
          Because we have no recommendations related to the results of our data analysis,
we did not test the reliability of these information systems.

                                     81
                         REDACTED – PUBLIC VERSION
                         REDACTED – PUBLIC VERSION
                                                                          APPENDIX I
we did perform testing are noted in the table below. At these offices, we
observed counts of imprest funds and alternate imprest funds.

       Additionally, we selected a sample of transactions testing for
compliance with applicable DEA, Treasury, and State Department guidelines
for administering imprest funds in DEA foreign offices. We limited our
testing to transactions occurring in FYs 2005 and 2006. Our methodology
for selecting the sample for each fund tested included: (1) determining the
total transaction universe for our testing period, and (2) generally selecting
10 percent, or a maximum of 50 transactions, of the total transactions for
testing. One-half of our sample included the highest dollar transactions
during our testing period and the remaining half was judgmentally selected
from those transactions remaining. We selected additional transactions for
testing where we deemed it appropriate.

                       Testing of DEA Imprest Funds75
                                      Universe of   Sample
                     Location
                                     Transactions     Size
              Ankara, Turkey                87          11
              Bangkok, Thailand            694          50
              Bogotá, Colombia           1,051          50
              Cartagena, Colombia          939          58
              Guadalajara, Mexico          189          29
              Istanbul, Turkey              85          10
              Mexico City, Mexico          221          25
                      Total             3,266         233
             Source: OIG review and testing of imprest funds

       Operational Accounts Testing – The DEA offices in Italy (Rome and
Milan) did not maintain imprest funds. In its place, agents were authorized
to use official reimbursable accounts, or operational advances. Three agents
in Italy (one in Milan and two in Rome) had operational advances of $3,000
each. We reviewed the ledgers for these accounts and selected a sample of
transactions for testing. In Rome, the universe consisted of a total of
34 transactions for both accounts. We selected 10 transactions for our
testing, choosing the 5 highest dollar transactions, and judgmentally
selecting the other 5. The operational advance in Milan had only four
transactions and we tested all of them. We used the DEA’s Financial
Management and Policy Handbook, Chapter 8, “Operational Advances”
section for our testing criteria. Primarily, we tested transactions to verify


      75
           The total number of transactions includes FYs 2005 and 2006 primary cashier and
alternate cashier imprest fund transactions.

                                     82
                         REDACTED – PUBLIC VERSION
                     REDACTED – PUBLIC VERSION
                                                               APPENDIX I
proper use of funds, appropriate and timely authorization for expenditures,
and accurate reimbursement.

       Security Testing – In 8 of the 10 DEA foreign offices that we visited,
we conducted testing of DEA’s compliance with established protocol for
changing safe and door lock combinations. At each location, with DEA
personnel, we conducted a physical count of the number of safe and door
combination locks within DEA space. Where the availability of records
allowed, we verified the DEA and State Department inventories of DEA safe
and door combination locks that matched our physical count of such for each
office, and we reviewed the last date of combination changes indicated on
combination change forms.

     Additionally, we conducted observational security sweeps of DEA CAAs,
and noted exceptions to DEA and State Department security protocols.




                                 83
                     REDACTED – PUBLIC VERSION
                           REDACTED – PUBLIC VERSION
                                                                           APPENDIX II
        COUNTRY PROFILES OF FIELDWORK LOCATIONS
Republic of Colombia

      Colombia is the third most populous country in Central and South
America, behind Brazil and Mexico, with an estimated population of over
45 million.76 It is bordered by Panama and the Caribbean Sea to the
northeast; the North Pacific Ocean
to the west; Venezuela to the                       COLOMBIA
east; Brazil to the southeast; and
                                      Cartagena
Peru and Ecuador to the
southwest. According to the
International Monetary Fund, the             Bogotá
Colombian Gross Domestic Product
(GDP) as of FY 2005 was
$122 billion.

      The 2005 International
Narcotics Control Strategy Report
(INCSR) states that Colombian
drug syndicates cultivate over         Legend:
70 percent of the world’s coca and
refine roughly 90 percent of the
                                            DEA Country Office
                                           DEA Resident Office

cocaine on the international
market.77 The INCSR also states
that, Colombia supplies more than
90 percent of the cocaine and a significant amount of the heroin to the U.S.
market, is a leading user of precursor chemicals, and is a major money-
laundering country. The U.S. government spends more than $462 million
annually on counternarcotics efforts in Colombia.

DEA in Colombia

      The DEA currently operates two offices in Colombia, in Bogotá and
Cartagena. The U.S. government opened a counternarcotics office in
Bogotá, in 1972, which the DEA inherited upon its creation in 1973. The
DEA opened an office in Barranquilla, Colombia, in 1982. This office was
transferred to Cartagena in 2002. Presently, the DEA is authorized to have
109 personnel in its offices in Colombia, which is the DEA’s largest personnel

       76
            Projected population made by the United Nations Population Division.
       77
           The 2006 International Narcotics Control Strategy Report (INCSR) is an annual
report to Congress prepared by the State Department in accordance with the Foreign
Assistance Act.
                                       84
                           REDACTED – PUBLIC VERSION
                       REDACTED – PUBLIC VERSION
                                                               APPENDIX II
allocation to any one country. The Colombian offices account for 15 percent
of all DEA authorized personnel in foreign offices. As of May 2006, the
Colombian offices were authorized the following personnel:

                    Total DEA Personnel in Colombia
                            Fiscal Year 2006
                 Location         Authorized Personnel
                 Bogotá                       66
                 Cartagena                    43
                      TOTAL                  109
                 Source: Drug Enforcement Administration



       The DEA office in Bogotá, Colombia, is the regional hub for the DEA’s
Andean Region. The Regional Director stationed in this office has
responsibility for the DEA offices located mainly along the Andean Mountain
range in South America, including both offices in Colombia, and the DEA
offices in Caracas, Venezuela; Guayaquil and Quito, Ecuador; and Lima,
Peru.

      The Colombia offices oversee the DEA’s largest and oldest Sensitive
Investigative Unit (SIU) Program. Colombia was one of the four original SIU
Program countries in 1997. As of July 2006, the DEA reported that there
were 203 Colombian law enforcement officers operating in its SIUs. These
personnel were from the Policía Nacional de Colombia, Direccion de Policía
Judicial Investigacion, and the Cuerpo Técnico de Investigacion.




                                   85
                       REDACTED – PUBLIC VERSION
                       REDACTED – PUBLIC VERSION
                                                                                 APPENDIX II

Italian Republic

      As of 2005, Italy had an estimated population of 58 million. The
country is a peninsula between the Mediterranean and Adriatic Seas, and
shares borders with France to the northwest; Switzerland and Austria to the
north; and Slovenia to the northeast. According to the International
Monetary Fund, the Italian GDP as of 2005 was nearly $1.8 trillion.
                                                                         ITALY
       The 2006 INCSR states that
Italy is a major transit point for                        Milan

heroin coming from Southwest Asia
through the Balkans en route to
                                                                             Legend:

                                                                                 DEA Country Office

Western and Central Europe.                                       Rome           DEA Resident Office


Almost all cocaine trafficked in and
through Italy comes from Colombia
and other South American criminal
organizations. Additionally, the
INCSR states that Italy fights
methylenedioxymethamphetamine
(MDMA) (commonly referred to as
Ecstasy) from the Netherlands and
hashish from Morocco. According to
the INCSR the Italian authorities
from January to October 2005 had
arrested more than 18,000 suspects
on narcotics-related offenses and
seized approximately
27,000 kilograms of various narcotics.

DEA in Italy

       The U.S. government opened a drug trafficking office in Rome in 1951,
which was the first U.S. office opened abroad historically to concentrate on
counternarcotics. When it was established in 1973, the DEA inherited this
office. The Italian offices account for 2 percent of the DEA’s foreign
authorized workforce. As of FY 2006, the DEA offices in Italy had the
following personnel positions:

                       Total DEA Personnel in Italy
                             Fiscal Year 2006
                Location            Authorized Personnel
                Milan                           4
                Rome                            9
                      TOTAL                    13
                Source: Drug Enforcement Administration
                                   86
                       REDACTED – PUBLIC VERSION
                      REDACTED – PUBLIC VERSION
                                                                APPENDIX II
      The DEA office in Rome is the regional leadership for the DEA’s
European Region, overseeing the activities of its office in Milan, as well as
Vienna, Austria; Brussels, Belgium; Copenhagen, Denmark; London,
England; Paris, France; Frankfurt, Germany; The Hague, Netherlands;
Lagos, Nigeria; Warsaw, Poland; Pretoria, South Africa; Madrid, Spain; and
Bern, Switzerland.




                                  87
                      REDACTED – PUBLIC VERSION
                         REDACTED – PUBLIC VERSION
                                                                         APPENDIX II

United Mexican States

      Mexico had an estimated population of over 106 million people, as of
2005. It is located between the Pacific Ocean and the Gulf of Mexico, and
bordered to the southeast by Guatemala and Belize, and to the north by the
United States, with which it                              MEXICO
shares a nearly 2,000-mile       Tijuana

border. The International        Nogales          Ciudad Juárez

Monetary Fund stated that                Hermosillo

Mexico’s GDP in 2005 was                                      Nuevo Laredo

over $768 billion.                             Monterrey
                                                                  Metamoros


      According to the                                     Mazatlán
                                                                                  Mérida
2006 INCSR, Mexican law                                        Guadalajara
                                                                      Mexico City
enforcement seized
30 metric tons of cocaine,
1,760 metric tons of
marijuana, 330 kilograms of
heroin, 280 kilograms of         Legend:
                                    DEA Country Office
opium gum, and                      DEA Resident Office
887 kilograms of                    DEA New Resident Office*
                                    *Pending approval from
methamphetamine in 2005.             the government of Mexico

Mexican authorities have
also seized 1,643 vehicles,
six maritime vessels, eight aircraft, and recovered over $18 million of illicit
proceeds associated with drug trafficking, and have arrested over
50,000 drug traffickers in the past 5 years.

DEA in Mexico

       The U.S. government opened an office in Mexico City in 1963 to help
coordinate efforts against drug trafficking. At its inception in 1973, the DEA
inherited this office which makes it one of the oldest of the DEA foreign
offices. As of June 2006, the DEA had eight offices in Mexico, and it was
awaiting approval from the government of Mexico to open three additional,
congressionally approved offices on the Mexican side of the U.S.-Mexican
border.

       The DEA Mexico City office is also the location of the regional
leadership for the DEA’s Mexico/Central America Region. The Regional
Director has responsibility over the activities of the offices in Mexico, as well
as the DEA offices in Central America, which are located in the following
locations: Belize City, Belize; Guatemala City, Guatemala; Managua,

                                     88
                         REDACTED – PUBLIC VERSION
                         REDACTED – PUBLIC VERSION
                                                                        APPENDIX II
Nicaragua; Panama City, Panama; San José, Costa Rica; Tegucigalpa,
Honduras; and San Salvador, El Salvador. This region also includes the DEA
offices in Ottawa and Vancouver, Canada.

       The eight open offices in Mexico constitute the most DEA foreign
offices in a country. [SENSITIVE INFORMATION REDACTED]




                    [SENSITIVE INFORMATION REDACTED]78




      The DEA Mexico office, like Colombia, has been part of the SIU
Program since its inception in 1997. All SIU members in Mexico are from
the Agencia Federal de Investigación (AFI) headquartered in Mexico City.
According to the DEA, AFI headquarters centrally manages the SIU teams
operating in Mexico as of June 2006.

       An estimated 70 to 90 percent of all cocaine originating from South
America destined for the U.S. transits through Mexico. Additionally, Mexico
is the number one foreign supplier of marijuana to the U.S. and a major
supplier of heroin.79 Mexico is a major source for methamphetamine that is
imported into the United States. Drug cartels inside Mexico continue to be
the major suppliers of methamphetamine to the United States, and seizures

      78
           [SENSITIVE INFORMATION REDACTED]
      79
         Department of State. 2006 International Narcotics Control Strategy Report,
March 2006.
                                     89
                         REDACTED – PUBLIC VERSION
                     REDACTED – PUBLIC VERSION
                                                               APPENDIX II
of methamphetamine at the U.S. border have increased every year since
2001. Mexican drug traffickers have built several clandestine
methamphetamine production labs along the U.S. southern border.

      Additionally, Mexico is a source country for pharmaceutical drugs like
Ketamine, OxyContin®, Rohypnol®, and anabolic steroids destined for the
United States.




                                 90
                     REDACTED – PUBLIC VERSION
                        REDACTED – PUBLIC VERSION
                                                                     APPENDIX II

Kingdom of Thailand

      Thailand had an estimated population of 65 million people in 2005, and
is bordered by Burma and the Andaman Sea to the west, Laos to the
northeast, Cambodia to the
southeast, and Malaysia and the                     THAILAND
Gulf of Thailand to the south.        Chiang Mai

According to the International
Monetary Fund, Thailand’s                  Udorn

2005 GDP was approximately
$169 billion.
                                            Bangkok




      Thailand is a major transit
route for heroin, opium, and
                                                           Legend:

                                                              DEA Country Office
methamphetamine, according to                                 DEA Resident Office


the 2006 INCSR. Thailand is
also permeated by
methamphetamine, commonly
know as “Ya Ba”, or crazy drug.
In addition, millions of tablets of
prescription drugs and steroids
are sold over the Internet by
Thai criminal organizations.
In 2005, Thai authorities seized
889 kilograms of heroin, 13.4 million tablets of methamphetamine,
32,438 Ecstasy tablets, 5,737 kilograms of opium, 9,997 kilograms of
marijuana, 44 kilograms of Ketamine, 2.6 kilograms of cocaine, and
669 kilograms of codeine.

DEA in Thailand

      The U.S. government opened an anti-drug office in Bangkok in 1963.
The DEA inherited this office upon its creation in 1973 and currently
maintains this office as well as offices in Chiang Mai and Udorn. The DEA
recently closed an office in the southern Thai city of Songkhla. The three
DEA offices in Thailand comprise 6 percent of the DEA’s foreign workforce,
making it the DEA’s fourth largest country presence in terms of allocated
personnel. As of FY 2006, DEA Thailand offices were authorized a total of
47 personnel.




                                    91
                        REDACTED – PUBLIC VERSION
                     REDACTED – PUBLIC VERSION
                                                            APPENDIX II
                   Total DEA Personnel in Thailand
                           Fiscal Year 2006
               Location           Authorized Personnel
               Bangkok                        35
               Chiang Mai                      9
               Udorn                           3
                    TOTAL                    47
               Source: Drug Enforcement Administration


      The DEA office in Bangkok hosts the Regional Director for the DEA’s
Far East Region. Besides the offices in Thailand, the DEA offices in this
region are: Beijing, China; Canberra, Australia; Hanoi, Vietnam; Hong
Kong, China; Kuala Lumpur, Malaysia; Manila, Philippines; Rangoon, Burma;
Seoul, South Korea; Singapore, Singapore; Tokyo, Japan; and Vientiane,
Laos.

      The DEA extended the SIU Program in 1998 to its operations in
Thailand. SIUs in Thailand are predominantly comprised of vetted members
from the Royal Thai Police with some members from Thailand’s Office of the
Narcotics Control Board.




                                 92
                     REDACTED – PUBLIC VERSION
                     REDACTED – PUBLIC VERSION
                                                               APPENDIX II

Republic of Turkey

      In 2005 Turkey had an estimated population of 70 million. According
to the International Monetary Fund, in April 2006, the Turkish GDP was
$362 billion. Turkey is bordered by Greece and Bulgaria to the northwest;
the Black Sea to the north; Georgia, Armenia, Azerbaijan, and Iran to the
west; Syria, Iraq, and the Mediterranean Sea to the south; and the Aegean
Sea to the west.

       Turkey is split between the Middle East and Europe, making it a
strategic location for trafficking drugs into Western Europe. According to the
2006 INCSR, Turkey is a major transshipment and production area for illicit
drugs, and it is also a base of operations for international narcotics
traffickers and associates trafficking opium, morphine base, precursor
chemicals, and other drugs.
The majority of the opiates                               TURKEY
that originate in Afghanistan                   Istanbul


are ultimately trafficked to                               Ankara
Western Europe through
Turkey. A smaller but
significant amount of heroin
is trafficked to the United
States via Turkey. The
INCSR states that Turkish
authorities seized
7,760 kilograms of heroin,
409 kilograms of morphine,
7.6 million dosages of
                                   Legend:
synthetic drugs,
10,671 kilograms of
                                      DEA Country Office
                                      DEA Resident Office
hashish, and 25 kilograms
of cocaine in 2005.

DEA in Turkey

       The third U.S. government drug-trafficking office was opened in
Istanbul in 1961, and another office was opened in Ankara in 1971. When it
was created in 1973, the DEA inherited these two offices. These Turkish
offices account for three percent of the DEA’s authorized foreign workforce.
As of June 2006, Turkish DEA offices were authorized the following
personnel:



                                 93
                     REDACTED – PUBLIC VERSION
                     REDACTED – PUBLIC VERSION
                                                               APPENDIX II
                     Total DEA Personnel in Turkey
                            Fiscal Year 2006
                Location          Authorized Personnel
                Ankara                     12
                Istanbul                    8
                      TOTAL                20
                Source: Drug Enforcement Administration


       The Regional Director for the DEA’s Middle East Region is located at
the DEA office in Ankara. Besides overseeing the other Turkish office in
Istanbul, the Regional Director is also responsible for the DEA offices in
Athens, Greece; Cairo, Egypt; Islamabad and Peshawar, Pakistan; Kabul,
Afghanistan; Moscow, Russia; New Delhi, India; Nicosia, Cyprus; and
Tashkent, Uzbekistan. The DEA is in the process of adding three offices to
this region in Bishkek, Kyrgyzstan; Dubai, United Arab Emirates; and
Dushanbe, Tajikistan.




                                 94
                     REDACTED – PUBLIC VERSION
                                      REDACTED – PUBLIC VERSION
                                                                                       APPENDIX III
                              DEA PERSONNEL IN FOREIGN OFFICES


      The following five exhibits provide graphical representation of total and
specific types of authorized and on-board DEA personnel in foreign offices for
FYs 2000 through 2006.80 They are provided in the following order:

                      •     Total Personnel (All Types)
                      •     Special Agents
                      •     Intelligence Research Specialists
                      •     Diversion Investigators
                      •     Professional, Administrative, Technical, and Clerical Personnel


                                        Total Authorized and On-board
                                   DEA Personnel Positions in Foreign Offices
                                           Fiscal Years 2000 – 2006

                    800
                                                      Authorized          On-Board
                    750

                    700
  Total Personnel




                    650

                    600

                    550

                    500

                    450

                    400

                    350
                           2000     2001       2002          2003            2004    2005   2006
                                                            Fiscal Year

 Source: Drug Enforcement Administration




                      80
           The FY 2006 figures represent the authorized and on-board staffing of DEA
foreign offices as of May 27, 2006.

                                                  95
                                      REDACTED – PUBLIC VERSION
                                                                          REDACTED – PUBLIC VERSION
                                                                                                                            APPENDIX III



                                                                             DEA Authorized and On-board
                                                                       Special Agent Personnel in Foreign Offices
                                                                                Fiscal Years 2000 – 2006
                                                        550
                                                                                     Authorized            On-Board
                                                        500
Special Agent Personnel




                                                        450

                                                        400

                                                        350

                                                        300

                                                        250
                                                              2000      2001       2002            2003            2004   2005   2006
                                                                                              Fiscal Year

Source: Drug Enforcement Administration




                                                                             DEA Authorized and On-board
                                                              Intelligence Research Specialist Personnel in Foreign Offices
                                                                               Fiscal Years 2000 – 2006
                                                        100
           Intelligence Research Specialist Personnel




                                                                                     Authorized         On-Board
                                                         90

                                                         80

                                                         70

                                                         60

                                                         50

                                                         40

                                                         30

                                                         20
                                                              2000       2001      2002             2003           2004   2005    2006
                                                                                                  Fiscal Year



Source: Drug Enforcement Administration




                                                                                      96
                                                                          REDACTED – PUBLIC VERSION
                                                                 REDACTED – PUBLIC VERSION
                                                                                                                  APPENDIX III



                                                                     DEA Authorized and On-board
                                                          Diversion Investigator Personnel in Foreign Offices
                                                                       Fiscal Years 2000 – 2006

                                   20
                                                                            Authorized        On-Board
Diversion Investigator Personnel




                                   15



                                   10



                                    5



                                    0
                                                   2000        2001      2002         2003             2004     2005   2006
                                                                                    Fiscal Year

Source: Drug Enforcement Administration




                         DEA Authorized and On-board
Professional, Administrative, Technical, and Clerical Personnel in Foreign Offices
                            Fiscal Years 2000 – 2006

                                             170
                                                                            Authorized            On-Board
                                             160
          Technical and Clerical Personnel
            Professional, Administrative,




                                             150
                                             140
                                             130
                                             120
                                             110
                                             100
                                              90
                                              80
                                                      2000       2001      2002          2003            2004   2005   2006
                                                                                      Fiscal Year

Source: Drug Enforcement Administration




                                                                             97
                                                                 REDACTED – PUBLIC VERSION
                    REDACTED – PUBLIC VERSION
                                                        APPENDIX IV


    TIMELINE OF DEA FOREIGN OFFICE ESTABLISHMENT

             U.S. Government Foreign Anti-Drug Offices
            Inherited by the DEA at its Inception in 1973

   Foreign Office Openings                 Foreign Office Closures

    City           Country      Year        City             Country
   Rome              Italy      1951
   Beirut          Lebanon      1954
                                1958       Beirut            Lebanon
     Paris          France      1959
     Beirut        Lebanon
  Marseilles        France      1961
   Istanbul         Turkey
 Hong Kong          China       1963
 Mexico City        Mexico
  Monterrey         Mexico
  Singapore       Singapore
   Bangkok         Thailand
     Lima            Peru       1966
     Seoul       South Korea
   Montreal        Canada       1969
 Guadalajara        Mexico
    Saigon         Vietnam
Buenos Aires      Argentina     1970
  Santiago           Chile
    London         England
  Frankfurt     West Germany
     Tokyo          Japan
Kuala Lumpur       Malaysia
    Madrid           Spain
                                          Singapore          Singapore
                                            Seoul           South Korea




                                98
                    REDACTED – PUBLIC VERSION
                      REDACTED – PUBLIC VERSION
                                                         APPENDIX IV

    Foreign Office Openings                 Foreign Office Closures

     City            Country      Year       City           Country

     Kabul         Afghanistan   1971
    Brasília           Brazil
      Milan            Italy
  Hermosillo          Mexico
 Panama City         Panama
   Asunción         Paraguay
     Manila        Philippines
   Singapore        Singapore
   Barcelona           Spain
  Chiang Mai         Thailand
    Ankara            Turkey
      Izmir           Turkey
    Caracas         Venezuela
    Munich        West Germany
    Brussels         Belgium     1972
     La Paz           Bolivia
  Vancouver          Canada
    Bogotá          Colombia
     Quito           Ecuador
      Bonn        West Germany
   New Delhi           India
    Tehran              Iran
Okinawa (Naha)        Japan
     Rabat           Morocco
  Islamabad          Pakistan
   Peshawar          Pakistan


            DEA Foreign Offices Opened and Closed Since 1973

    Foreign Office Openings                 Foreign Office Closures

     City            Country      Year       City           Country
                                 1973       Rabat       Morocco
   Ottawa            Canada
  Mazatlán            Mexico
    Seoul          South Korea
 Montevideo          Uruguay
  Hamburg         West Germany



                                  99
                      REDACTED – PUBLIC VERSION
                     REDACTED – PUBLIC VERSION
                                                        APPENDIX IV


    Foreign Office Openings                Foreign Office Closures

     City           Country     Year        City           Country
    Vienna           Austria    1974
    Toronto         Canada
   San José        Costa Rica
  Guayaquil         Ecuador
     Genoa            Italy
   Kingston         Jamaica
  The Hague       Netherlands
    Karachi         Pakistan
   Songkhla         Thailand
                                1975       Saigon          Vietnam
Rio de Janeiro       Brazil
  Sáo Paulo          Brazil
 Copenhagen        Denmark
     Nice           France
Guatemala City    Guatemala
   Jakarta        Indonesia
    Rabat          Morocco
    Taipei          Taiwan
                                1976   Okinawa (Naha)       Japan
                                           Beirut          Lebanon
   Mérida           Mexico
                                1977   Rio de Janeiro       Brazil
                                           Genoa            Italy
                                         Barcelona          Spain
    Cairo           Egypt
   Lahore          Pakistan
                                1978      Brasília          Brazil
                                         Vancouver         Canada
                                            Nice           France
                                           Taipei          Taiwan
                                           Izmir           Turkey
                                1979       Kabul         Afghanistan
                                          Toronto          Canada
                                          Tehran             Iran
   Nassau          Bahamas




                                100
                     REDACTED – PUBLIC VERSION
                      REDACTED – PUBLIC VERSION
                                                         APPENDIX IV


    Foreign Office Openings                Foreign Office Closures

     City            Country      Year      City            Country
                                  1980   Sáo Paulo            Brazil
   Brasília           Brazil
                                  1981    Asunción          Paraguay
                                           Ankara            Turkey
    Cali            Colombia
   Medellin         Colombia
   Athens            Greece
 Tegucigalpa        Honduras
                                  1982    Hamburg        West Germany
                                           Munich        West Germany
 Barranquilla       Colombia
   Nicosia            Cyprus
    Santo           Dominican
  Domingo            Republic
                   Netherlands
   Curaçao
                     Antilles
                                  1983   Tegucigalpa        Honduras
                                  1984      Cali            Colombia
                                           Medellin         Colombia
 Santa Cruz         Bolivia
    Bern          Switzerland
      No offices opened           1985         No offices closed
                                  1986     Jakarta          Indonesia
 Cochabamba            Bolivia
   Bombay               India
  Canberra            Australia   1987
Port-au-Prince          Haiti
    Lagos              Nigeria
   Asunción          Paraguay
    Ankara             Turkey
 Tegucigalpa         Honduras     1988
        No offices opened         1989         No offices closed
   Freeport          Bahamas      1990
   Rangoon             Burma
    Udorn             Thailand
        No offices opened         1991         No offices closed
  Belize City          Belize     1992
San Salvador        El Salvador
  Maracaibo          Venezuela

                                 101
                      REDACTED – PUBLIC VERSION
                     REDACTED – PUBLIC VERSION
                                                        APPENDIX IV

   Foreign Office Openings                 Foreign Office Closures

    City           Country      Year        City           Country
                                1993     Marseilles          France
                                        Maracaibo          Venezuela
      No offices opened         1994          No offices closed
                                1995     Montreal           Canada
                                          Rabat             Morocco
                                        Montevideo          Uruguay
                                1996     Bombay               India
 Sáo Paulo          Brazil      1997
 Vientiane           Laos
 Managua          Nicaragua
  Moscow            Russia
  Pretoria       South Africa
                                1998       Bonn            Germany
 Bridgetown       Barbados
   Trinidad        Bolivia
    Beijing        China
    Berlin        Germany
Ciudad Juárez      Mexico
   Tijuana         Mexico
Port-of-Spain     Trinidad
                                1999      Karachi          Pakistan
                                          Lahore           Pakistan
   Hanoi           Vietnam      2000
  Tashkent        Uzbekistan    2001
                                2002    Barranquilla      Colombia
   Kabul          Afghanistan
 Cartagena         Colombia
 Vancouver          Canada      2003
      No offices opened         2004          No offices closed
                                2005     Songkhla           Thailand
                                2006      Berlin            Germany
  Warsaw           Poland
 Paramaribo       Suriname
                 United Arab
   Dubai                        2007   Opening Soon
                  Emirates
 Dushanbe         Tajikistan           Opening Soon
 Matamoros         Mexico               Pending Approval from Mexico
  Nogales          Mexico               Pending Approval from Mexico
Nuevo Laredo       Mexico               Pending Approval from Mexico
  Bishkek         Kyrgystan     Opening date to be determined
                                102
                     REDACTED – PUBLIC VERSION
                      REDACTED – PUBLIC VERSION
                                                         APPENDIX V
               RECORD OF INTERVIEWS CONDUCTED

              Interviews with DEA Headquarters Personnel
                                                            Number of
Component                                                   Personnel
                                                           Interviewed
Chief Financial Officer                                                1
Financial Management Division                                         12
Human Resources Division
   Headquarters Personnel                                              6
   Office of Training                                                  6
Inspections Division                                                  13
Intelligence Division
   Chief                                                               1
   Headquarters Personnel                                              3
   El Paso Intelligence Center                                         4
Office of General Counsel                                              1
Operations Division
   Chief                                                             1
   Office of Diversion Control                                       1
   Office of Enforcement Operations                                 12
   Office of Financial Operations                                    6
   Office of International Programs                                 14
   Office of Operations Management                                   7
Operations Support Division                                          4
Special Operations Division                                         14
                                                   Total           106




                  Interviews with DEA Domestic Offices
                                                            Number of
Office                                                      Personnel
                                                           Interviewed
Chicago Division                                                       4
El Paso Division                                                       5
Washington Division                                                    8
                                                   Total              17




                                 103
                      REDACTED – PUBLIC VERSION
                       REDACTED – PUBLIC VERSION
                                                                APPENDIX V


    Interviews with Other U.S. Agency Headquarters Personnel
                                                      Number of
Department                                            Personnel
                                                     Interviewed
Department of Defense                                                         6
   Office of the Assistant Secretary of Defense for
   Special Operations and Low Intensity Conflict, Counternarcotics
Department of Homeland Security                                               7
   Bureau of Immigration and Customs Enforcement
Department of Justice                                                        16
  Federal Bureau of Investigation
   Narcotics and Dangerous Drugs Section
  Justice Management Division
  Office of International Affairs
  Organized Crime and Drug Enforcement Task Force
Department of State                                                          11
   Bureau for International Narcotics and Law Enforcement Affairs
   Inter-agency Consolidated Administrative Support Services
  Office of the Inspector General
  Office of Rightsizing
Executive Office of the President of the United States                        2
   Office of National Drug Control Policy
                                                             Total           42




                                  104
                       REDACTED – PUBLIC VERSION
                      REDACTED – PUBLIC VERSION
                                                             APPENDIX V
        Interviews During Fieldwork in Bogotá, Colombia
                                                      Number of
Department                                            Personnel
                                                     Interviewed
U.S. AGENCIES
Drug Enforcement Administration                                           28
Department of Defense                                                      3
Department of Homeland Security                                            2
   Bureau of Immigration and Customs Enforcement
Department of Justice (excluding DEA)                                      5
   Bureau of Alcohol, Tobacco, Firearms and Explosives
   Federal Bureau of Investigation
   Judicial Attaché
Department of State                                                       10
   Ambassador
   Deputy Chief of Mission
   Engineering Security Office
   Financial Management Office
   General Service Office
   Narcotics Affairs Section
   Regional Security Office
COLOMBIAN AGENCIES                                                         5
   Cuerpo Técnico de Investigaciones
   Departamento Administrativo de Seguridad
   Policía Nacional de Colombia
                                                          Total           53




       Interviews During Fieldwork in Cartagena, Colombia
                                                      Number of
Department                                            Personnel
                                                     Interviewed
U.S. AGENCIES
Drug Enforcement Administration                                            7
Department of State                                                        1
    General Service Office
Department of Defense                                                      1
COLOMBIAN AGENCIES                                                         6
Armada Nacional
Departmento Administrativo de Seguridad
Policía Nacional de Colombia
                                                         TOTAL            15




                                 105
                      REDACTED – PUBLIC VERSION
                    REDACTED – PUBLIC VERSION
                                                       APPENDIX V


             Interviews During Fieldwork in Rome, Italy
                                                            Number of
Department                                                  Personnel
                                                           Interviewed
U.S. AGENCIES
Drug Enforcement Administration                                      7
Department of Homeland Security                                      2
   Bureau of Immigration and Customs Enforcement
   Secret Service
Department of Justice (excluding DEA)                                2
   Federal Bureau of Investigation
   Judicial Attaché
Department of State                                                  8
   Deputy Chief of Mission
   Financial Management Office
   General Service Office
   Political Office
   Regional Security Office
ITALIAN AGENCIES                                                     1
Direzione Centrale Servizi Anti-Droga
                                                   Total            20




             Interviews During Fieldwork in Milan, Italy
                                                            Number of
Department                                                  Personnel
                                                           Interviewed
U.S. AGENCIES
Drug Enforcement Administration                                      5
Department of Homeland Security                                      1
   U.S. Secret Service
Department of Justice (excluding DEA)                                1
   Federal Bureau of Investigation
Department of State                                                  3
   Consul General
   General Service Office
   Regional Security Office
ITALIAN AGENCIES                                                     2
   Guardia di Finanza
   Polizia di Stato
                                                   Total            12




                               106
                    REDACTED – PUBLIC VERSION
                      REDACTED – PUBLIC VERSION
                                                                 APPENDIX V


       Interviews During Fieldwork in Mexico City, Mexico
                                                      Number of
Department                                            Personnel
                                                     Interviewed
U.S. AGENCIES
Drug Enforcement Administration                                               17
Department of Defense                                                          1
Department of Homeland Security                                                3
   Bureau of Customs and Border Patrol
   Bureau of Immigration and Customs Enforcement
Department of Justice (excluding DEA)                                         5
   Bureau of Alcohol, Tobacco, Firearms and Explosives
   Federal Bureau of Investigation
   Judicial Attaché
   U.S. Marshals Service
Department of State                                                           11
   Deputy Chief of Mission
   Financial Management Office
   General Service Office
   Narcotics Affairs Section
   Regional Security Office
MEXICAN AGENCIES                                                              2
Agencia Federal de Investigación
                                                           Total          39



       Interviews During Fieldwork in Guadalajara, Mexico
                                                     Number of
 Department                                          Personnel
                                                    Interviewed
 U.S. AGENCIES
 Drug Enforcement Administration                                          8
 Department of Homeland Security                                          2
    Bureau of Immigration and Customs Enforcement
 Department of Justice (excluding DEA)                                    1
    Federal Bureau of Investigation
 Department of State                                                      3
    Consul General
    General Service Office
    Regional Security Office
 MEXICAN AGENCIES                                                         5
 Agencia Federal de Investigación
 Secretaría de Seguridad Pública
 Seguridad Pública de Guadalajara
                                                         Total           19

                                 107
                      REDACTED – PUBLIC VERSION
                     REDACTED – PUBLIC VERSION
                                                     APPENDIX V


       Interviews During Fieldwork in Mazatlán, Mexico
                                                   Number of
Department                                         Personnel
                                                  Interviewed
U.S. AGENCIES
Drug Enforcement Administration                               5
Department of State                                           1
   Consular Representative
MEXICAN AGENCIES                                              2
Agencia Federal de Investigación
Instituto National de Migración
                                             Total            8




       Interviews During Fieldwork in Bangkok, Thailand
                                                   Number of
Department                                          Personnel
                                                  Interviewed
U.S. AGENCIES
Drug Enforcement Administration                               18
Department of Defense                                          5
Department of Homeland Security                                3
    Immigration and Customs Enforcement
    Secret Service
    Transportation Security Administration
Department of Justice                                             4
    Federal Bureau of Investigation
    Judicial Attaché
Department of State                                           13
    Deputy Chief of Mission
    Financial Management Center
    General Service Office
    Narcotics Affairs Section
    Regional Security Office
    U.S. Disbursing Office
THAI AGENCIES                                                     3
Royal Thai Police
Office of the Narcotics Control Board
                                             Total            46




                                108
                     REDACTED – PUBLIC VERSION
                   REDACTED – PUBLIC VERSION
                                                   APPENDIX V


        Interviews During Fieldwork in Ankara, Turkey
                                                   Number of
Department                                         Personnel
                                                  Interviewed
U.S. AGENCIES
Drug Enforcement Administration                             10
Department of Justice                                        1
   Federal Bureau of Investigation
Department of State
   Acting Deputy Chief of Mission                            9
   Economics Affairs
   Financial Management Office
   General Service Office
   Regional Security Office
TURKISH AGENCIES                                            3
Turkish Customs
Turkish National Police
                                           Total           23




       Interviews During Fieldwork in Istanbul, Turkey
                                                   Number of
Department                                         Personnel
                                                  Interviewed
U.S. AGENCIES
Drug Enforcement Administration                             9
Department of Justice                                       1
   Federal Bureau of Investigation
Department of State                                         5
   Consul General
   General Service Office
   Regional Security Office
TURKISH AGENCIES                                            2
Turkish Gendarmerie
Turkish National Police
                                           Total           17




                              109
                   REDACTED – PUBLIC VERSION
                          REDACTED – PUBLIC VERSION
                                                                             APPENDIX VI


      DRUG ENFORCEMENT ADMINISTRATION RESPONSE




          Executive Policy and Strategic Planning Staff
          Office of the Deputy Administrator
SUBJECT: DEA’s Response to the OIG’s Draft Report: Audit of the Drug Enforcement
         Administration’s International Operations

    The Drug Enforcement Administration (DEA) appreciates the time and investment of the Office
of the Inspector General (OIG) in the one-year audit of DEA’s International Operations. Inspector
General Glenn A. Fine’s memorandum dated September 19, 2005, included the audit objective to
assess “the outcomes and accomplishments of foreign operations.” Additionally, the first objective
of the Working Draft Report was to “review the performance and strategic success of the DEA’s
foreign activities and offices…” Furthermore, the first objective of the Draft Audit Report was to
“review the DEA’s foreign office performance.” However, DEA has reviewed the Draft Audit
Report, and notes that it focuses primarily on administrative as opposed to operational issues.

   Unfortunately, with its limited focus on foreign office enforcement accomplishments, the OIG
did not provide an accurate assessment of DEA’s international operations and instead conducted an
audit of administrative performance.

Report’s Focus and Primary Objective

        The DEA expressed concern at the exit conference on September 27, 2006, that the OIG
Working Draft Report lacked an adequate review of DEA’s international operations. Consequently,
the OIG requested a comprehensive analysis of DEA’s international activities (Attachment #1), but
issued the Draft Audit Report prior to receiving DEA’s analysis.

   The attached comprehensive analysis reflects DEA’s foreign office performance accomplishments
and operational activities. It includes examples of Consolidated Priority Target (CPOT)
investigations; the disruption and dismantlement of Priority Target Organizations (PTOs); the impact

                                     110
                          REDACTED – PUBLIC VERSION
                           REDACTED – PUBLIC VERSION
                                                                              APPENDIX VI
of foreign operations; institution building in Afghanistan, Mexico, and Colombia; counterterrorism
efforts; financial investigations; precursor chemical initiatives; on-line pharmacy investigations;
intelligence collection and sharing; multi-lateral collaboration; and extradition successes. Each of
these accomplishments is directly linked to the goals and objectives in DEA’s Strategic Plan, DOJ’s
Strategic Objective to “Reduce the Threat, Trafficking, Use and Related Violence of Illegal Drugs”
and supports the President’s National Drug Control Strategy, which seeks to reduce illegal drug use
by implementing Priority III, “Disrupt the Market.” Highlights include the following:

   •   Increased by 22 percent PTO investigations linked to terrorist organizations from 82 active
       investigations in FY 2005 to 100 active investigations in FY 2006.

   •   Denied total revenue of $1.6 billion from drug trafficking and money laundering
       organizations through asset and drug seizures in FY 2006.

   •   Sustained DEA’s focus on DOJ’s CPOT List.

   •   Successfully contributed to the reduction in drug use.

   •   Sustained focus on DEA’s successful programs in Afghanistan and took additional measures
       to focus attention on the counternarcotics threat in that country.

   •   Continued to lead and expand enforcement efforts involving Operation Containment, a DEA-
       led multi-national law enforcement initiative designed to reduce the flow of Afghanistan
       heroin into world markets, prevent the country from becoming a major heroin supplier to the
       United States, and disrupt drug-related terrorist activities that could hamper the long-term
       stabilization of the Afghanistan Government.

   •   In October 2005, in part due to DEA’s negotiations with the Afghan Minister of Interior, the
       Government of Afghanistan extradited CPOT Haji Baz MOHAMMED to the United States,
       which marked the first extradition in history between the two countries. MOHAMMED and
       his associates were responsible for manufacturing and transporting hundreds of kilograms of
       Southwest Asian heroin from Afghanistan and Pakistan into the United States.

   •   Collected and shared intelligence with U.S. military and coalition partners in Afghanistan,
       which directly averted hostile acts against U.S. personnel and interests inside of
       Afghanistan.

   •   Developed and implemented the successful multi-agency International Drug Flow Prevention
       Strategy known as Operation All Inclusive. This multi-lateral strategy is designed to cause
       major disruption to the flow of drugs, money, and chemicals between source zones and the
       United States through the execution of joint enforcement operations that attack the
       chokeholds in the main transportation zone arteries and support infrastructure nodes of the
       drug trade.

   •   Developed a joint strategy with Mexico to target those who traffic in and produce
       methamphetamine and the chemicals utilized for its manufacture.

                                      111
                           REDACTED – PUBLIC VERSION
                           REDACTED – PUBLIC VERSION
                                                                               APPENDIX VI

   •   Expanded DEA’s intelligence program and assumed new intelligence responsibilities and
       functions in 2006 to support the global war on terror.

   •   In 2006, DEA achieved the appointment of a DEA representative to the National Security
       Council Office of Combating Terrorism, which is part of the IC. As a result, DEA is now
       better positioned to advance the counter-drug agenda and to support national security and
       homeland defense.

   •   Conducted Operation Cyber Chase, which concluded with the April 2006 conviction of
       Akhil BANSAL, and the dismantlement of his international pharmaceutical controlled
       substance trafficking organization. Operation Cyber Chase resulted in 25 arrests in 4
       countries and the seizure of 10 million dosage units of pharmaceutical controlled substances,
       231 pounds of Ketamine, and $8.5 million in assets. This organization was responsible for
       the illegal distribution of 2.5 million dosage units of controlled substances per month to more
       than 100,000 customers without a medical evaluation.

   •   Coordinated significant investigations, arrests, indictments, extraditions and convictions
       which resulted in the disruption and dismantlement of the most significant drug trafficking
       organizations around the world.

   •   Coordinated the OCDETF investigation that led to CPOTs Miguel and Gilberto
       RODRIGUEZ-OREJUELAs’ guilty plea and agreement to forfeit $2.1 billion on September
       26, 2006. The RODRIGUEZ-OREJUELA brothers ran the Cali Cartel in Colombia that was
       responsible for importing more than 200 tons of cocaine into the United States over the last
       two decades.

   •   Facilitated the arrest of CPOT Francisco Javier ARELLANO Felix on August 14, 2006, by
       United States Coast Guard authorities. The Tijuana, Mexico-based organization, run by
       ARELLANO Felix, was one of the most powerful and violent trafficking groups in Mexico,
       responsible for the importation of tons of cocaine, heroin, methamphetamine, and marijuana
       into the United States and more than 100 drug-related murders in the United States and
       Mexico.

   •   Participated in an unprecedented OCDETF Strike Force investigation that culminated in the
       indictment of 50 leaders of the FARC narco-terrorist organization in Colombia, which was
       responsible for supplying more than half of the world’s cocaine.

Annual Performance Plans

        On page viii in the Executive Summary of the Draft Audit Report, the OIG stated that DEA
did not have current procedures for developing annual performance plans for its foreign offices
because it has been rewriting the plan since FY 2004. As a result, the OIG concluded that DEA has
not developed foreign field strategies and operational objectives to complement its organization-
wide strategic plan.


                                      112
                           REDACTED – PUBLIC VERSION
                            REDACTED – PUBLIC VERSION
                                                                                 APPENDIX VI
    During the audit and again at the exit conference, the OIG was informed that DEA’s Executive
Policy and Strategic Planning Staff (ADS) had prepared Foreign Region Management Plan (FRMP)
guidelines; however, ADS representatives were not interviewed about the development or
distribution of the plan. Instead, after providing a copy of the plan to the OIG after the exit
conference, the OIG amended the language in its Draft Audit Report and acknowledged the
existence of a “sound performance planning instrument.” Also, the OIG went on to criticize DEA by
stating that an executive manager acknowledged that its new regional planning instrument would
still be deficient because it had not yet established practices for developing performance plans at the
country office level. Even after informing the OIG that the region plan was composed of individual
country office plans and that ADS could not identify the manager who allegedly stated that the
planning protocol was deficient, the OIG did not change the inaccurate language in their report. In
summary, because the OIG did not interview appropriate personnel about DEA’s performance
planning instruments, some of the information in their report remains inaccurate.

Principal Objectives for Working with Foreign Counterpart Agencies

        On page iii in the Executive Summary of the Draft Audit Report, the OIG identifies DEA's
five principal objectives for working with foreign counterpart agencies; (1) participate in bilateral
investigations, (2) cultivate and maintain quality liaison relations, (3) promote and contribute to
foreign institution building, (4) support intelligence gathering and sharing efforts, and (5) provide
training opportunities. In their review, the OIG did not address DEA's foreign institution building or
intelligence efforts, both critical parts of DEA's international mission. The lack of attention to these
principal objectives contributed to an administratively focused audit report which does not
adequately address DEA’s foreign office performance.

Sensitive Investigative Units (SIUs)

    Prior to the OIG audit of DEA International Operations, the DEA Office of International
Programs (OI) conducted a self-imposed SIU Program-wide review. During this review, OI
identified several areas in need of attention. During the OIG entrance interview and thereafter,
information was provided to OIG regarding this internal assessment as well as our findings, many of
which were re-characterized as recommendations by the OIG as areas in need of improvement. The
mission of the SIU Program is to cooperatively train, equip, and support specialized units within host
nation police and military forces, with law enforcement authority, to develop and share intelligence-
driven targeting in order to disrupt and dismantle major international drug trafficking organizations.
While the OIG did recognize the critical nature of the operations conducted with the SIUs, the OIG
failed to properly recognize the SIU program as a successful and critical foreign institution building
effort.

Personnel Utilization Data /Investigative Work Hours

        On page vii in the Executive Summary of the Draft Audit Report, the OIG stated that in their
discussions with DEA Headquarters management on tools used to evaluate foreign office operational
activity, personnel utilization data was not noted as a measure used in such assessments. According
to DEA’s Chief of Operations (OC), who evaluates foreign office performance, many executive



                                       113
                            REDACTED – PUBLIC VERSION
                            REDACTED – PUBLIC VERSION
                                                                                APPENDIX VI
level managers use this important data to determine how DEA’s foreign office personnel spend their
time on CPOT, PTO, financial and other types of investigative activity.


Imprest Fund Transactions

        The OIG reviewed a sample of 233 imprest fund transactions that allegedly contain
numerous discrepancies including missing supporting documentation, omitted signatures, and
untimely clearing of advanced funds. At the exit conference, the DEA requested that the OIG
provide copies of the fiscal documents to validate the accuracy of the OIG’s findings. The OIG
subsequently issued their Draft Audit Report before providing the requested documents. When a
portion of the documents were finally received, the DEA found that OIG auditors had incorrectly
interpreted policy, assessed documents, and cited deficiencies. As a result, many of the issues
identified by the OIG are not errors and should be eliminated or reduced, and technical changes need
to be made to the language in the report (see Attachment 2 - Specific Editorial Comments). In
addition, OIG auditors stated that DEA Agents failed to get proper authorization for 10 out of 12
operational advances sampled. The DEA has not been provided the requested documents; therefore,
DEA cannot validate the accuracy of this finding.

Summary

        It is critical for the OIG to work closely with DEA while conducting audits in order to ensure
that appropriate personnel are interviewed, policy is properly interpreted and assessed, accurate and
comprehensive information is obtained and reviewed, and issues such as the ones discussed above
are resolved prior to the issuance of the Draft Audit Report. It is also important that a report not be
issued until all information requested by the DEA and/or OIG is provided and reviewed. The OIG
and DEA working together with a common goal of conducting an accurate assessment of the
agency’s programs will greatly facilitate the preparation of future reports that are balanced,
thorough, and objective.

    DEA has achieved noteworthy success by impacting the command and control of major
international drug/chemical trafficking and money laundering organizations, reducing the supply of
illicit drugs, and contributing to counterterrorism efforts throughout the United States and around the
world. This success can be attributed to the many operations and initiatives carried out by DEA’s
international offices. Due to the importance of its foreign program, DEA respectfully requests that
appropriate consideration be given to the comments provided in this memorandum and to the
attached analysis of the agency’s international operations and specific editorial comments.

Attachments

1 - Analysis of DEA’s International Operations
2 - DEA Editorial Comments
3 - DEA Action Plan
4 - CFO Bulletin 2006-13




                                       114
                            REDACTED – PUBLIC VERSION
                           REDACTED – PUBLIC VERSION
                                                                                APPENDIX VI


        OIG’S AUDIT OF DEA’S INTERNATIONAL OPERATIONS
       Performance Accomplishments and Operational Activities

                              Performance Accomplishments

     At the core of DEA’s strategic performance is the disruption and dismantlement of drug
trafficking organizations operating at the international, national and local levels. DEA has
achieved noteworthy success impacting the command and control of these major international
drug/chemical trafficking and money laundering organizations, reducing the supply of illicit
drugs and contributing to counterterrorism efforts throughout the United States and around the
world. This success can be attributed, in part, to the many operations and initiatives carried out
by DEA’s international offices. The cornerstone of DEA’s overall strategy is an international
focus that targets the major drug trafficking and money laundering organizations responsible for
this nation’s illegal drug supply. During the past year, DEA, working in conjunction with our
foreign counterparts, aggressively focused its efforts on priority targets linked to the DOJ’s
Consolidated Priority Target List (CPOTs). The Department measures effectiveness in
accomplishing its goal to reduce the availability of drugs partly by tracking the number of
organizations disrupted or dismantled. The performance accomplishments and operational
activities outlined below demonstrate some of DEA’s successes and are directly linked to the
DEA Administrator’s Vision and DOJ’s Strategic Objective to “Reduce the Threat, Trafficking,
Use and Related Violence of Illegal Drugs.” DEA’s accomplishments also support the
President’s National Drug Control Strategy, which seeks to reduce illegal drug use, by
implementing Priority III, “Disrupt the Market.”

   Increased the agency’s total Priority Target Organization (PTO) disruptions and
dismantlements, surpassing past year records. Of the 5,238 total PTO investigations
historically recorded as of September 13, 2006, 1,413 have been dismantled, a 40 percent
increase when compared to the 1,007 total PTOs historically dismantled at the close of FY 2005.
Additionally, a total of 1,076 PTOs have been disrupted, a 43 percent increase when compared to
the 753 total PTOs historically disrupted at the close of FY 2005. (DOJ I, II; DEA 1, 2, 3, 6)

   Increased PTO investigations linked to terrorist organizations by 22 percent, from 82
active investigations during FY 2005 to 100 active investigations during FY 2006. In FY
2006, seven PTOs linked to terrorism were disrupted and 8 PTOs were dismantled.
Additionally, DEA helped link 37 percent (17) of FY 2006 Consolidated Priority Organization
Targets (CPOTs) to terrorist organizations and contributed to the successful indictment of 94
percent of those terrorist-linked CPOTs. (DOJ I, II; DEA 1, 2, 3, 6)

   Sustained DEA’s focus on CPOTs. DEA’s participation in the CPOT initiative has led to
the indictment of 39 of the 46 CPOTs (85 percent), the arrest of 17 (37 percent), and the
placement in custody of 15 (31 percent). As of June 30, 2006, 44 of the 46 organizations on the
FY 2006 CPOT list (96 percent) had active PTO investigations directed at or linked to them. Of
the 2,227 active PTO investigations currently approved, 458 are directly linked to CPOTs (21
percent). (DOJ I, II; DEA 1, 2, 3, 6)


                                      115
                           REDACTED – PUBLIC VERSION
                           REDACTED – PUBLIC VERSION
                                                                               APPENDIX VI
    Denied total revenue of $1.6 billion from drug trafficking and money laundering
organizations through asset and drug seizures in FY 2006. DEA established a five-year plan
to take $3 billion from drug trafficking organizations by FY 2009. The asset seizures in FY 2006
reflect seizures only through August 2006, and already exceed the FY 2006 goal by $100
million. This plan is based on the concept that taking the profit out of the drug trafficking
industry will reduce the availability of drugs worldwide. (DOJ I, II; DEA 1, 2, 3, 6)

   Increased financial PTO investigations from 117 active cases in FY 2005 to 154 active
cases in FY 2006, a 32 percent increase. There was a 10 percent increase in cases initiated
(from 69 in FY 2005 to 76 in FY 2006); 78 percent increase in cases disrupted (from 9 in FY
2005 to 16 in FY 2006); and 75 percent increase in cases dismantled (from 8 in 2005 to 14 in FY
2006).

   Continued to attack the financing of the illegal drug trade through implementation of
the DEA Money Trail Initiative. This financial crime strategy focuses on identifying and
disrupting the flow of money back to the sources of drug supply, thereby crippling the ability of
criminals to operate. The successes of the Money Trail Initiative include Operations Choque,
Moneyclip, Roadtrip, Goldmine, Frontera, Imperial Emperor, and Three Stars. As of July 10,
2006, the Money Trail Initiative has resulted in 418 arrests and the seizure of 9,749 kilograms of
cocaine, 59,646 kilograms of marijuana, 9 kilograms of heroin, 279 pounds of
methamphetamine, 60 dosage units of MDMA, 249 vehicles, 77 weapons, $65,416,100 in U.S.
currency, and $14,592,000 in other assets. (DOJ I, II; DEA 1, 2, 3, 6)

   Sustained focus on DEA’s successful programs in Afghanistan and took additional
measures to focus attention on the counter-narcotics threat in that country. Some
examples include:
   In April 2005, DEA established the Foreign-deployed Advisory Support Team (FAST) as a
   key tool for DEA to advance its workforce and capabilities in Afghanistan and to partner
   with and train the newly created Afghanistan National Interdiction Unit to identify, target,
   investigate, and disrupt or dismantle Drug Trafficking Organizations. Since the FAST
   program was implemented, significant accomplishments have been achieved. Additionally,
   due to FAST efforts, arrests and the seizure of narcotics and precursor chemicals have
   substantially increased. On February 10, 2006, the Afghanistan National Interdiction Unit
   (NIU), assisted by a DEA FAST, executed the first-ever residential search warrant authorized
   by the Afghanistan Counter-Narcotics Drug Tribunal.
   Compared to the 18 month period before the FAST deployed, seizures rose exponentially as
   follows: (PMA 1; DOJ I, II; DEA 1, 2, 3, 6)
           o Opium – 61 percent increase (from 27.6 to 44.4 metric tons)
           o Heroin – 129 percent increase (from 2.8 to 6.4 metric tons)
           o Chemicals – 48 percent increase (from 7.7 to 11.4 metric tons)
           o Clandestine Conversion Labs – 919 percent increase (from 27 to 275)
           o Morphine Base – 640 percent increase (from 30 to 222 kilograms)
           o Arrested/Detained – 54 percent increase (from 69 to 106 arrests)


                                      116
                           REDACTED – PUBLIC VERSION
                        REDACTED – PUBLIC VERSION
                                                                            APPENDIX VI
•    Worked with the Counter Narcotics Police-Afghanistan (CNP-A) and the Department of
    Defense (DOD) to enhance the DEA-established Afghanistan National Interdiction Unit
    (NIU) program. Currently, there are 125 NIU officers operationally deployed and
    working bi-laterally with DEA’s FAST teams. Of the 125 NIU officers, 14 are women.
    The DOD is currently constructing a FAST and NIU base camp in Afghanistan with
    expected completion during the first quarter of FY 2007. This facility will provide
    housing and mission support for the FAST and NIU. (PMA 1; DOJ I, II; DEA 1, 2, 3, 6)

•    Established an aviation presence in Afghanistan. As a result of DEA’s efforts, DOD is
    providing the Afghan Ministry of Interior with eight MI-17 helicopters dedicated to
    counter-narcotics efforts in Afghanistan, which will also provide mobility for DEA FAST
    personnel. Further, the DOD is funding the construction of the NIU training facility, the
    purchase of equipment and training for Afghan counter-narcotics officers, the
    construction of hangars for DEA and Afghan aviation assets, and other support. (PMA 1;
    DOJ I, II; DEA 1, 2, 3, 6)

•    DEA has affected the Afghanistan Intelligence architecture. Through interaction with
    the Deputy Assistant Secretary of Defense for Counter Narcotics, DEA redirected
    resources from the Joint Narcotics Analysis Center (JNAC) in London to refine and
    refocus intelligence collection and analysis efforts in theatre at the International
    Operations Coordination Center (IOCC) and the Intelligence Fusion Center (IFC) in
    Kabul. (PMA 1; DOJ I, II; DEA 1, 2, 3, 6)

•   Conducted the investigation that led to CPOT Haji Baz MOHAMMED’s July 11, 2006,
    guilty plea to conspiracy to import heroin into the United States. In October 2005, in part
    due to DEA’s negotiations with the Afghan Minister of Interior, the Government of
    Afghanistan extradited MOHAMMED to the United States, which marked the first
    extradition in history between the two countries. From 1990 to 2005, MOHAMMED and
    his associates were responsible for manufacturing and transporting hundreds of kilograms
    of Southwest Asian heroin from Afghanistan and Pakistan into the United States. (PMA
    1; DOJ I, II; DEA 1, 2, 3, 6)

•   Conducted the investigation and arrest of an Afghanistan terrorist involved in the deaths
    of two narcotics officers from Afghanistan. On December 1, 2005, Abdul KHALIQ, a
    member of a Taliban anti-coalition militia, was arrested by the Afghan National
    Directorate of Security in Helmand Province, Afghanistan, for his participation in the
    kidnapping and murder of two CNP-A NIU officers. The officers were murdered on
    August 11, 2005, while they were on a drug intelligence gathering mission in Helmand
    Province, Afghanistan regarding an opium stockpiling organization. (PMA 1; DOJ I, II;
    DEA 1, 2, 3, 6)

•   Conducted the investigation that led to the first significant trial and conviction in the
    Afghan Central Narcotics Tribunal. On April 23, 2006, defendants Misri KHAN, Haji
    BAHRAM, and Noor ULLAH were found guilty of heroin trafficking offenses in Kabul,
    Afghanistan by the Kabul, Afghanistan Central Narcotics Tribunal. The tribunal
    sentenced each man to 17 years imprisonment. (PMA 1; DOJ I, II; DEA 1, 2, 3, 6)


                                   117
                        REDACTED – PUBLIC VERSION
                        REDACTED – PUBLIC VERSION
                                                                              APPENDIX VI
•   Conducted the arrest of Afghanistan heroin trafficker Jaji Aziz RAHMAN pursuant to a
    first-ever arrest warrant authorized by the Afghanistan Central Narcotics Tribunal.
    RAHMAN was one of the most influential drug traffickers in Nangarhar Province.
    (PMA 1; DOJ I, II; DEA 1, 2, 3, 6)

•   Collected and shared intelligence with U.S. military and coalition partners in
    Afghanistan, which directly averted hostile acts against U.S. personnel and interests
    inside of Afghanistan. Within the past year, as a result of DEA’s intelligence, high-value
    targets have been apprehended, weapons caches seized, and an attempt on the life of a
    high-level public official was prevented. In addition, DEA’s intelligence thwarted a
    rocket attack targeting another high level public official, and revealed the location of
    Improvised Explosive Devices planted to attack U.S. military forces. (PMA 1; DOJ I, II;
    DEA 1, 2, 3, 6)

•   Continued to lead and expand enforcement efforts involving Operation Containment, a
    DEA-led multi-national law enforcement initiative designed to reduce the flow of
    Afghanistan heroin into world markets, prevent the country from becoming a major
    heroin supplier to the United States, and disrupt drug-related terrorist activities that could
    hamper the long-term stabilization of the Afghanistan government. Nineteen countries in
    Central Asia, the Caucasus, the Middle East, Europe, and Russia participate in Operation
    Containment, and, for the first time ever, those nations partnered, at the urging of DEA,
    to jointly identify and target the heads of five significant international drug trafficking
    organizations whose activities have a sustained impact throughout the region. As a result
    of enforcement successes directed by DEA, two of the five organization heads, Afghan
    nationals Haji Bashir NOORZAI and Haji Baz MOHAMMED, were arrested in the past
    year. As part of Operation Containment, DEA increased its permanent positions in
    Afghanistan for seven Special Agents, three Intelligence Research Specialists, and two
    support staff. Additionally, one Special Agent is assigned to the IOCC and three Special
    Agents are pilots in the region. As an additional result of Operation Containment, there
    have been record-breaking seizures of narcotics and precursor chemicals in the region.
    Prior to the initiation of Operation Containment in 2002, only 407 kilograms of heroin
    had been seized. From October 2003 through June 2006 the following seizures and
    arrests occurred: (PMA 1; DOJ I, II; DEA 1, 2, 3, 6)

       •    31.6 tons of heroin
       •   54.4 metric tons of opium
       •   249.5 metric tons of cannabis
       •   286 laboratories
       •   19 metric tons of precursor chemicals
       •   9.1 metric tons of morphine base
       •   1,389 arrests




                                   118
                        REDACTED – PUBLIC VERSION
                          REDACTED – PUBLIC VERSION
                                                                             APPENDIX VI
Developed a joint strategy with Mexico to target those who traffic in and produce
methamphetamine and the chemicals utilized for its manufacture. DEA’s successes
involving methamphetamine are as follows:

   •   Led the effort to develop and coordinate a Department-wide methamphetamine strategy.
       Recognized the need for a tailored strategy to combat the current methamphetamine
       threat and provided the framework for such a strategy to Department leadership. DEA’s
       piece of the strategy outlined comprehensive integrated steps designed to curb the supply
       of methamphetamine, using a five-pronged approach combining enforcement,
       intelligence, legislation, demand reduction, and cooperative efforts with other
       stakeholders. The Methamphetamine Strategy implements and builds upon the existing
       National Synthetic Drug Action Plan and is designed to achieve the President’s goals to
       reduce the use of drugs, specifically methamphetamine. (PMA 5; DOJ III; DEA 6)

   •   DEA established a new partnership with the Government of Mexico (GOM) to combat
       methamphetamine that resulted in the first joint Mexican-U.S. Attorney General
       announcement at the National Methamphetamine and Chemicals Initiative Strategy
       Conference in Dallas, Texas on May 17-18, 2006. Together, both countries agreed to a
       number of DEA-developed anti-methamphetamine initiatives including: creation of
       specialized methamphetamine enforcement teams on both sides of the border; jointly
       targeting a “Most Wanted List” of chemical and methamphetamine traffickers; donating
       eight DEA trucks used in clandestine laboratory enforcement operations to the GOM;
       designating a DEA Clandestine Laboratory Coordinator for Mexico; training 1,000
       Mexican police officers on a variety of enforcement and regulatory issues; and jointly
       exchanging personnel from DEA’s Office of Diversion Control and Mexico’s chemical
       regulatory agency. (PMA 1; DOJ II; DEA 1, 2, 3, 6)

   •   Continued to focus the agency’s efforts on CPOTs and PTOs involved in
       methamphetamine trafficking. Eight of the 46 organizations on the FY 2006 CPOT list
       (17 percent) are involved in methamphetamine trafficking. There was an 11 percent
       increase in active PTO cases involving methamphetamine (from 294 in FY 2005 to 327
       in FY 2006); a 15 percent increase in PTOs disrupted (from 55 in FY 2005 to 63 in FY
       2006); and a 13 percent increase in PTOs dismantled (from 70 in FY 2005 to 79 in FY
       2006). (DOJ II; DEA 1, 2, 3, 6)

   •   Reduced ”super lab” seizures in the United States by 86 percent through increased
       enforcement efforts, from 244 in calendar year (CY) 2001 to 35 in CY 2005. The total
       number of clandestine methamphetamine laboratories seized nationally also decreased,
       from 10,212 in CY 2003 (the highest total from 2001 to 2005) to 5,840 in CY 2005 (43
       percent). Of the 2,134 clandestine methamphetamine laboratories seized nationally so far
       in CY 2006, only 17 are classified as “super labs.” Seizures of methamphetamine along
       the Southwest Border of the United States and Mexico have increased 129 percent, from
       1,170 kilograms in CY 2001 to 2,679 kilograms in CY 2005. (DOJ II; DEA 1, 2, 3, 6)




                                     119
                          REDACTED – PUBLIC VERSION
                          REDACTED – PUBLIC VERSION
                                                                              APPENDIX VI
   •   Led the introduction of a resolution, “Strengthening Systems for Control of Precursor
       Chemicals Used in the Manufacture of Synthetic Drugs,” at the 49th Commission on
       Narcotic Drugs in Vienna, Austria on March 8-18, 2006. The resolution, which passed,
       requests that participating countries provide the International Narcotics Control Board
       (INCB) with data regarding the movement of ATS precursor chemicals. (PMA 1; DOJ
       II; DEA 1, 2, 3, 6)

   •   Redirected the focus of DEA’s Clandestine Laboratory Enforcement Teams (CLETs) to
       better address current methamphetamine trafficking trends. These teams target Mexican
       methamphetamine trafficking organizations by tracing chemicals, finished
       methamphetamine, and proceeds to organizational leaders in the U.S. and Mexico, rather
       than merely locating and cleaning up labs. An additional focus of these teams is to
       identify and dismantle U.S.-based transportation and distribution cells. (PMA 1; DOJ II;
       DEA 1, 2, 3, 6)

   •   Conducted clandestine laboratory training for 1,427 DEA employees and state and local
       officers throughout the United States and abroad in FY 2006. Conducted the first ever
       clandestine methamphetamine laboratory safety training class for Mexican law
       enforcement officers at the DEA Training Academy in Quantico, Virginia on September
       7, 2006. (PMA 1; DOJ II; DEA 1, 2, 3, 6)

   •   Initiated and led successful efforts focusing on methamphetamine and precursor
       chemicals, working jointly with national and international partners. One example of
       DEA’s success resulted in the dismantlement of the David PHAM pseudoephedrine
       trafficking organization on March 28, 2006. From 1996 until July 2005, the PHAM
       organization was responsible for the importation of approximately five million
       pseudoephedrine tablets per year from Asia into Southern California. This 20-month
       Organized Crime Drug Enforcement Task Force (OCDETF) investigation, dubbed
       Operation Phat Rides, has resulted in the arrest of 12 individuals, including PHAM, and
       the seizure of approximately one million pseudoephedrine tablets, 4 pounds of
       methamphetamine, $559,000 in U.S. currency, and 11 firearms. (DOJ II; DEA 1, 2, 3, 6)

Expanded DEA’s intelligence program and assumed new intelligence responsibilities          and
functions in 2006 to support the global war on terror.

   •   On February 6, 2006, the Attorney General and Director of National Intelligence jointly
       designated DEA’s Office of National Security Intelligence as a member of the
       Intelligence Community. Further, in 2006, DEA also achieved the appointment of a
       DEA representative to the National Security Council Office of Combating Terrorism,
       which is part of the IC. As a result, DEA is now better positioned to advance the counter-
       drug agenda and to support national security and homeland defense. (PMA 1; DOJ I, II;
       DEA 1, 2, 3, 6)

   •   Led the effort to create the Anti-Drug Intelligence Community Team (ADICT). DEA
       and the Director of CIA’s Crime and Narcotics Center co-chair this group. DEA directed
       the initiation of two projects: an interagency analysis of Mexican methamphetamine
       trafficking and an in-depth analysis of the linkages between Colombian and Mexican

                                     120
                          REDACTED – PUBLIC VERSION
                           REDACTED – PUBLIC VERSION
                                                                               APPENDIX VI
       drug trafficking organizations. As a result of these efforts, Mexican/Colombian
       methamphetamine trafficking counter-drug issues have been elevated and reported to the
       highest levels of the Administration through the President’s Daily Briefings and the
       Senior Executive Intelligence Brief. (DOJ I, II; DEA 1, 2, 3, 6)

    Concentrated on the increasing violence along the Southwest Border. DEA participated
in Operation Border Unity with the Government of Mexico, a bilateral, multi-agency operation.
During the course of this operation, DEA reported the seizure of 10 weapons, 4,500 rounds of
ammunition, 13 hand grenades, approximately 4 tons of marijuana, and 5 kilograms of
methamphetamine.

    Coordinated significant investigations, arrests, indictments, extraditions and
convictions, too numerous to list here, which resulted in the disruption and dismantlement
of the most signifigant drug trafficking organizations around the world. The following are
some examples: (PMA 1; DOJ I, II; DEA 1, 2, 3, 6)

   •   Developed and implemented the successful multi-agency International Drug Flow
       Prevention Strategy known as Operation All Inclusive. This multilateral strategy is
       designed to cause major disruption to the flow of drugs, money, and chemicals between
       source zones and the United States through the execution of joint enforcement operations
       that attack the chokeholds in the main arteries and support infrastructure nodes of the
       drug trade. In October 2005 and April 2006, DEA concluded the first two phases under
       the strategy focused on Central America. Successes during the first phase included 346
       arrests and the seizure of nearly 47 metric tons of cocaine, which equates to 5 to 10
       percent of the estimated quantity of cocaine that was transported through the transit zones
       to the United States during all of 2005. In addition, the average price per pure gram for
       cocaine purchases made by DEA increased 58 percent (from $25.23 to $39.76),
       compared to the 65-day period prior to the operation. Successes during the second phase
       included 131 arrests, over $4 million in currency and the seizure of 19.65 metric tons of
       marijuana, 92.6 metric tons of precursor chemicals and 43.77 metric tons of cocaine,
       which equates to 5 to 10 percent of the estimated quantity of cocaine that was transported
       through the transit zones to the U.S. based on 2005 estimates. As a result of both
       operations, drug trafficking organizations were forced to delay or suspend their drug
       operations, divert their routes, change their modes of transportation, and jettison loads.
       The success of these multi-agency, multi-jurisdictional, and bilateral operations
       exemplified the cooperation among law enforcement entities throughout the United
       States, Latin America, and Central America. (PMA 1; DOJ I, II; DEA 1, 2, 3, 6)

   •   Coordinated the OCDETF investigation that led to CPOTs Miguel and Gilberto
       RODRIGUEZ-OREJUELAs’ guilty plea and agreement to forfeit $2.1 billion on
       September 26, 2006. The RODRIGUEZ-OREJUELA brothers ran the Cali Cartel in
       Colombia that was responsible for importing more than 200 tons of cocaine into the
       United States over the last two decades.

   •   Facilitated the arrest of CPOT Francisco Javier ARELLANO Felix on August 14, 2006,
       by United States Coast Guard authorities. The Tijuana, Mexico-based organization, run

                                      121
                           REDACTED – PUBLIC VERSION
                        REDACTED – PUBLIC VERSION
                                                                            APPENDIX VI
    by ARELLANO Felix, was one of the most powerful and violent trafficking groups in
    Mexico, responsible for the importation of tons of cocaine, heroin, methamphetamine,
    and marijuana into the United States and more than 100 drug-related murders in the
    United States and Mexico.

•   Coordinated Operation Twin Oceans, an OCDETF investigation that led to the arrest by
    Brazilian Federal Police of CPOT Pablo RAYO Montano in Sao Paulo, Brazil on May
    16, 2006. In the last four years, the RAYO Montano organization has been responsible
    for transporting 15 tons of cocaine per month from South America to the United States
    and Europe. This investigation resulted in 138 arrests and the seizure of 47,550
    kilograms of cocaine, 700 pounds of marijuana, ten kilograms of heroin, $1.6 million
    dollars in U.S. currency, and other assets with a total estimated value of $47 million,
    including three islands near the coast of Panama.

•   Coordinated the investigation that led to the arrests of financial CPOT Ricardo Mauricio
    BERNAL and his brother Juan BERNAL in Colombia on March 2, 2006. The arrests
    resulted from a 2-year OCDETF investigation conducted by the DEA, which has
    documented in excess of $300 million laundered by the BERNAL organization through
    U.S. bank accounts held by casa de cambio Ribadeo and casa de cambio Catorce, another
    Mexican money exchange.

•   Conducted an OCDETF investigation that led to the arrest, extradition, and conviction of
    21-year-old William RODRIGUEZ Abadia, son of CPOT Miguel RODRIGUEZ
    Orejuala, former head of the Cali Cartel. RODRIGUEZ Abadia was sentenced to 262
    months imprisonment for his involvement in a cocaine importation conspiracy that
    existed from 1990 to July 2002. Since the arrest of his father in 1995, RODRIGUEZ
    Abadia has been responsible for managing his father’s portion of the RODRIGUEZ
    Orejuela family pharmaceutical business, through which the family’s drug profits were
    laundered.

•   Led a joint U.S.-Mexico operation that captured CPOT Oscar Arturo ARRIOLA-
    Marquez, the head of an international cocaine trafficking and money laundering
    organization. During the past several years, DEA agents have seized nearly 2,000
    kilograms of cocaine and over $11 million in drug proceeds from ARRIOLA-Marquez
    organization members in the United States. The Government of Mexico has seized in
    excess of $37 million in assets. Oscar ARRIOLA-Marquez is also a designated Foreign
    Narcotics Kingpin.

•   Directed the investigation that led to the arrest of CPOT Augustin HARO-Rodriguez in
    Nogales, Arizona on October 2, 2005, on cocaine trafficking charges. The indictment
    resulted from an 8-month OCDETF investigation conducted by the DEA Newark, New
    Jersey Division Office. Since March 2004, the HARO-Rodriguez organization was
    responsible for the distribution of 1,000 pounds of cocaine per month from Mexico to
    distribution cells throughout the United States. This investigation resulted in disruption
    of the HARO-Rodriguez organization, the arrest of 31 individuals, and the seizure of
    1,318 pounds of cocaine and $12.1 million in U.S. currency


                                   122
                        REDACTED – PUBLIC VERSION
                        REDACTED – PUBLIC VERSION
                                                                           APPENDIX VI
•   Participated in an unprecedented OCDETF Strike Force investigation that culminated in
    the indictment of 50 leaders of the FARC narco-terrorist organization in Colombia, which
    was responsible for supplying more than half of the world’s cocaine. These FARC
    leaders, four of whom are CPOTs, were indicted in March 2006 on charges of importing
    more than $25 billion worth of cocaine into the United States and other countries over a
    20-year period. The FARC supplies more than 50 percent of the world’s cocaine and
    more than 60 percent of the cocaine that enters the United States.

•   Based on an indictment from a DEA investigation, Francisco Rafael ARELLANO Felix,
    brother of CPOT Francisco Javier ARELLANO Felix, was extradited from Mexico to the
    United States on September 16, 2006, for possession of and conspiracy to distribute
    cocaine. Throughout the 1980s and early 1990s, ARELLANO Felix was involved in
    marijuana and opium poppy cultivation in Mexico, and the smuggling of multi-ton
    quantities of marijuana into the United States.

•   As a result of a DEA investigation, CPOT Manuel SALAZAR Espinosa was extradited
    from Colombia to the United States on August 22, 2006. From 2002 to 2005, the
    SALAZAR organization smuggled more than 5,000 kilograms of cocaine worth $100
    million into the United States. This 18-month OCDETF investigation has resulted in the
    seizure of 1,555 kilograms of cocaine and 15 kilograms of heroin.

•   As a result of a DEA investigation, financial CPOT Gabriel PUERTA-Parra was
    extradited on May 23, 2006, from Colombia to the United States to face Racketeer
    Influenced and Corrupt Organization (RICO) Act charges, as well as conspiracy, cocaine
    trafficking, and money laundering charges. PUERTA-Parra was a key counselor and
    advisor to the Norte Valle Cartel since the 1980s, and an attorney for former Medellín
    Cartel leader Pablo ESCOBAR. PUERTA-Parra utilized a large range of legitimate
    businesses, including investment and real estate companies, agricultural enterprises, and
    currency exchanges to launder drug proceeds. DEA investigations also resulted in the
    extraditions of Norte Valle Cartel leaders Jairo APARICIO-Lenis and Julio Cesar
    LOPEZ Pena, in October 2005 and March 2006, respectively. Since 1990, the Norte Del
    Valle Cartel has sent approximately 550 tons of cocaine to the United States via Mexico
    and has laundered millions of dollars in drug proceeds. This investigation has resulted in
    24 arrests and the seizure of 5.5 tons of cocaine and $528 million in assets.

•   Facilitated the Nicaraguan government expulsion of Autodefensas Unidas de Colombia
    (AUC) paramilitary leader Luis Angel GONZALEZ Largo on April 19, 2006, to the
    United States to face drug charges. GONZALEZ Largo was indicted for importing
    cocaine to the United States. As a member of the AUC, GONZALEZ Largo was
    involved in trading multi-hundred kilograms of cocaine for weapons.

•   Coordinated an investigation that led to the extradition of CPOT Zeev ROSENSTEIN to
    the United States on March 6, 2006, to face charges of conspiracy to distribute MDMA.
    ROSENSTEIN was the leader of an Israeli criminal organization responsible for
    financing, coordinating and smuggling multi-million tablet shipments of MDMA from
    Belgium and Holland to Israel, Europe, and the United States. Between 2002 and 2006,
    the ROSENSTEIN organization imported millions of MDMA tablets per month into the

                                   123
                        REDACTED – PUBLIC VERSION
                             REDACTED – PUBLIC VERSION
                                                                                   APPENDIX VI
       United States. This OCDETF investigation has resulted in 95 arrests and the seizure of
       4.8 million MDMA tablets, 45.5 kilograms of cocaine, 17 weapons, and $2.6 million in
       assets.

   •   Arrested three high-level members of the Guatemalan Anti-Narcotics Service (SAIA) for
       cocaine trafficking on November 16, 2005. Adan CASTILLO-Lopez, Jorge AGUILAR-
       Garcia, and Rubilio Orlando PALACIOS were indicted in the District of Columbia for
       conspiracy to distribute cocaine, intending that it would be imported into the United
       States. As Chief of the SAIA, CASTILLO- Lopez was the highest ranking anti-drug
       agent in Guatemala. AGUILAR-Garcia was second in command to CASTILLO-Lopez.

   Worked aggressively to identify and apprehend those individuals and organizations
that utilize the Internet to facilitate drug trafficking through increased enforcement efforts
and investigations and improved technologies.

   •   Conducted Operation Cyber Chase, which concluded with the April 2006 conviction of
       Akhil BANSAL, and the dismantlement of his international pharmaceutical controlled
       substance trafficking organization. Operation Cyber Chase resulted in 25 arrests in 4
       countries and the seizure of 10 million dosage units of pharmaceutical controlled
       substances, 231 pounds of Ketamine, and $8.5 million in assets. This organization was
       responsible for the illegal distribution of 2.5 million dosage units of controlled substances
       per month to more than 100,000 customers without a medical evaluation. (DOJ II; DEA
       1, 2, 3, 6)

   •   Conducted the largest steroid enforcement operation in U.S. history. On December 14,
       2005, Operation Gear Grinder resulted in the arrest of five individuals who were
       responsible for importing anabolic steroids into the United States. This international
       investigation targeted the eight largest anabolic steroid manufacturing companies in
       Mexico, including three of the world’s largest that conducted their sales via the Internet.
       Nearly 82 percent of the steroids seized and analyzed in 2003 were of Mexican origin and
       the majority of this 82 percent originated from the eight companies charged in Operation
       Gear Grinder. (DOJ II; DEA 1, 2, 3, 6)

    Encouraged international precursor chemical control collaboration to increase the
efficiency of intelligence sharing and enforcement activities. DEA participated with the
INCB and United Nations Office of Drugs and Crime (UNODC) in Operation Transshipment in
July 2006, which targeted the smuggling of Acetic Anhydride consignments at key interdiction
“choke points” in Central Asia. (DOJ II; DEA 1, 2, 3, 6)

    Conducted a Significant Investigation Impact Measurement System (SIIMS) assessment
of Operation All Inclusive (OAI) 2005-1 to capture the impact of the case following
dismantlement. SIIMS provides the first opportunity for DEA to measure its enforcement
efforts against illicit drug availability in the United States. OAI targeted trafficker vulnerabilities
in the areas of maritime, land, and air smuggling of drugs, as well as drug profits. The
assessment of OIA I-2005 was conducted in conjunction with the Defense Intelligence Agency
for the period beginning on August 5, 2005 and ending October 8, 2005. The assessment
identified significant impact as a result of OIA I-2005. For example, nearly 47 metric tons of

                                        124
                             REDACTED – PUBLIC VERSION
                           REDACTED – PUBLIC VERSION
                                                                               APPENDIX VI
cocaine was seized, which equates to 5 to 10 percent of the estimated quantity of cocaine that
was transported through the transit zones to the United States during all of 2005. During the 65-
day period of the operation, total cocaine seizures in the Mexico/Central American and
Caribbean Corridors increased 119 percent compared to the 65-day period preceding the
operation, from 36 metric tons to 79 metric tons. At the same time, cocaine seizures by DEA
domestic offices decreased 29 percent compared to the 65-day period prior to the operation, from
31,789 kilograms to 22,669 kilograms. (PMA 5; DOJ II, III; DEA 1, 2, 3, 4, 6)

       Pledged international support to Russia in the war against illegal worldwide drug
trafficking. On November 2, 2005, DEA and the Russian Federation Director of the Federal
Drug Control Service signed an historic Memorandum of Mutual Understanding to enhance
bilateral coordination and cooperation on operational and information sharing matters. The
agreement addresses intelligence sharing, training, and assistance in disrupting and dismantling
large criminal organizations that affect the drug trade in both the United States and Russia.
(PMA 1; DOJ I, II; DEA 1, 2, 3, 6)

      Deterred the smuggling of illicit drugs into the United States through cross-border
tunnels. DEA has committed resources to support Operation Alliance Joint Task Force, a multi-
agency law enforcement effort established to confront this underground threat. Following are
examples of DEA’s success:

       •   Discovered the largest and most sophisticated cross-border tunnel along the United
           States and Mexico border, which had been utilized to smuggle marijuana. The tunnel
           extended north approximately 1,262 yards and exited at a building in San Diego,
           California. Approximately two tons of marijuana was seized from within the tunnel
           on the Mexican side and approximately 200 pounds of marijuana was seized on the
           California side. On July 17, 2006, Carlos CARDENAS Calvillo pled guilty to
           conspiracy to possess marijuana as a result of the case. (DOJ II; DEA 1, 2, 3, 4, 6)

       •    Facilitated the sentencing of Francis RAJ, Timothy WOO, and Jonathan
           VALENZUELA on July 14, 2006, to nine years in prison for conspiracy to import
           marijuana into the United States. In July 2005, DEA arrested the Canadian citizens
           after the discovery of an underground tunnel they built on the United States and
           Canadian border near the town of Lynden, Washington. It was the first cross-border
           tunnel found on the United States northern international border and DEA provided
           oversight of its destruction. (DOJ II; DEA 1, 2, 3, 4, 6)

Oversaw the arrest of Tier One Colombian money broker German Alejandro
GONZALEZ-Bayona through the DEA-sponsored Colombian Sensitive Investigative Unit
on November 6, 2006. In April 2005, GONZALEZ-Bayona was indicted for money laundering
as a result of Operation Mallorca. He was one of four Colombian-based money brokers targeted
and was responsible for laundering $12 million in illicit drug proceeds through the Colombian
Black Market Peso Exchange, a system where drug traffickers sell drug proceeds in U.S. dollars
to brokers for pesos. (DOJ I, II; DEA 1, 2, 3, 6)

  Provided International Law Enforcement Academy (ILEA) training programs in
Budapest, Hungary; Gaborone, Botswana; Bangkok, Thailand; and San Salvador, El Salvador.

                                      125
                           REDACTED – PUBLIC VERSION
                          REDACTED – PUBLIC VERSION
                                                                             APPENDIX VI
DEA’s International Training program consists of SIU Training, International Asset
Forfeiture/Money Laundering Training, International Narcotics Enforcement Management
Seminar Training, Airport Interdiction Seminar, and DEA’s Basic Intelligence Seminar. During
FY 2006, DEA trained approximately 2,800 participants. (PMA 1; DOJ II, III; DEA 6, 7)

     Ensured that resources are deployed to the highest priority overseas locations to
maximize the agency’s impact on the global narcotics trade. Through the Rightsizing
initiative, DEA requested and received the reallocation of 65 domestic positions to overseas
locations in FY 2004 and FY 2005. For FY 2006, DEA received $29,729,000 and 38 positions,
including 23 Special Agents for overseas operations. (PMA 1, 5; DOJ I, II; DEA 1, 2, 3, 6)

   •   Overseas Rightsizing Reprogramming Funds were appropriated for recurring costs
       associated with the FY 2004 - 2006 reallocation of resources. DEA received resources to
       open seven new country offices in high priority countries. This funding will also be used
       to create an additional heroin task force and maritime enforcement group in Cartagena,
       Colombia; establish an additional money laundering task force and a heroin task force in
       Mexico City, Mexico; and complete unfinished space in the Lima, Peru U.S. Embassy in
       a cooperative effort with the Department of State to alleviate crowding. Previously
       approved, the Warsaw, Poland location opened in August 2006.

   •   Other Funding – Permanent funding for Operation Containment was provided, as well as
       operational funding for an existing SIU in Uzbekistan and a planned SIU in Tajikistan.
       Continuing support was provided for recurring costs associated with DEA’s FAST
       program in Afghanistan. Also, funding was provided to enhance DEA’s presence in
       Central Asia, the Middle East, and the Kabul Country Office. Further, Congress directed
       DEA to establish a presence in Dubai, United Arab Emirates, whereby DEA is
       coordinating this requirement with the Department of State (scheduled to open in 2007).
       For this effort, Congress added seven positions (including four Special Agents) to the
       DEA 2006 budget.

     Received $9.2 million to combat drug trafficking organizations in Afghanistan and $5
 million to create a National Security Section within DEA’s intelligence program as part of a
 bill appropriating $94.5 billion in emergency supplemental funding. (PMA 1, 5; DOJ I, II;
 DEA 1, 2, 3, 6)

    Seizure of 738 Kilograms of Cocaine and Disruption of a Cocaine Trafficking
 Organization in Buenos Aires Province, Argentina

    On December 31, 2005, as the result of a two-year investigation conducted by the DEA
 Buenos Aires, Argentina Country Office, the Argentina Gendarmeria Nacional seized 738
 kilograms of cocaine at a residence in Buenos Aires Province, Argentina. The cocaine was
 hidden inside bags of charcoal. Nine Argentine Nationals, including leader Alejandrino
 MOTOK, and one Bolivian National were arrested, resulting in the disruption of a cocaine
 trafficking organization responsible for the transportation of multi-hundred kilogram shipments
 of cocaine to Buenos Aires for distribution in Europe and the United States.



                                     126
                          REDACTED – PUBLIC VERSION
                         REDACTED – PUBLIC VERSION
                                                                              APPENDIX VI
Joint British Military and Drug Enforcement Administration Foreign-deployed Advisory
and Support Team Operation Resulted in Seizure of 700 Kilograms of Opium in
Afghanistan

On January 5, 2006, a DEA Foreign-deployed Advisory Support Team assisted the British
Military and the British-led Afghan National Security Forces with counter-drug operations on
several pre-determined target locations in Aachin Valley, Nangarhar Province, Afghanistan.
The operations resulted in the destruction of several heroin processing laboratories and the
seizure of 700 kilograms of opium and 7 kilograms of heroin.

Seizure of 257 Kilograms of Cocaine and the Dismantlement of a Cocaine Trafficking
Organization in Spain and Paraguay

On December 19, 2005, officials in Asuncion, Paraguay seized 257 kilograms of cocaine and
arrested a total of 11 traffickers in Paraguay and Spain, including Edmund CHLADEK, the
head of this trafficking organization. The seizure and arrests resulted in the dismantlement of a
cocaine trafficking organization that, since 2000, was responsible for the transportation of
multi-hundred kilogram shipments of cocaine from South America to Europe. This
investigation was conducted by the DEA Asuncion, Paraguay and Guayaquil, Ecuador Country
Offices, the Paraguayan National Anti-Drug Agency, and the Spanish National Police.

Investigation Resulted in the Seizure of 5.7 Tons of Cocaine in the Eastern Pacific Ocean

On January 7, 2006, information provided by the DEA El Paso Intelligence Center (EPIC)
resulted in the seizure by the Mexican Navy of 5.7 tons of cocaine from two vessels in the
Eastern Pacific Ocean near Colima, Mexico. Two support vessels also were intercepted. Nine
Mexican national crew members were detained by Mexican authorities for possible prosecution
in Mexico. This investigation was conducted with DEA offices in Mexico City and Mazatlan,
Mexico.

Operation Panama Express - Seizures of 45,270 Kilograms of Cocaine

January through September 2006, the United States Coast Guard seized 45,274 kilograms of
cocaine and made 109 arrests in 15 separate events as part of Operation Panama Express a
maritime interdiction operation targeting transportation vessels and routes into the U.S..
These seizures and arrests were based on information provided by the DEA to Coast Guard
authorities. These investigations were conducted with the DEA, Colombian, Panama and
Royal Bahamian authorities as part of Operation Panama Express. Since its inception in
February 2000, Operation Panama Express has resulted in the seizure of more than 389 tons of
cocaine and the arrest of 1,083 individuals.

Former Salvadoran Congressman Sentenced to 20 Years in Prison

On January 18, 2006, William Eliu MARTINEZ was sentenced in U.S. District Court for the
District of Columbia to 29 years in prison for conspiracy to distribute cocaine and conspiracy
to import cocaine. MARTINEZ, a Salvadoran congressman from 1999 to 2002, was indicted

                                    127
                         REDACTED – PUBLIC VERSION
                         REDACTED – PUBLIC VERSION
                                                                             APPENDIX VI
in October 2003 and arrested in November 2003. From 1998 to 2002, MARTINEZ managed
an organization that utilized go-fast boats to transport a total of 12 tons of cocaine from
Colombia through El Salvador to the United States for the CPOT Otto Roberto HERRERA-
Garcia organization. This investigation was conducted by the DEA Special Operations
Division (SOD) in conjunction with DEA offices in San Salvador, El Salvador, Guatemala
City, Guatemala, and Panama City, Panama.

70 Kilograms of Heroin Seized in Istanbul, Turkey

On January 19, 2006, the Turkish National Police seized 70 kilograms of heroin in Istanbul,
Turkey as the result of a joint investigation with the DEA. Four members of an Istanbul-based
heroin trafficking organization, including leader Sadik KAYA, were arrested while preparing
the heroin for transportation to the Netherlands. This investigation was being conducted by the
DEA Ankara, Turkey Regional Office, the Istanbul, Turkey Resident Office, and the Turkish
National Police.

40 Kilograms of Heroin Seized in Sofia, Bulgaria

On January 15, 2006, the Bulgarian National Service for Combating Organized Crime
(NSCOC) seized 40 kilograms of heroin and arrested one individual in Sofia, Bulgaria as the
result of a joint investigation with the DEA. The heroin was smuggled by Mehmet Burmus
CINCIK from Turkey into Bulgaria via an automobile. CINCIK was arrested while preparing
the heroin for transportation to Western Europe. This investigation is being conducted by the
DEA Istanbul, Turkey Resident Office, the Bulgarian NSCOC, and the Turkish National
Police.

77 Pounds of Heroin Seized in Karachi, Pakistan

On January 24, 2006, the Pakistani Anti-Narcotics Force (ANF) seized 77 pounds of heroin
and arrested four individuals in Karachi, Pakistan following a joint investigation with the DEA.
The heroin was smuggled from Afghanistan and was destined for the United Kingdom. The
ANF arrested two Pakistani nationals and two United Kingdom/Pakistani dual-citizens. This
investigation was being conducted by the DEA Islamabad, Pakistan Country Office, the DEA
Peshawar, Pakistan Resident Office, the Pakistani ANF, and the Pakistani Sensitive
Investigative Cell.

United States and Mexican Agents Discovered a Cross-Border Tunnel Containing More
Than Two Tons of Marijuana

On January 25, 2006, agents of the DEA Tijuana, Mexico Resident Office discovered a cross-
border tunnel that had been utilized to smuggle marijuana from Mexico into the United States.
In a joint investigation with Mexican authorities, police officials seized approximately two tons
of marijuana from within the tunnel on the Mexican side and approximately 300 pounds of
marijuana from within the tunnel on the California side. The tunnel, believed to be the largest
and most sophisticated ever discovered along the border, extends north approximately 1,262
yards, and exits at a vacant warehouse in San Diego, California. This investigation was

                                    128
                         REDACTED – PUBLIC VERSION
                         REDACTED – PUBLIC VERSION
                                                                             APPENDIX VI
conducted with the DEA San Ysidro, California Resident Office, the Bureau of Immigration
and Customs Enforcement (ICE), the U.S. Border Patrol, the Joint Interagency Task Force-
North, and the Mexican Policia Federal Preventiva.

International Heroin Trafficking Organization Dismantled in a Priority Target
Organization Investigation

On January 25, 2006, agents from the DEA New York Division Office, along with local
authorities and Panamanian federal officials, arrested 16 individuals, resulting in the
dismantlement of an international heroin trafficking organization. Nine individuals, including
organization leader Silverio GUZMAN, were arrested in New York. The remaining seven
defendants, including two of the organization’s suppliers, were arrested in Panama. Since
August 2004, the GUZMAN organization used internal couriers to smuggle approximately
eight kilograms of heroin per month from Panama to New York. To date, this nine-month
PTO investigation, dubbed Operation Bronx Tale, has resulted in the arrest of 21 individuals
and the seizure of 2 kilograms of heroin, $12,000 in United States currency, and 2 firearms.
This investigation was supported by the DEA Special Operations Division and conducted with
the DEA Panama City, Panama Country Office, ICE, the New York City Police Department,
the New York City Special Narcotics Prosecutor’s Office, the Panamanian Judicial Police
Sensitive Investigations Unit, and the Office of the Panamanian Prosecutor.

26 Kilograms of Heroin Seized in Yuksekova, Turkey

On January 28, 2006, the Turkish National Police seized 26 kilograms of heroin in Yuksekova,
Turkey as the result of a DEA PTO investigation. Ten members of a Turkey-based heroin
trafficking organization were arrested in Yuksekova and Istanbul, Turkey in connection with
the seizure. This investigation resulted in 22 arrests and the seizure of 188 kilograms of
cocaine. This investigation was conducted by the DEA Ankara, Turkey Regional Office, the
Istanbul, Turkey Resident Office, and the Turkish National Police.

22 Members of an International Heroin Smuggling Ring Arrested as a Result of an
Organized Crime and Drug Enforcement Task Force Investigation

On February 1, 2006, the DEA New York Division Office announced the arrest of 22
Colombian nationals responsible for the smuggling of 24 kilograms of heroin into the United
States in a 20-month period. Eight of the individuals were arrested in Colombia on provisional
arrest warrants and are in custody pending their extradition to the United States. The Medellin-
based smuggling organization used various smuggling methods, including surgically
implanting heroin packets into puppies that were seemingly bred for that purpose. This two-
year OCDETF investigation, dubbed Operation Liquid Heroin, was supported by the DEA
SOD and was conducted by the DEA New York, Miami, Florida, and Atlanta, Georgia
Division Offices, the Bogotá, Colombia Country Office, the Colombian National Police Heroin
Task Force, the Johnston County (North Carolina) Sheriff’s Department, and the U.S.
Attorney’s Office for the Eastern District of New York.




                                    129
                         REDACTED – PUBLIC VERSION
                         REDACTED – PUBLIC VERSION
                                                                            APPENDIX VI
Arrest of CPOT Oscar ARRIOLA-Marquez in Mexico

On February 2, 2006, officers of the DEA-sponsored sensitive investigative unit of the Agencia
Federal de Investigaciones arrested CPOT Oscar Arturo ARRIOLA-Marquez in Torreon,
Coahuila State, Mexico pursuant to the U.S. request for his provisional arrest. A grand jury
sitting in the U.S. District Court for the District of Colorado indicted ARRIOLA-Marquez and
several others in December 2003 for drug trafficking. Oscar ARRIOLA-Marquez is the head
of a major cocaine trafficking and money laundering organization. During the past several
years, agents of DEA have seized nearly 2,000 kilograms of cocaine and over $11 million in
drug proceeds from ARRIOLA-Marquez organization members in the United States. The
Government of Mexico has seized in excess of $37 million in assets from the ARRIOLA-
Marquez organization. Additionally, on June 1, 2005, Oscar ARRIOLA-Marquez was
identified by President Bush as a Foreign Narcotics Kingpin under the Foreign Narcotics
Kingpin Designation Act.

Investigation Resulted in the Seizure of 2,500 Kilograms of Cocaine in the Eastern Pacific
Ocean

On February 7, 2006, information provided by the DEA EPIC resulted in the seizure by the
U.S. Coast Guard of 2,500 kilograms of cocaine from a Peruvian-flagged fishing vessel in the
Eastern Pacific Ocean, west of Chimbote, Peru. Three Peruvian and four Ecuadorian nationals
were arrested. This investigation was conducted with DEA Lima, Peru Country Office and the
Joint Interagency Task Force-South.

942 Kilograms of Cocaine Seized in Colon, Panama

On February 8, 2006, the Panama Judicial Police (PTJ) seized 942 kilograms of cocaine in
Colon, Panama following a joint investigation with DEA. The cocaine was seized from a
cargo container and was being prepared for transportation on an ocean freighter to the
Netherlands. No arrests were made. This investigation is being conducted by the DEA
Panama City, Panama Country Office and the PTJ.

Former CPOT Zalmai IBRAHIMI and His Associates Sentenced to Lengthy Imprisonment

On February 15, Muzaffar KHAN-AFRIDI and Alamdar KHAN-AFRIDI were sentenced in
the District of Maryland to life imprisonment and 30 years imprisonment, respectively, for
trafficking in heroin and hashish. The men were responsible for smuggling hundreds of
kilograms of heroin and hashish from Southeast and Southwest Asia into the United States,
Canada, Africa, and Europe. Former CPOT Zalmai IBRAHIMI was a member of the
organization and was sentenced to 78 months in prison after testifying against the KHAN-
AFRIDIs. In August 2003, the KHAN-AFRIDIs and IBRAHIMI were arrested in Thailand
after a grand jury in the District of Maryland returned a 22-count indictment against them and
eight associates for trafficking in heroin and hashish. During the investigation, more than 27
kilograms of heroin were seized from the KHAN-AFRIDI organization. This was a joint
investigation between the DEA Washington Division Office and the Federal Bureau of
Investigation (FBI). Other DEA offices that participated in this investigation were the New

                                    130
                         REDACTED – PUBLIC VERSION
                         REDACTED – PUBLIC VERSION
                                                                            APPENDIX VI
York and San Francisco Division Offices, and the Bangkok, Thailand, the Islamabad, Pakistan,
the London, England, the Ottowa, Canada, and the Rome, Italy Country Offices.

Seizure of 1,628 Kilograms of Cocaine and $293,000 in Panama in an Organized Crime and
Drug Enforcement Task Force Investigation

On February 17, 2006, the Panama Judicial Police arrested nine individuals and seized 1,628
kilograms of cocaine and $293,000 in U.S. currency in La Chorrera, Panama, following a joint
investigation with the DEA. The cocaine was destined for Mexico. This OCDETF
investigation was supported by the DEA SOD and conducted by the DEA Panama City,
Panama Country Office, and the DEA Houston, Texas Division Office.

272 Kilograms of Opium Seized in Uzbekistan

On February 19, 2006, the Uzbek National Police SIU seized 272 kilograms of opium in
Surkhandarya, Uzbekistan, following a joint investigation with the DEA Tashkent Country
Office. The opium was destined for Russia and Kazakhstan. Three Uzbek nationals were
arrested.

Extradition of CPOT target Zeev ROSENSTEIN

On February 16, 2006, Israeli Justice Minister Tzipi Livni signed an order requiring the
extradition of CPOT Zeev ROSENSTEIN to the United States to face charges of conspiracy to
distribute MDMA. In December 2004, a grand jury sitting in the U.S. District Court for the
Southern District of Florida indicted ROSENSTEIN on charges of conspiracy to import
MDMA into the United States and conspiracy to distribute MDMA. ROSENSTEIN was
arrested in Israel in November 2004. ROSENSTEIN was the leader of an Israeli criminal
organization responsible for financing, coordinating and smuggling multi-million tablet
shipments of MDMA from Belgium and Holland to the United States, Israel and Europe.
Between 2002 and 2006, the ROSENSTEIN organization imported millions of MDMA tablets
per month into the United States. This OCDETF investigation was conducted by the Miami
Division Office and resulted in 95 arrests, and the seizure of 4.8 million MDMA tablets, 45.5
kilograms of cocaine, 17 weapons, and $2,606,155 million in assets.

CPOT Top Lieutenants Sentenced to Lengthy Imprisonment

On February 27, 2006, Juan Carlos MONTOYA-Sanchez and Carlos Felipe TORO-Sanchez
were sentenced in the Southern District of Florida to 22 and 19 years imprisonment,
respectively, for conspiracy to import cocaine into the United States. MONTOYA-Sanchez is
the brother, and TORO-Sanchez the cousin, of CPOT Diego Leon MONTOYA-Sanchez,
leader of the North Valley Cartel and one of the most powerful cocaine traffickers in
Colombia. During the period from 1995 until 2003, Juan Carlos MONTOYA-Sanchez and
TORO-Sanchez were responsible for the production and shipment of 30,000 kilograms of
cocaine to the United States. A grand jury sitting in the U.S. District Court for the Southern
District of Florida indicted Juan Carlos MONTOYA-Sanchez and TORO-Sanchez in January
2004 following an OCDETF investigation conducted by the Miami Division Office and the

                                    131
                         REDACTED – PUBLIC VERSION
                          REDACTED – PUBLIC VERSION
                                                                               APPENDIX VI
FBI. They were arrested in Colombia in December 2003, extradited to the United States in
2005, and pleaded guilty on November 18, 2005.

Airline Chief of Security Pleaded Guilty to Cocaine Smuggling Charges

On February 28, 2996m Stephanie AMBROISE, former director of security for American
Airlines at the Port-au-Prince Airport in Haiti, pleaded guilty in the Southern District of Florida
to conspiracy to import cocaine into the United States. AMBROISE was associated with
several drug traffickers and used her security director position at the Port-au-Prince airport to
bypass security. Specifically, AMBROISE handed cocaine-laden bags to baggage handlers
without going through the normal inspection process. During the period from 2001 until 2003,
AMBROISE was responsible for the shipment of more than 1,300 pounds of cocaine from
Haiti to the United States per month and received $2,000 in payment for each kilogram of
cocaine smuggled. AMBROISE was arrested in October 2004 as the result of an OCDETF
investigation conducted by the Miami Division Office. The investigation was conducted with
ICE, the FBI, and the Internal Revenue Service (IRS).

Belizean Cocaine Trafficker Convicted for Threatening to Kill Federal Agents and
Trafficking in Cocaine

On March 1, 2006, Belizean national Robert James HERTULAR was convicted in the
Southern District of New York on charges of threatening to kill federal agents and conspiracy
to import ton-quantities of cocaine into the United States. In May 2001, HERTULAR was
arrested in Belize by Belizean authorities after they seized more than one ton of Colombian
cocaine that HERTULAR was attempting to send to the United States. In December 2003,
while out on bail, HERTULAR told DEA agents he would hire “Colombian hit men” to kill
them if they continued the investigation against him. Prior to his arrest, HERTULAR was
responsible for four cocaine shipments to the United States of more than one ton each.
HERTULAR was extradited to the United States in June 2004, and faces a sentence of between
ten years imprisonment to life imprisonment upon sentencing. This investigation was
conducted by the New York Division Office, the Belize Country Office, the Belize Police
Department, and the Belize Department of Public Prosecutions.

Financial CPOT Ricardo Mauricio BERNAL Palacios Arrested in Colombia

On March 2, 2006, the Colombian National Police arrested Financial CPOT Ricardo Mauricio
BERNAL and his brother Juan BERNAL in Colombia. The arrests were pursuant to
provisional arrest warrants that resulted from a two-year long OCDETF investigation
conducted by the Miami Division Office. In February 2006, a grand jury sitting in the U.S.
District Court for the Southern District of Florida indicted the BERNAL brothers on 48 counts
of money laundering and one count of conspiracy to distribute cocaine. BERNAL utilized the
Mexican casa de cambio Ribadeo to launder his and other drug traffickers’ bulk currency drug
proceeds, which were then sold via the Colombian Black Market Peso Exchange to money
brokers in Colombia. In addition, the BERNAL organization arranged the transportation of
cocaine for his own organization for distribution in Spain as well as for Mexican drug
trafficking organizations for distribution in the United States. Spanish authorities seized 2,000

                                     132
                          REDACTED – PUBLIC VERSION
                         REDACTED – PUBLIC VERSION
                                                                           APPENDIX VI
kilograms of cocaine and 16.7 million euros (approximately $22 million in U.S. currency)
belonging to BERNAL. The investigation documented in excess of $300 million laundered by
the BERNAL organization through U.S. bank accounts held by casa de cambio Ribadeo, and
casa de cambio Catorce, another Mexican money exchange. Also participating in this
investigation were the Bogotá, Colombia, Madrid, Spain, and Mexico City Country Offices.

Seizure of 6.1 Tons of Cocaine in Ecuador

On March 9, 2006, the Ecuadorian National Police (ENP) seized 5,562 kilograms of cocaine
from a shipping container in Guayaquil, Ecuador, following a joint investigation with the DEA
Guayaquil, Ecuador Resident Office. The cocaine originated from Buenaventura, Colombia
and was destined for Panama. The ENP arrested the president and manager of the company
responsible for shipping the container.

Julio Cesar LOPEZ Pena, Top Lieutenant in the Norte Valle Cartel, Extradited to the
United States

On March 15, 2006, Julio Cesar LOPEZ Pena, a top lieutenant for Colombian Norte Valle
Cartel leader Wilmer Alirio VARELA, was extradited from Colombia to the United States to
face racketeering (RICO) charges in the Southern District of New York. The indictment
alleges that from 1990 through May 2004, the Norte Valle Cartel was responsible for the
importation of approximately 500 metric tons of cocaine, valued at more than $10 billion, into
the United States. Since at least 1998, LOPEZ Pena was responsible for the production of
hundreds of kilograms of cocaine each week, most of which was destined for the United States.
If convicted, LOPEZ Pena faces a minimum mandatory sentence of ten years imprisonment
and a maximum sentence of life imprisonment. The indictment also seeks forfeiture of $100
million in illicit proceeds. This investigation was conducted by the New York Organized
Crime and Drug Enforcement Strike Force, which is comprised of representatives from the
DEA, the FBI, ICE, the Bureau of Alcohol, Tobacco, Firearms, and Explosives (ATF), the
IRS, the U.S. Marshals Service, the New York State Police, and the New York City Police
Department.

Operation Firewall Seizure of 3.3 Tons of Cocaine and $5.8 Million

During March, May and August 2006, based on information from the DEA Cartagena,
Colombia Resident Office, the U.S. Coast Guard seized 3.3 tons of cocaine and $5.8 million
from merchant ships near Honduras and Colombia. Nine crew members from Ecuador,
Guatemala, and Mexico were arrested and will be prosecuted in the United States. The seizure
and arrests were the result of DEA’s Operation Firewall, an ongoing multi-agency cocaine
interdiction program designed to stem the flow of cocaine from the northern coast of
Colombia. Since its inception in July 2003, Operation Firewall personnel have seized more
than 33.3 tons of cocaine and have assisted in the seizure of more than 71 additional tons of
cocaine.




                                    133
                         REDACTED – PUBLIC VERSION
                          REDACTED – PUBLIC VERSION
                                                                               APPENDIX VI
International Cocaine Smuggling Ring Dismantled as a Result of an OCDETF Investigation

On March 30, 2006, the DEA New York Division Office arrested 11 individuals, resulting in
the dismantlement of an organization that smuggled 200 kilograms of cocaine per month into
the United States over the last five years. The Mexico-based organization used various
smuggling methods, including concealing cocaine inside tombstones and religious statues of
the Virgin Mary. To date, this one-year OCDETF investigation, dubbed Operation Omni
Presence, has resulted in the seizure of 194 kilograms of cocaine and $475,000 in U.S.
currency. This international investigation was supported by SOD and was conducted by the
New York Division Office and the Mexico City Country Office, and the Police Departments of
New York City and Nassau County (New York).

Investigation Resulted in the Seizure of 2.75 Tons of Cocaine in the Eastern Pacific Ocean

On April 1, 2006, information provided by the DEA EPIC resulted in the seizure by the U.S.
Coast Guard of 2.75 tons of cocaine from a go-fast vessel in the Eastern Pacific Ocean near the
Galapagos Islands, Ecuador. A second go-fast vessel also was intercepted; however the crew
jettisoned a cargo of cocaine that was estimated to be equal in volume to the amount seized.
Three Mexican national crew members were detained for possible prosecution. This
investigation was conducted with the DEA Guayaquil, Colombia and Mazatlan, Mexico
Resident Offices, the DEA Tampa, Florida District Office, and the Joint Interagency Task
Force-South.

OCDETF Investigation Resulted in the Arrest of Weapons Suppliers with Possible Ties to a
Colombian Terrorist Organization

On April 5, 2006, Panamanian authorities arrested Harol SUAREZ Garcia, Dario CASTRO,
and Carlos BARRETO Sierra for conspiracy to trade cocaine for weapons that they claimed
were to be supplied to the Autodefensas Unidas de Colombia (AUC). The charges resulted
from an OCDETF investigation conducted by the DEA Las Vegas, Nevada District and
Nicaragua Country Offices. SUAREZ Garcia, CASTRO, and BARRETO negotiated to
provide 700 - 1,000 kilograms of cocaine in exchange for military weapons, including assault
rifles and grenade launchers. This investigation was supported by SOD and conducted with the
DEA Miami and New York Division Offices, the DEA Panama City, Panama and Kingston,
Jamaica Country Offices, and the DEA Cartagena, Colombia Resident Office.

Investigation Resulted in the Arrest of Nine Current or Former Members of the Colombian
National Police and the Seizure of 1,832 Kilograms of Cocaine

Between April 3 - 5, 2006, the Policia Nacional de Colombia Direccion de la Policia Judicial y
Investigaciones de Cali, in conjunction with the DEA Bogotá Country Office, arrested nine
current or former members of the Colombian National Police and seized 1,832 kilograms of
cocaine. Seven of the nine arrested individuals were arrested on Provisional Arrest Warrants
issued out of the Southern District of New York, where they were indicted on charges that
include possession with intent to distribute, conspiracy to possess with intent to distribute, and
importation to the United States. The arrested individuals assisted the Norte Valle Cartel, and

                                     134
                          REDACTED – PUBLIC VERSION
                         REDACTED – PUBLIC VERSION
                                                                              APPENDIX VI
during October 2005, were responsible for the transportation of 409 kilograms of cocaine from
Bogotá to Mexico, where the cocaine was seized by Mexican authorities. To date, this seven-
month investigation has resulted in the seizure of 2,241 kilograms of cocaine. This
international investigation was supported by SOD and was conducted by the DEA Bogotá
Country Office with the DEA New York Division Office, ICE, and the Colombian National
Police.

Mexican Citizen Extradited from Mexico to the United States to Face Cocaine and
Methamphetamine Conspiracy Charges

On April 5, 2006, Santiago GOICOCHEA Diaz, a Mexican citizen and leader of a cocaine and
methamphetamine trafficking organization, was extradited from Mexico to the United States to
face cocaine and methamphetamine conspiracy charges as well as charges of money
laundering. In May 2004, the Mexican Agencia Federal de Investigaciones (AFI) arrested
GOICOCHEA Diaz in Acapulco, Mexico on a Provisional Arrest Warrant issued out of the
District of Oregon. GOICOCHEA Diaz and five other individuals were indicted in January
2000 in the District of Oregon as the result of a four-year OCDETF investigation led by the
DEA Portland, Oregon District Office. Between 1994 and 1998, GOICOCHEA Diaz was
responsible for the distribution of cocaine and methamphetamine in California, Oregon,
Oklahoma, and Arkansas, as well as the laundering of the drug profits. To date, this
investigation has resulted in 39 arrests and the seizure of nearly ten kilograms of cocaine. This
investigation was conducted with the IRS and the Clatsop County (Oregon) Sheriff’s
Department.

Internet Pharmaceutical Trafficker Convicted of Operating a Continuing Criminal
Enterprise

  On April 17, 2006, a jury in the U.S. District Court for the Eastern District of Pennsylvania
found Akhil BANSAL guilty of operating a continuing criminal enterprise. The jury also
found BANSAL and a co-defendant guilty of conspiracy and money laundering. BANSAL
was the leader of an international pharmaceutical distribution organization that used rogue
Internet pharmacies to dispense controlled substances directly to customers without a medical
evaluation by a physician. Between July 2003 and April 2005, the BANSAL organization was
responsible for the distribution of more than 2.5 million dosage units of Schedule II through IV
pharmaceutical controlled substances per month. BANSAL supplied ten separate drug
organizations that together operated over 200 websites. In April 2005, DEA arrested BANSAL
and 19 other members of his organization as the result of Operation Cyber Chase, a one-year
OCDETF investigation that resulted in the dismantlement of the BANSAL organization, the
arrest of 24 individuals, and the seizure of more than 9 million dosage units of Schedule II – IV
controlled substances; 231 pounds of Ketamine; and $8.6 million U.S. currency. This
investigation was coordinated by the DEA SOD and conducted by DEA offices in
Philadelphia, New York City, Rochester, New York, New Delhi, India, Vienna, Austria,
Canberra, Australia, and San Jose, Costa Rica. Other agencies participating in this cooperative
investigation included the FBI, ICE, the U.S. Food and Drug Administration, the U.S. Postal
Inspections Service, the IRS, the Australian Federal Police, the Narcotics Control Board of



                                    135
                         REDACTED – PUBLIC VERSION
                         REDACTED – PUBLIC VERSION
                                                                            APPENDIX VI
India, the Costa Rican Judicial Police, Drug Control Police, and Drug Institute, and numerous
U.S. state and local law enforcement agencies.

Expulsion of Member of Colombian Para-Military Drug Trafficking Organization from
Nicaragua to the United States to Face Drug Charges

On April 19, 2006, the Nicaraguan government expelled Colombian national Luis Angel
GONZALEZ Largo to the United States, to face drug charges in U.S. District Court, District of
Columbia. On April 13, 2004, Nicaraguan National Police arrested GONZALEZ Largo and
seized $746,000 in U.S. currency that GONZALEZ Largo intended to use to purchase arms for
the Autodefensas Unidas de Colombia (AUC) para-military organization. He also was
arranging to ship cocaine to Mexico as payment for the weapons. On December 20, 2006, a
Federal Grand Jury in the District of Columbia indicted GONZALEZ Largo for intent to
import cocaine to the United States and intentionally importing cocaine to the United States.
The indictment was the result of Operation Mountain Mist, a two-year SOD supported
investigation targeting the AUC and its leaders, CPOT Hernan GIRALDO Serna, Rodrigo
TOVAR Pupo. The AUC utilizes violence to control drug trafficking and transportation in the
area of Colombia’s North Coast. As a member of the AUC, GONZALEZ Largo was involved
in trading multi-hundred kilograms of cocaine for weapons. During the previous two to three
years, GONZALEZ Largo was involved in the transportation of more than 2,500 AK-47
assault rifles from Nicaragua to Colombia for the AUC and was involved in smuggling
millions of dollars in drug proceeds from Texas to Guatemala. This investigation was
conducted by DEA offices in Cartagena, Colombia, Managua, Nicaragua, Panama City,
Panama, Kingston, Jamaica, Miami, New York, Las Vegas, and SOD.

285 Pounds of Heroin Seized in Uzbekistan

On April 19, 2006, the DEA-sponsored Uzbekistan Sensitive Investigative Unit (SIU) seized
285 pounds of heroin and arrested one individual in Sarosiyo District, Surkhandarya Region,
Uzbekistan. This was the largest ever heroin seizure conducted by the Uzbekistan SIU, which
was established in March 2003. The heroin was smuggled from Afghanistan and was destined
for St. Petersburg, Russia. This investigation was conducted by the DEA Uzbekistan Country
Office and the Uzbekistan SIU.

Afghanistan Heroin Traffickers Convicted and Sentenced by Afghanistan Tribunal

On April 23, 2006, defendants Misri KHAN, Haji BAHRAM, and Noor ULLAH were found
guilty of heroin trafficking offenses in Kabul, Afghanistan by the Kabul, Afghanistan Central
Narcotics Tribunal. The tribunal sentenced each man to 17 years imprisonment. Their
conviction was the result of a four-month investigation conducted with the DEA Kabul
Country Office. KHAN was the leader, and BAHRAM and ULLAH were members, of an
organization that manufactured and exported large shipments of heroin from Afghanistan and
Pakistan to the United States, Asia, and Europe. In September 2004, a grand jury in the
Southern District of New York indicted the three men for conspiracy to import 440 pounds of
heroin into the United States. Removal of the three men from Afghanistan to the United States
was stayed by Afghan President Hamid Karzai pending the outcome of the tribunal

                                    136
                         REDACTED – PUBLIC VERSION
                         REDACTED – PUBLIC VERSION
                                                                             APPENDIX VI
proceedings. This was the first significant trial and conviction in the Afghan Central Narcotics
Tribunal.

First-Ever Crack Cocaine Seizure in Chile

On April 18, 2006, the Policia De Investigaciones De Chile seized 27 kilograms of crack
cocaine and arrested three Chilean nationals in Arica, Chile. The seizure, which resulted from
an investigation conducted by the DEA Santiago, Chile Country Office, is the first-ever seizure
of crack cocaine in Chile. The seizure was linked to a crack cocaine trafficking organization
that is responsible for the transportation of 90 kilograms of crack cocaine per month from Peru
into Chile. This investigation is being conducted with the DEA Lima, Peru Country Office and
the Policia De Investigaciones De Chile.

Marijuana Trafficking Organization Dismantled in an OCDETF Investigation
On April 22, 2006, the DEA Anchorage, Alaska District Office arrested six individuals,
resulting in the dismantlement of the Thomas RANES marijuana trafficking organization.
During the past five years, the RANES organization was responsible for the distribution of
approximately 350 pounds of high-potency marijuana per month in Alaska. Also during that
time, the RANES organization laundered between $4 and $6 million per year in Alaska,
Washington, Alabama, Canada, and Ukraine. This six-month OCDETF investigation has
resulted in the arrest of 6 individuals, including RANES, and the seizure of 347 pounds of
marijuana, real property valued at $1.5 million, $90,700 in U.S. currency, more than 30
vehicles, and 18 firearms, including a fully automatic assault rifle. This investigation was
conducted with ICE, Customs and Border Protection, the IRS Criminal Investigation Division,
the FBI, ATF, the Alaska State Police, the Anchorage Police Department, and the Royal
Canadian Mounted Police.

International Cocaine Transportation Organization Dismantled in Ecuador

On May 13 - 16, 2006, the Ecuadorian National Police, in conjunction with agents from the
DEA Guayaquil Resident Office, arrested 68 individuals and seized ten fishing vessels,
resulting in the dismantlement of the Carlos CELI maritime cocaine trafficking organization.
Since March 2005, the CELI organization was responsible for the transportation of 4 - 5 tons of
cocaine per month through Ecuador and on to Mexico and the United States. In 2005, the U.S.
Coast Guard seized cocaine loads from seven Ecuadorian-flagged fishing vessels operated by
the CELI organization in the Eastern Pacific Ocean. Those seized drug shipments ranged from
two to seven metric tons. Among those arrested was Nestor GOMEZ Estupinan, a Colombian
National and former member of the Autodefensas Unidas de Colombia (AUC) paramilitary
organization, who provided security for the CELI organization. GOMEZ Estupinan is wanted
in Colombia for drug trafficking charges. To date, this two-year investigation has resulted in
the arrest of more than 100 individuals, including CELI, and the seizure of approximately 34
metric tons of cocaine. DEA offices in Ecuador, Colombia, Tampa, Key West and Key Largo,
Florida conducted this investigation with the U.S. Coast Guard, the Joint Inter-Agency Task
Force-South (JIATF-South), and the Ecuadorian National Police.



                                    137
                         REDACTED – PUBLIC VERSION
                          REDACTED – PUBLIC VERSION
                                                                               APPENDIX VI
CPOT Pablo RAYO Montano Arrested and His Organization Dismantled

On May 16, 2006, the Brazilian Federal Police arrested CPOT Pablo RAYO Montano in Sao
Paulo, Brazil, and in an operation coordinated by DEA, law enforcement teams in four U.S.
cities and five foreign countries arrested 52 individuals, resulting in the dismantlement of the
RAYO Montano cocaine trafficking organization. RAYO Montano started in the narcotics
business as a transporter in Buenaventura, Colombia approximately 20 years ago. In the last
four years alone, the RAYO Montano organization has been responsible for the transportation
of 15 tons of cocaine per month from South America to the United States and Europe. RAYO
Montano has been linked to the notorious Norte del Valle Cartel, the Autodefensas Unidas de
Colombia (AUC) paramilitary organization, the Fuerzas Armadas Revolucionarias de
Colombia (FARC) terrorist organization, and corrupt high-level officials in the Colombian
government. On February 22 and March 3, 2006, federal grand juries in the District of
Columbia and the Southern District of Florida, respectively, indicted RAYO Montano on
money laundering and cocaine trafficking charges. The indictments were the result of
Operation Twin Oceans, a three-year OCDETF investigation supported by the DEA SOD.
Operation Twin Oceans resulted in 138 arrests and the seizure of 47,550 kilograms of cocaine,
700 pounds of marijuana, ten kilograms of heroin, $1.6 million dollars in U.S. currency, and
other assets with a total estimated value of $47 million, including three islands near the coast of
Panama. Operation Twin Oceans was conducted by DEA offices in Cartagena, Colombia,
Panama City, Panama, Sao Paulo, Brazil, Mexico City, Mexico, Guayaquil, Ecuador, Caracas,
Venezuela, Madrid, Spain, Miami, Florida, New York, New York, Chicago and Danville,
Illinois, and the SOD. DEA conducted Operation Twin Oceans with national police in
Colombia, Panama, Brazil, Ecuador, Spain, and Her Majesties Revenue and Customs.

Extradition of Financial CPOT Gabriel PUERTA-Parra
On May 23, 2006, Colombia extradited former financial CPOT Gabriel PUERTA-Parra to the
United States to face charges that include violation of the RICO Act, conspiracy, cocaine
trafficking, and money laundering. PUERTA-Parra was arraigned in U.S. District Court for
the Southern District of Florida the following day. PUERTA-Parra, a former attorney for the
Departmento Administrativo de Seguridad, the Colombian equivalent to the FBI, was a key
counselor and advisor to the North Valley Cartel since the 1980s, and an attorney for former
Medellín Cartel leader Pablo ESCOBAR. PUERTA-Parra utilized a large range of legitimate
businesses, including investment and real estate companies, agricultural enterprises, and
currency exchanges to launder drug proceeds through the United States, Mexico, Colombia,
Ecuador, and Vanuatu.

Colombian Heroin Kingpin Sentenced to 40 Years in Prison

On May 31, 2006, United States District Judge Robert P. Patterson, Southern District of New
York, sentenced Ramiro LOPEZ Imitola to 40 years imprisonment for importing cocaine into
the United States. Judge Patterson also ordered LOPEZ Imitola to forfeit $200 million in
assets. The charges were the result of a three-year OCDETF investigation conducted by the
DEA New York Division Office and the DEA Caracas, Venezuela Country Office. LOPEZ
Imitola was the leader of a Cucuta, Colombia and Caracas, Venezuela-based heroin trafficking
organization that from 1997 – 2003 imported more than 2,000 kilograms of heroin, worth an

                                     138
                          REDACTED – PUBLIC VERSION
                         REDACTED – PUBLIC VERSION
                                                                            APPENDIX VI
estimated $200 million, into the United States. LOPEZ Imitola used more than 250 human
couriers recruited in both Venezuela and the United States to smuggle Colombian heroin into
the U.S. from Venezuela by ingesting pellets of heroin or transporting heroin-laden suitcases.
Colombian authorities arrested LOPEZ Imitola in April 2003 and extradited him to the United
States in February 2004. LOPEZ Imitola pleaded guilty on March 15, 2005. This investigation
resulted in the arrest of 17 members of the LOPEZ Imitola organization, and the seizure of
more than 50 kilograms of heroin. DEA conducted this investigation with ICE, the New York
State Police, the New York City, Miami Beach and Coral Gables, Florida Police Departments,
the Venezuelan Judicial Police, and the Colombian National Police.

International Money Laundering and MDMA Trafficking Organization Dismantled in an
OCDETF Investigation
On June 1, 2006, DEA agents arrested four individuals in the United States and Dutch
authorities arrested five individuals in The Netherlands, resulting in the dismantlement of the
Alexandre De BASSEVILLE money laundering and MDMA trafficking organization. The De
BASSEVILLE organization imported MDMA into the United States and laundered drug
proceeds through Limelight Films, Inc., a Hollywood, California-based movie studio. Among
those arrested were the chief executive officer of Limelight Films, an executive with Los
Angeles-based Bank of America, and a supplier of MDMA based in The Netherlands. This
two-year OCDETF investigation also resulted in the seizure of 10,000 MDMA tablets. This
investigation was supported by the DEA SOD and conducted by DEA offices in Washington,
D.C., Los Angeles, California, Bern, Switzerland, and The Hague. DEA conducted this
investigation with the IRS, the FBI, the ATF, and the Arlington, Virginia Police Department.

First-Ever Judicial Wire Intercept in Thailand Resulted in Three Arrests

On June 1, 2006, Thailand authorities arrested Henry SICHONE, Andrew SARPONG, and
Yahuza YAKUBU in Bangkok, Thailand. The arrests were the result of a joint investigation
between the DEA Bangkok Country Office and Thailand authorities that included the first-ever
judicial wire intercept in Thailand. SICHONE and SARPONG were arrested pursuant to
Provisional Arrest Warrants issued by the Southern District of New York on March 28, 2006.
YAKUBU was arrested as a result of selling heroin and cocaine to a DEA undercover agent.
The investigation was part of Operation Ivory Triangle, a 30-month multi-jurisdictional
OCDETF investigation targeting West African heroin and money laundering organizations
responsible for sending multi-kilogram quantities of heroin from Pakistan and Thailand to the
United States, Europe, and Asia. Operation Ivory Triangle, which was coordinated by the
DEA SOD, resulted in the arrests of 205 individuals and the seizures of approximately 91
kilograms of heroin, 22 kilograms of cocaine, seven kilograms of marijuana, 10,667 MDMA
tablets, 24 vehicles, one vessel, and approximately $2.5 million in U.S. currency.

International Heroin Trafficking Organization Dismantled in an OCDETF Investigation

On June 14 – 15, 2006, DEA agents arrested 12 individuals in Las Vegas, Nevada, Palm
Springs, California, Caguas, Puerto Rico, and New York City, resulting in the dismantlement
of the Javier MONROY heroin trafficking organization. Since 2004, the MONROY
organization has been responsible for importing more than 200 kilograms of heroin into the

                                    139
                         REDACTED – PUBLIC VERSION
                         REDACTED – PUBLIC VERSION
                                                                              APPENDIX VI
United States. MONROY is a former Bogotá, Colombia police officer. The MONROY
organization used couriers to smuggle heroin from several foreign countries, including
Ecuador, Venezuela, Trinidad and Tobago, Colombia, Brazil, and Mexico, to New York for
distribution. The organization employed more than a dozen drug couriers, many of whom
made multiple drug trips and most of whom were based in the Las Vegas area. Typically, the
drug couriers smuggled between three to five kilograms of heroin per trip concealed within the
lining of clothes. This 10-month OCDETF resulted in the arrest of 22 individuals, including
MONROY, and the seizure of 28 kilograms of heroin and $220,000 in U.S. currency. DEA
offices in New York and Las Vegas conducted this investigation with ICE, the Counter Drug-
Crime Task Force of the Ministry of National Security of the Republic of Trinidad and
Tobago, and the Ecuadorian National Police.

PTO Bernardo Armando De La CERRA Extradited to the United States

On June 14, 2006, the Mexican Government extradited Bernardo Armando De La CERRA
from Mexico to San Diego, California. Since 1995, De La CERRA was the leader of a cocaine
trafficking organization that imported approximately 100 kilograms of cocaine per month from
Mexico into the United States. The De La CERRA organization has been linked to murders in
Los Angeles and Tijuana, Mexico and operated an underground tunnel connecting Tijuana,
Mexico and San Diego discovered in 2003. In 1997, a grand jury in the Southern District of
California indicted De La CERRA for conspiracy to distribute cocaine after an 18-month
OCDETF investigation conducted by the DEA San Diego, California Division Office. On June
11, 2006, Mexican authorities arrested De La CERRA in Tijuana, Mexico. This investigation
resulted in the dismantlement of the De La CERRA organization, 39 arrests, and the seizure of
more than 250 kilograms of cocaine and $550,000 in U.S. currency.

Cocaine and Heroin Trafficking Organization Dismantled in Colombia

On June 22, 2006, the Colombian National Police arrested 20 individuals, resulting in the
dismantlement of the Jorge William ARIAS Vera cocaine and heroin trafficking organization.
The defendants were charged with drug trafficking in the Colombian judicial system based on
an eight-month PTO investigation conducted by the DEA Cartagena Resident Office and the
CNP-SIU. During the past year, the ARIAS Vera organization was responsible for smuggling
200 kilograms of cocaine and 15 kilograms of heroin from Pereira, Colombia to the United
States and Europe through Venezuela and Mexico. The ARIAS Vera organization utilized
couriers to transport cocaine and heroin on commercial flights from Colombia to the United
States and Madrid, Spain and go-fast boats to transport the drugs from Colombia’s North Coast
to Venezuela. Once in Venezuela, commercial carriers and private aircraft were used to send
the drugs through Caribbean transit countries and Mexico to the United States and Europe. In
addition to the arrests, which included ARIAS Vera, this investigation resulted in the seizure of
approximately 100 kilograms of cocaine and 15 kilograms of heroin by Colombian authorities.

Seizure of 2 Million Pseudoephedrine Tablets in Mexico

On June 24, 2006, the Agencia Federal de Investigaciones (Mexican Federal Police) seized two
million tablets of pseudoephedrine at the Mexico City Airport. The shipment was identified
and located as the result of an ongoing investigation conducted by the DEA Brussels, Belgium
                                    140
                         REDACTED – PUBLIC VERSION
                         REDACTED – PUBLIC VERSION
                                                                            APPENDIX VI
and Mexico City Country Offices. The tablets were sent by a Brussels pharmaceutical
manufacturer for delivery to a company in Mexico that does not have a license to import
pseudoephedrine. No arrests were made. If converted, the seized pseudoephedrine could have
produced 75 kilograms of methamphetamine.

Former Member of Colombian Senate Convicted of Conspiracy to Unlawfully Import
Cocaine into the United States

On June 27, 2006, an investigation conducted by the CNP with the assistance of the DEA
Cartagena, Colombia Resident Office resulted in the federal conviction of Samuel Santander
LOPESIERRA, for conspiracy to unlawfully import cocaine into the United States.
LOPESIERRA, a former Colombian Senator from 1993 to 1996, was arrested in October 2002
in Maicao, Colombia and was extradited in August 2003 to the United States. From 1999 to
2002, LOPESIERRA and his associates were responsible for smuggling shipments of hundreds
of kilograms of cocaine from the north coast of Colombia to the United States, and for
laundering the proceeds so they could be repatriated through Puerto Rico, New York, and
Miami back to Colombia. LOPESIERRA, along with 12 other Colombian nationals, were
indicted in September 2002, following a 2-year PTO investigation called Operation Conquista,
which resulted in the seizure of more than 650 kilograms of cocaine and more than $1.5
million in United States currency. With one exception, all of the defendants extradited in this
case have been convicted. LOPESIERRA, who is facing a mandatory minimum sentence of
ten years and fines up to $4 million, is scheduled to be sentenced on October 27, 2006. This
investigation was coordinated by the DEA SOD, and conducted by DEA offices in New York,
New York; Miami, Florida; San Juan, Puerto Rico; Caracas, Venezuela; Curaçao; and the
Colombian National Police.

Former Mexican Federal Judicial Police Commandante Arrested For His Role in the
Kidnapping and Murder of DEA Special Agent Enrique “Kiki” Camarena

On June 26, 2006, the Mexican Agencia Federal de Investigaciones arrested former Mexican
Federal Judicial Police (MFJP) Comandante Jorge Armando PAVON Reyes in Mexico City
based on U.S. charges related to the 1985 abduction, torture, and murder of DEA Special
Agent Enrique “Kiki” Camarena. On February 7, 1985, members of the Guadalajara Cartel
kidnapped DEA Special Agent Camarena and tortured him at a house in Guadalajara, Mexico
for one and a half days before murdering him. Special Agent Camarena was assigned to the
DEA Guadalajara Resident Office and had been investigating the Cartel’s marijuana trafficking
activities at the time of his kidnapping. PAVON Reyes, an MFJP Commandante in charge of
the marijuana eradication program in the Guadalajara area at the time, was present in the house
while Special Agent Camarena was held captive, and used his position to help Cartel leaders
flee Guadalajara two days after the kidnapping. In July 1993, a grand jury in the Central
District of California indicted PAVON Reyes for racketeering, kidnapping of a federal agent,
and accessory to murder charges. The indictment was the result of a three-year investigation
conducted by the DEA Los Angeles Division Office and the U.S. Attorney’s Office for the
Central District of California.




                                    141
                         REDACTED – PUBLIC VERSION
                         REDACTED – PUBLIC VERSION
                                                                            APPENDIX VI
“Operation Cyber Chase” Internet Pharmaceutical Trafficker Convicted of Conspiracy to
Import and Distribute Controlled Substances and Money Laundering in the U.S. District
Court for the Eastern District of Pennsylvania

 On July 17, 2006, after a trial, Sanseev SRIVASTAN was convicted of conspiracy to import
and distribute controlled substances and money laundering. SRIVASTAN oversaw the
Internet distribution of pharmaceutical controlled substances for an international organization
that used rogue Internet pharmacies to dispense controlled substances directly to customers
without a medical evaluation by a physician. Between July 2003 and April 2005,
SRIVASTAN and his co-conspirators distributed more than 2.5 million dosage units of
Schedule II, III, and IV pharmaceutical controlled substances per month. In April 2005, DEA
agents arrested SRIVASTAN and 19 other members of the organization following a one-year
OCDETF investigation that resulted in the dismantlement of the organization, the arrest of 26
individuals, and the seizure of more than 9 million dosage units of Schedule II, III, and IV
controlled substances, 231 pounds of Ketamine, and $8.6 million in U.S. currency. This
investigation was coordinated by the DEA SOD and conducted by DEA offices in
Philadelphia, New York City, Rochester, New York, New Delhi, India, Vienna, Austria,
Canberra, Australia, and San Jose, Costa Rica. Other agencies participating in this cooperative
investigation included the FBI, ICE, the U.S. Food and Drug Administration, the U.S. Postal
Inspections Service, the IRS, the Australian Federal Police, the Narcotics Control Board of
India, the Costa Rican Judicial Police, Drug Control Police, and Drug Institute, and numerous
U.S. state and local law enforcement agencies.

International Khat Trafficking Organization Dismantled in an OCDETF
Investigation

On July 26, 2006, DEA agents in ten U.S. cities arrested 48 individuals, resulting in the
dismantlement of the Bashi MUSE international khat trafficking organization. Between
December 2004 and July 2006, the MUSE organization smuggled more than 25 tons of
khat, with a street value of more than $10 million, from Kenya and Ethiopia into the
United States. Khat is a plant cultivated in the Horn of Africa. Among the active
ingredients in khat are cathinone, a Schedule I controlled substance, and cathine, a
Schedule IV controlled substance. The MUSE organization imported khat into the United
States by utilizing couriers on commercial airlines from London and by sending packages
through commercial express mail services from various countries in Western Europe.
The organization transferred khat proceeds through money remitters and banks in the
United States, to accounts in Dubai, United Arab Emirates, Europe, and Africa. Federal
grand juries in the Southern District of New York and the District of Washington indicted
44 members of the MUSE organization on money laundering and khat importation and
trafficking charges. This is the largest khat-trafficking prosecution in United States
history. The indictments were the result of Operation Somalia Express, an 18-month
OCDETF investigation supported by the DEA SOD. To date, Operation Somalia Express
has resulted in the arrest of 52 individuals, including MUSE, and the seizure of five tons
of khat, worth more than $2 million. The DEA New York Strike Force conducted this
investigation with the FBI, the New York State Police, the IRS, the Department of
Homeland Security (DHS), ICE, the New York City Police Department, the U.S.

                                    142
                         REDACTED – PUBLIC VERSION
                         REDACTED – PUBLIC VERSION
                                                                           APPENDIX VI
Marshals Service, Customs and Border Protection, the Nassau County Police Department,
and the Hennepin County Sheriff’s Department in Minnesota.

210 Kilograms of Heroin Seized in Istanbul, Turkey

On July 22, 2006, the Turkish National Police seized 210 kilograms of heroin in Istanbul,
Turkey as the result of a joint investigation with the DEA. Five members of an Istanbul-based
heroin trafficking organization, including leader Riza POLAT, were arrested while preparing
the heroin for transportation to Holland. This investigation is being conducted by the DEA
Istanbul, Turkey Resident Office and the Turkish National Police.

MDMA Trafficking Organization Dismantled in an OCDETF Investigation
On August 10, 2006, agents from the DEA Oakland, California Resident Office arrested
five individuals, resulting in the dismantlement of the Johnson MAI MDMA trafficking
organization. During the past two years, the MAI organization was responsible for the
distribution of 50,000 MDMA tablets per month in the San Francisco Bay area. The MAI
organization transported MDMA tablets from their point of manufacture in the
Netherlands to San Francisco inside leather sofas, pianos, and automobile transmissions.
In addition, the MAI organization used drug proceeds laundered through Hong Kong and
United States bank accounts to purchase San Francisco Bay area homes. This
investigation was part of Operation Sweet Tooth, a 2-year OCDETF investigation
coordinated by the DEA SOD. Operation Sweet Tooth resulted in the arrest of 322
individuals, including MAI, who was charged with operating a continuing criminal
enterprise and the seizure of more than 1 million MDMA tablets and $11 million in U.S.
currency. This investigation was led by DEA offices in Atlanta, Georgia; Los Angeles,
San Diego, Fresno, San Jose, Sacramento, and Riverside California; Chicago, Illinois;
Houston, Dallas, San Antonio, and Austin, Texas; Denver, Colorado; New Orleans,
Louisiana; Seattle, Washington; Indianapolis, Indiana; Jacksonville, Tampa, Pensacola,
and Orlando, Florida; Charlotte, North Carolina; Columbus, Ohio; Mobile, Alabama;
Gulfport, Mississippi; Albuquerque, New Mexico; Vancouver and Ottawa, Canada; and
Hanoi, Vietnam. DEA conducted this investigation with ICE, DHS, the IRS, the Royal
Canadian Mounted Police, and the California Bureau of Narcotics.

Internet Pharmaceutical Trafficking Organization Dismantled in an OCDETF Investigation

On July 25-26, 2006, agents from the DEA, ICE, and the Brazilian Federal Police arrested
eight individuals, resulting in the dismantlement of the Mauro FILETO Internet pharmaceutical
drug trafficking organization. Since June 2005, the FILETO organization distributed more
than 7,800 dosage units per month of Schedule II and IV pharmaceutical controlled substances
to customers without medical evaluations through rogue Internet pharmacies. The websites
advertised that pharmaceuticals could be shipped anywhere in the world without a prescription
and gave specific instructions on how to evade law enforcement and circumvent Customs
detection. Illegal proceeds for the pharmaceuticals were sent from Sao Paolo, Brazil to the
United States into multiple bank accounts held by FILETO in Georgia and were then
transferred into domestic companies and foreign bank accounts. In addition to the arrests,
which included FILETO, this six-month OCDETF investigation resulted in the seizure of 7,000

                                    143
                         REDACTED – PUBLIC VERSION
                         REDACTED – PUBLIC VERSION
                                                                            APPENDIX VI
Oxycontin tablets and $2.3 million from six bank accounts. This investigation was coordinated
by the DEA SOD, led by the Houston Division Office and conducted with the DEA Sao Paulo,
Brazil Country Office, ICE and the United States Postal Service.

Seizure of Methamphetamine Super Lab in Mexico
On August 1, 2006, DEA-trained officers from the Jalisco, Mexico State Police seized an
operational methamphetamine “Super-Lab” in Tlajomulco de Zuniga, Jalisco, Mexico.
Approximately 100 kilograms of finished methamphetamine, more than 3,000 liters of
various solvents and chemicals, four barrels of iodine, laboratory equipment, and a large
quantity of pseudoephedrine pills were seized. The Jalisco State Police arrested four
individuals who will be prosecuted in Mexico. The members of the Jalisco State Police
unit who made the seizure participated in a DEA-sponsored clandestine laboratory
seminar, which is part of the program designed to familiarize 1,000 Mexican state and
local police officers with precursor chemicals, methods of production and manufacturing,
local laws, regional trends, methods of diversion, and international chemical control. The
DEA Guadalajara Resident Office coordinated with the Mexican Agencia Federal de
Investigaciones (AFI) Clandestine Laboratory Unit and the Subprocuraduria De
Investigaciones Especializada de Delincuencia Organizada (SIEDO) prosecutors and
arranged for them to respond to the scene. The Mexican military also assisted in this
operation.

Agustin VASQUEZ Mendoza Convicted of Murdering DEA Agent

On August 8, 2006, a jury in Maricopa County, Arizona convicted Agustin VASQUEZ
Mendoza of the first-degree murder of DEA Special Agent Richard E. Fass. Special
Agent Fass was murdered in Glendale, Arizona in June 1994, while working undercover
during a DEA investigation of VASQUEZ Mendoza’s methamphetamine trafficking
organization. VASQUEZ Mendoza was arrested in Mexico in July 2000, with the
assistance of DEA. In January 2005, the GOM extradited VASQUEZ Mendoza to the
United States. Three associates of VASQUEZ Mendoza were also convicted for their
roles in the killing and are currently incarcerated. VASQUEZ Mendoza was sentenced to
71 years in prison for the first degree murder of SA Fass. DEA conducted this
investigation with the FBI, ICE, the U.S. Marshals Service, the Maricopa County
Attorney’s Office, the Maricopa County Sheriff’s Office, and the Phoenix and Glendale,
Arizona Police Departments.

Colombian Attorney General’s Office Seized $150 Million in Drug Trafficker
Assets

From August 23 to 30, 2006, the Colombian Attorney General’s Investigative Unit
executed 89 seizure warrants for properties linked directly to the drug trafficking
activities of Alberto GRAJALES-Lemos. GRAJALES is associated with CPOT Carlos
Alberto RENTERIA-Mantilla, who is responsible for multi-ton shipments of cocaine to
the United States. Eleven individuals were arrested and $150 million worth of properties,
which include businesses, residences, farms, and parcels of land located in Bogotá, Cali,
Cartagena, and San Andres, Colombia, were seized. This twelve-month investigation was

                                    144
                         REDACTED – PUBLIC VERSION
                          REDACTED – PUBLIC VERSION
                                                                              APPENDIX VI
conducted by the DEA Bogotá Country Office, in conjunction with the Office of Foreign
Asset Control and the DEA Jacksonville, Florida District Office.

Two Guatemalan Officials Plead Guilty in Washington DC District Court

On September 7, 2006, the former Chief and second in command of the Guatemalan lead
drug enforcement agency, Adan CASTILLO Aguillar and Jorge AGUILLAR Garcia,
respectively, pled guilty to conspiracy to manufacture, distribute and knowingly import
into the United States five kilograms or more of cocaine. In November 2005, CASTILLO
and AGUILLAR met with DEA cooperating sources and accepted $25,000 as a down
payment to protect a large shipment of cocaine. The two defendants were later arrested in
the United States.

DEA Provides Information About Weapons Cache in Afghanistan

On September 3, 2006, agents from the DEA Kabul, Afghanistan Country Office received
information regarding a weapons cache in the province of Nangarhar, Afghanistan. The
U.S. Military subsequently raided the site and recovered seven 82mm mortars, two rocket
propelled grenades and eight cases of 12.75mm heavy machinegun ammunition. The
weapons cache had been moved to a secluded cave within the last week, suggesting its
intended use for an impending attack. No documents were recovered and it is not yet
known to whom the weapons belonged.
United States Agents Discover a Cross-Border Tunnel

On September 15, 2006, agents from the DEA San Diego Division Office discovered a
400-foot tunnel extending from a residence in Calexico, California to one in Mexicali,
Mexico. The tunnel was discovered as a result of an investigation into a marijuana
trafficking organization. As a result of this investigation, one individual was arrested and
1,000 pounds of marijuana were seized. The tunnel, which took eight months to build,
was operational since July and was used to smuggle eight tons of marijuana for
distribution to Los Angeles, California, North and South Carolina and New York. This
ongoing DEA investigation was conducted with ICE, the United States Border Patrol and
the Calexico, California Police Department.

MDMA Trafficking Organization Dismantled in an OCDETF Investigation

On September 17, 2006, agents from the DEA New York, Philadelphia, and Washington
Division Offices arrested 19 individuals in New York, Pennsylvania, and Maryland
resulting in the dismantlement of the Thuong Tri TANG MDMA trafficking organization.
The TANG organization imported more than 25,000 dosage units of MDMA per month
from Canada for distribution to the United States Eastern Seaboard. This 18-month
OCDETF investigation resulted in 27 arrests, including TANG, and the seizure of more
than 125,000 MDMA tablets, over $100,000 in U.S. currency, and three firearms. The
DEA conducted this investigation with ICE, the FBI, the City of New York Police
Department, and the Royal Canadian Mounted Police.


                                     145
                          REDACTED – PUBLIC VERSION
                          REDACTED – PUBLIC VERSION
                                                                               APPENDIX VI
OCDETF Investigation Resulted in the Dismantlement of a Regional PTO

On September 21, 2006, agents from the DEA Anchorage District Office arrested 18
individuals, resulting in the dismantlement of the Azim LIMANI cocaine trafficking
organization. During the past ten years, the LIMANI organization distributed five kilograms of
cocaine per month in the Anchorage area and outlying regions of Alaska. To date, this 5-year
OCDETF investigation has resulted in the arrest of 27 individuals, including Regional PTO
LIMANI, and the seizure of three kilograms of cocaine, $83,681 in U.S. currency and five
firearms. The DEA conducted this investigation with the FBI, the IRS, ICE and the
Anchorage, Alaska Police Department.

CPOTs Miguel and Gilberto RODRIGUEZ-OREJUELA Plead Guilty and Agree to a
$2.1 Billion Money Judgment

On September 26, 2006, CPOTs Miguel and Gilberto RODRIGUEZ-OREJUELA pled
guilty in U.S. District Court for the Southern District of Florida to conspiracy to import
cocaine, and agreed to plead guilty in the Southern District of New York to conspiracy to
commit money laundering. Each brother was sentenced to thirty years in prison. The
brothers also agreed to the entry of a $2.1 billion judgment of forfeiture, and the forfeiture
of 287 properties. Twenty-eight family members have also agreed to these forfeitures.
The RODRIGUEZ-OREJUELA brothers ran the Cali Cartel in Colombia, and since 1990
imported and distributed more than 200,000 kilograms of cocaine from Colombia to the
United States. This investigation was conducted by the DEA New York and Miami
Divisions, the DEA Bogotá Country Office, and the Office of Foreign Asset Control.




                                     146
                          REDACTED – PUBLIC VERSION
REDACTED – PUBLIC VERSION
                            APPENDIX VI




           147
REDACTED – PUBLIC VERSION
REDACTED – PUBLIC VERSION
                            APPENDIX VI




           148
REDACTED – PUBLIC VERSION
REDACTED – PUBLIC VERSION
                            APPENDIX VI




           149
REDACTED – PUBLIC VERSION
REDACTED – PUBLIC VERSION
                            APPENDIX VI




           150
REDACTED – PUBLIC VERSION
                                              REDACTED – PUBLIC VERSION
                                                                                                                 APPENDIX VI
                                                        ACTION PLAN
                          Audit of the Drug Enforcement Administration’s International Operations
                                                                                                                     Projected
               Recommendations                                            Action Planned
                                                                                                                  Completion Date
1. Implement a standardized system for foreign        Concur: DEA will meet with all Regional Directors              April 2007
offices to use in tracking and prioritizing           (RDs) to discuss the implementation of a standardized
investigative leads and assistance requests           system to track investigative leads. At this meeting, a
received from other DEA offices and foreign           manual non-networked system format and protocol
counterparts.                                         will be developed for implementation in foreign
                                                      country offices by April 2007. Strong consideration
                                                      will be given to the format used by the Bogotá Country
                                                      Office which was identified by OIG as a best business
                                                      practice during the review.
2. Implement performance planning instructions        Concur: As stated on page viii of the OIG’s Audit            December 2006
and guidelines for DEA Regional Directors to use      Report, DEA has prepared a Foreign Regional
in developing specific objectives and goals for the   Management Plan (FRMP) which will be implemented
region, and develop a planning instrument for         in FY 2007. According to the OIG, the review of the
DEA Regional Directors to use in generating           FRMP was found to be a sound performance planning
Country Office performance plans to                   instrument. DEA will distribute the FRMPs to all RDs
complement the regional work plans.                   by December 12, 2006. In turn, each RD will provide a
                                                      copy of the FMP to every Country Office within their
                                                      area of responsibility, instructing them to complete the
                                                      FRMP at the Country Office level for inclusion in a
                                                      consolidated regional response to DEA Headquarters.
                                                      A copy of the FRMP and instruction to complete the
                                                      plan will be provided to the OIG upon distribution.
3. Annually review foreign office performance         Concur: On an annual basis the RD, Chief of the                April 2007
plans to assess achievement against goals and         Operations Division (OC), Chief of Enforcement
objectives, and make revisions as needed.             Operations (OE), and Chief of International Programs,
                                                      (OI) will review the FRMPs to monitor office
                                                         151
                                              REDACTED – PUBLIC VERSION
                                             REDACTED – PUBLIC VERSION
                                                                                                                APPENDIX VI
                                                       ACTION PLAN
                          Audit of the Drug Enforcement Administration’s International Operations
                                                                                                                    Projected
               Recommendations                                          Action Planned
                                                                                                                 Completion Date
                                                  performance and ensure that country office
                                                  performance is contributing to the goals and objectives
                                                  of DEA’s five-year Strategic Plan and the
                                                  Administrator’s vision and priorities.
4. Require DEA Regional Directors and             Concur: On a quarterly basis, beginning the 2nd quarter           April 2007
appropriate DEA headquarters management to        FY 2007, the Office of Operations Management will
routinely evaluate work hour data in monitoring prepare and distribute to the Chiefs of OC, OE, and OI
foreign office performance against established    a quarterly foreign office work hour statistical report.
regional priorities and office goals.             The Chief of OI will, in turn, distribute the report to all
                                                  RDs to facilitate the monitoring of foreign office
                                                  performance against established regional priorities and
                                                  office goals.
5. Through the annual rightsizing reviews and     Concur: DEA will continue to utilize the annual                   April 2007
formal inspection process, assess the impact that rightsizing reviews in addition to self inspections, on-
added regional responsibilities placed on foreign site inspections, performance reviews, management
offices, both administratively and operationally, reviews, and external audits to assess the impact of
and develop a plan to resolve areas in need of    regional responsibilities and address areas that may
improvement.                                      require improvement. DEA will provide the OIG with
                                                  a copy of its next annual rightsizing report in April
                                                  2007.
6. Identify performance measurements and          Non-concur: The SIU program is an enforcement
implement a methodology to track and evaluate     strategy that combines DEA and host country
the activities and accomplishments of its SIU     counterpart investigators working together to
Program.                                          accomplish a drug law enforcement mission. Due to
                                                  the nature and success of the program over the years,
                                                  various elements of the program have, in essence, crept
                                                             152
                                              REDACTED – PUBLIC VERSION
                                    REDACTED – PUBLIC VERSION
                                                                                                      APPENDIX VI
                                             ACTION PLAN
                   Audit of the Drug Enforcement Administration’s International Operations
                                                                                                          Projected
           Recommendations                                    Action Planned
                                                                                                       Completion Date
                                          into the majority of investigations conducted in those
                                          offices that have established SIU units. Therefore, to
                                          isolate and evaluate SIU activity in individual
                                          investigations would not be appropriate, nor would it
                                          aid local management in prioritizing the use of
                                          resources or in evaluating office accomplishments. In
                                          fact, it could lead to inter-office competition, rather
                                          than encouraging cooperation. Since DEA does not act
                                          unilaterally in any foreign country, the success of those
                                          country offices with SIU units should continue to be
                                          based on the totality of the shared investigative efforts
                                          of DEA in conjunction with host nation law
                                          enforcement counterparts.

7. [SENSITIVE INFORMATION REDACTED]:

  a. [SENSITIVE INFORMATION               Concur: A directive addressing this matter was issued           April 2007
     REDACTED].                           on September 22, 2005, by the Chief of Operations. All
                                          country offices are to report to the Chief of
                                          International Programs by November 15, 2006, on the
                                          status of this directive.

  b. [SENSITIVE INFORMATION               Concur:                                                         April 2007
     REDACTED].
                                                [SENSITIVE INFORMATION REDACTED]

                                               153
                                    REDACTED – PUBLIC VERSION
                                  REDACTED – PUBLIC VERSION
                                                                                           APPENDIX VI
                                           ACTION PLAN
                 Audit of the Drug Enforcement Administration’s International Operations
                                                                                               Projected
        Recommendations                                    Action Planned
                                                                                            Completion Date




                                              [SENSITIVE INFORMATION REDACTED]




c. [SENSITIVE INFORMATION
   REDACTED].                           Concur:                                                April 2007




                                              [SENSITIVE INFORMATION REDACTED]




                                             154
                                  REDACTED – PUBLIC VERSION
                                           REDACTED – PUBLIC VERSION
                                                                                                              APPENDIX VI
                                                     ACTION PLAN
                         Audit of the Drug Enforcement Administration’s International Operations
                                                                                                                  Projected
              Recommendations                                          Action Planned
                                                                                                               Completion Date
8. [SENSITIVE INFORMATION REDACTED].               Non-concur:




                                                         [SENSITIVE INFORMATION REDACTED]




9. Enforce the policy for foreign offices to       Concur: Established DEA SIU guidelines already               October 2007
maintain a record of equipment issued to SIU       require foreign offices to maintain a record of
teams, including a history of inventories          equipment issued to SIU teams. To ensure compliance
conducted and the current condition and location   with this policy, the Chief of OI will draft and issue
of the equipment. These records should include     procedures that require country offices that participate
equipment purchased by the DEA directly and        in the SIU program to submit annual certifications of
indirectly using DEA funds funneled through        equipment inventories.
another agency such as NAS.
10. Revise SIU guidelines and controls for         Concur: DEA is in the process of revising current SIU        October 2007
supplying salary supplement payments to SIU        guidelines that will address controls for supplying
members to account for those circumstances         supplement payments to unit members. The revised
where the SIUs are in remote operating             guidelines are expected to be completed, vetted,
environments and the DEA is unable to utilize      approved, and issued by October 2007.
electronic payments or observe cash payments to
                                                      155
                                           REDACTED – PUBLIC VERSION
                                             REDACTED – PUBLIC VERSION
                                                                                                                  APPENDIX VI
                                                        ACTION PLAN
                          Audit of the Drug Enforcement Administration’s International Operations
                                                                                                                      Projected
               Recommendations                                           Action Planned
                                                                                                                   Completion Date
SIU members. This policy should include
obtaining signed receipts and conducting
periodic comparisons of the signatures on signed
receipts to signature examples obtained from
each SIU member.
11. Ensure that the span of control for managing     Concur: DEA’s SIU program guidelines currently                 October 2007
SIUs in Bolivia, Colombia, Mexico, Pakistan, and     address the span of control for managing SIUs;
Peru is appropriate and complies with DEA            however, in certain countries, an opportunity exists to
guidelines.                                          increase SIU membership and contributions to DEA’s
                                                     drug law enforcement mission. In these instances, it is
                                                     beneficial for DEA to have this force multiplier and
                                                     additional collection and intelligence capabilities,
                                                     despite the established ratios for span of control. In
                                                     those countries that exceed the established ratios, the
                                                     RD will request an exception from the policy until such
                                                     time as DEA’s staff can be increased to meet the
                                                     guidelines.
12. Determine if all SIU members received SIU        Concur: The Chief of OI issued a directive requiring             April 2007
basic training. If not, ensure all current members   RDs to provide by November 15, 2006, a list of SIU
receive the Basic Training course.                   members who have not received the required SIU basic
                                                     training. This list will be reconciled with records at the
                                                     Office of Training. Those members who have not been
                                                     trained will be scheduled to attend the SIU basic course
                                                     during FY 2007. Information relative to the current
                                                     number of SIUs who have not been trained will be
                                                     provided to the OIG.
                                                        156
                                             REDACTED – PUBLIC VERSION
                                             REDACTED – PUBLIC VERSION
                                                                                                               APPENDIX VI
                                                     ACTION PLAN
                          Audit of the Drug Enforcement Administration’s International Operations
                                                                                                                   Projected
               Recommendations                                         Action Planned
                                                                                                                Completion Date
13. Ensure that foreign offices perform required   Concur: DEA’s Chief of Operations will issue a DEA            October 2007
exit briefings of departing SIU members and        teletype to all foreign offices re-emphasizing the
submit semi-annual reports to DEA                  importance of complying with DEA policy to conduct
headquarters.                                      exit briefings of departing SIU members and submit
                                                   semi-annual reports to DEA headquarters.
14. Issue guidance to assist foreign office        Concur: DEA’s Chief of Operations will issue a DEA              April 2007
management in creating and operating non-SIU       teletype to all foreign offices providing guidance to
foreign vetted units, including a requirement to   assist foreign office management in creating and
[SENSITIVE INFORMATION REDACTED].                  operating non-SIU foreign vetted units, including a
                                                   requirement to [SENSITIVE INFORMATION
                                                   REDACTED].
15. Re-emphasize to DEA foreign managers and       Concur: DEA has developed an Imprest Fund                       April 2007
personnel that:                                    Quarterly Audit Review Program to ensure compliance
                                                   with imprest fund audit instructions. The use of the
   a. audits of imprest funds should be            review program began in Fiscal Year 2005. This
      performed and documented according to        program provides for a comprehensive review of
      regulations, and                             imprest fund audit reporting for DEA. Audit
                                                   deficiencies are reported to the appropriate office head,
   b. it is important to maintain adequate         the individuals who conducted the audit, the cashier
      supporting documentation, clear advances     and the Administrative Officer (if applicable). The
      of funds in a timely manner or obtain        Office Head is responsible for taking corrective action.
      document extensions, count flash roll        DEA will continue to follow-up with offices identified
      monies when returned to a cashier, ensure    as having imprest fund audit deficiencies to ensure
      all required signatures are obtained, and    corrective action.
      limit payments to eligible recipients of
      imprest funds.                               DEA’s Chief Financial Officer will issue a DEA teletype
                                                        157
                                             REDACTED – PUBLIC VERSION
                         REDACTED – PUBLIC VERSION
                                                                                        APPENDIX VI
                                  ACTION PLAN
        Audit of the Drug Enforcement Administration’s International Operations
                                                                                            Projected
Recommendations                                    Action Planned
                                                                                         Completion Date
                               reminding all offices having imprest funds to strictly
                               adhere to published imprest fund audit guidance.

                                DEA issued guidance to all imprest fund cashiers via
                               email on August 31, 2005, to reinforce the importance
                               of signing the “witnessed by” block at the bottom of
                               the DEA 12. DEA will continue to monitor compliance
                               of this policy. The DEA imprest fund audit program
                               will be modified to include an additional requirement
                               of sampling the DEA-12s to ensure the cashier is
                               signing as witness.

                               DEA has issued CFO Bulletin 05-03 Revisions to
                               Imprest Fund Audit Documents dated August 18, 2005,
                               which included a revised imprest fund form DEA-153
                               and instructions for completing the new form; and
                               CFO Bulletin 06-13 Advancing Funds to Foreign
                               Service Nationals dated October 23, 2006, which
                               reinforces that DEA imprest funds can only be
                               advanced to DEA employees.

                               The CFO will also issue a reminder to all cashiers on
                               the need to maintain all appropriate supporting
                               documentation and to comply with all policies and
                               procedures identified in the cash management chapter
                               of the Financial Manual and Policy Handbook.
                                    158
                         REDACTED – PUBLIC VERSION
                                               REDACTED – PUBLIC VERSION
                                                                                                              APPENDIX VI
                                                     ACTION PLAN
                          Audit of the Drug Enforcement Administration’s International Operations
                                                                                                                  Projected
               Recommendations                                         Action Planned
                                                                                                               Completion Date


16. Re-emphasize to agents with operational        DEA has requested the supporting documentation to              April 2007
advances the importance of receiving               support the finding that 10 out of the 14 items sampled
authorization from a supervisor before             did not have the appropriate authorization. Upon
expending funds from these accounts and            receipt of the supporting documentation, DEA will
retaining documentation of this approval for       perform a detailed analysis to identify which offices
their records.                                     were not following established policy and notify the
                                                   offices to take immediate corrective action.

                                                   DEA will issue a reminder to all operational advance
                                                   holders that they must comply with established fund
                                                   control policies and procedures as identified in the
                                                   Financial Manual and Policy Handbook which requires
                                                   advance approval and proper obligation of funds prior
                                                   to incurring an expense. DEA will remind all
                                                   operational advance holders that the cash is not within
                                                   their procurement authority.
17. Ensure all DEA personnel understand and        Concur: DEA’s Chief of Operations will issue a DEA             April 2007
adhere to proper security protocols in foreign     teletype to all foreign offices to re-emphasize the
offices by:                                        importance of the proper procedures in complying
                                                   with current Department of State, Department of
   a. reiterating to foreign offices the DEA and   Justice, and Regional Security Office security practices
      State Department policies on proper cell     and protocols in foreign offices to include all phone
      phone practices and the proper care of       usage, the care and use of safes, and the changing of
      safes, and                                   safe and door combinations.

                                                          159
                                               REDACTED – PUBLIC VERSION
                                               REDACTED – PUBLIC VERSION
                                                                                                               APPENDIX VI
                                                         ACTION PLAN
                           Audit of the Drug Enforcement Administration’s International Operations
                                                                                                                   Projected
               Recommendations                                            Action Planned
                                                                                                                Completion Date
    b. immediately changing safe and door
        combinations that have not been changed
        in the last 12 months and ensuring that all
        safe and door combinations are changed
        and recorded at least annually.
18. Direct firearms coordinators to forward            Concur: The Office of Training (TR) will issue a          December 2006
employee files for those who are no longer at post     teletype to all foreign office firearms coordinators
to their next post of duty or the Firearms Training    reinforcing the requirement to forward an employee’s
Unit, and instruct foreign field offices to make       firearm file to the employee’s next post of duty and
current the firearms qualification files for their     also requiring foreign field offices to ensure that
personnel and to provide notice to headquarters        firearms qualification files for existing agents are
when completed.                                        current.
19. Revise the firearms qualification policy to        Concur: TR will issue a teletype reinforcing and/or      December 2006
address the situation where a DEA agent is             amending policies for ensuring that firearms
located in a country without an available firearms     qualification standards are maintained while in a
testing facility that is compliant with DEA            foreign post.
qualification standards and who does not
officially or personally travel to the United States
during a foreign post tensure.
20. Determine why 30 of 122 sampled DEA                TR will review the OIG sample data and determine         60 days following
Special Agents who were carrying firearms in           what procedural or policy adjustments need to be           receipt of the
foreign countries were not on the DEA Training         made to ensure that this information is provided on a          sample
Division’s centralized list of foreign DEA             timely and accurate basis to the DEA Training            information from
personnel certified to carry a weapon, and update      Division.                                                     the OIG.
the Training Division’s database accordingly.

                                                          160
                                               REDACTED – PUBLIC VERSION
                                             REDACTED – PUBLIC VERSION
                                                                                                                   APPENDIX VI
                                                        ACTION PLAN
                          Audit of the Drug Enforcement Administration’s International Operations
                                                                                                                       Projected
               Recommendations                                            Action Planned
                                                                                                                    Completion Date



21. Refine its FSNs firearms policy, including:

   a. addressing the possibility of FSNs that are    Concur: DEA will update the DEA Agents Manual                   October 2007
      unable to certify weapons proficiency          section (6122.72) to clarify qualification responsibilities
      because there is no available firearms         for FSNs. The updated policy will require RDs to
      testing facility compliant with DEA            ensure that FSNs qualify on a semi-annual basis, in the
      qualification standards, and                   same manner as any Special Agent.

    b. clarifying that FSNs are prohibited from      Non-Concur: The newly revised DEA Agents Manual
       carrying personal firearms during official    section (6122.71-3) addresses these issues and clarifies
       DEA duty and that FSNs are to be issued       DEA “Procedures for Arming FSN Employees”. FSNs
       weapons and ammunition on a day-to-day        are not prohibited from carrying personal firearms as
       basis unless specifically authorized by the   long as they follow the detailed requirements listed in
       Regional Director to carry a DEA-issued       the DEA manual. FSN qualifications, weapons, and
       firearm on a permanent basis.                 ammunition are all clearly detailed in the policy.
22. Ensure that personnel assigned collateral        Concur: DEA’s Chief of Operations will issue a DEA                April 2007
administrative duties receive training necessary     teletype to all foreign offices to ensure that personnel
to correctly perform these functions, particularly   assigned collateral administrative duties receive the
in the areas of imprest fund adminsitration and      necessary training.
accountable property management.




                                                        161
                                             REDACTED – PUBLIC VERSION
REDACTED – PUBLIC VERSION
                            APPENDIX VI




          - 162 -
REDACTED – PUBLIC VERSION
REDACTED – PUBLIC VERSION
                            APPENDIX VI




          - 163 -
REDACTED – PUBLIC VERSION
                      REDACTED – PUBLIC VERSION
                                                              APPENDIX VII
          OFFICE OF THE INSPECTOR GENERAL
   ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO
                  CLOSE THE REPORT

      In response to our audit report, the DEA concurred with the majority
of our recommendations and discussed the actions it has already taken and
others it will implement in response to our findings. However, the DEA also
took issue with various aspects of the report and claimed it did not provide
an accurate assessment of the DEA’s international operations. Before
addressing the DEA’s response to each of the OIG recommendations and the
actions necessary to close those recommendations, we provide the following
comments on the DEA’s response to the draft report.

       The DEA contends that our audit focused primarily on “administrative”
as opposed to “operational” issues. We disagree. Our report dedicates
significant discussion to DEA investigative strategies and policies regarding
DEA international operations, as well as DEA foreign office performance
planning and measurement. Throughout our audit and at the audit close-out
meeting, DEA officials stated that the primary means of evaluating overall
agency performance is through an assessment of the number of significant
drug trafficking organizations that the agency disrupts and dismantles.
Internally, the DEA identifies these organizations as Priority Target
Organizations (PTO). Our report includes data on PTO disruption and
dismantlement data for DEA foreign offices, as well as an analysis of the
percentage of DEA foreign personnel work hours spent on PTO
investigations.

      We also included a summary of DEA accomplishments related to
Consolidated Priority Organization Targets (CPOT) and terrorist
organizations. In addition, we report on the DEA’s SIU Program, which was
cited by many DEA personnel as a critical investigative tool in its
international operations. Another chapter of the report discusses the
operational relationships the DEA maintains abroad, and we also provide
information on the DEA’s efforts to provide training to its foreign partners.

       However, the DEA did not collect or provide additional data to assess
the results of its international operations. We analyzed and reported on the
data provided to us by the DEA during the audit. Subsequently, as part of
its formal response to our audit, the DEA attached a 32-page document
entitled Analysis of DEA’s International Operations, which summarizes
highlights from various cases and large operations. But the information
provided contains virtually no analytical elements or data to assess the
DEA’s performance. Generally, the DEA does not appear to have objectively

                                 164
                      REDACTED – PUBLIC VERSION
                      REDACTED – PUBLIC VERSION
                                                                APPENDIX VII
analyzed the collective impact its international activities have had on the
illicit drug trade in the United States.

       Moreover, we found significant problems in the management of DEA
international operations. The DEA labels these issues as “administrative
deficiencies.” Yet, we believe that these findings are important issues that
directly affect the DEA’s international operations. For example, we found
deficiencies in the DEA’s SIU Program [SENSITIVE INFORMATION
REDACTED].

     The DEA’s response also provides comments on a variety of specific
matters. We address these comments in turn.

Report’s Focus and Primary Objective

      The DEA correctly stated in its response that the OIG requested to be
provided with documents related to any comprehensive analyses performed
of DEA’s international activities. Specifically, the OIG requested that the
DEA provide: “any DEA internal, comprehensive analysis of the DEA's
international activities and the impact on the illegal drug trade in the United
States.” The DEA acknowledged during our audit work that it did not have
such an assessment. However, after receiving our draft report and in
discussions following the audit close-out meeting DEA officials stated that
they were compiling information from multiple sources to fulfill our request.

      Subsequently, as part of its formal response to our audit, the DEA
attached the 32-page document entitled: Analysis of DEA’s International
Operations. As noted above, this document principally provides insight into
the type and level of drug trafficking organizations the DEA is targeting, and
summarizes highlights from various cases and large operations. But again,
this document contains virtually no analysis or data to assess the DEA’s
overall performance in its international operations.

       Further, in its response to the OIG audit, which is attached to this
audit report, the DEA highlights certain items from the 32-page document.
However, several of the items are already noted in our report, such as PTO
investigations linked to terrorist organizations, the DEA’s focus on the CPOT
list, and its implementation of the International Drug Flow Prevention
Strategy. Many of the remaining examples are simply listings or highlights
of particular cases or descriptions of activities within specific countries, and
the DEA does not connect these events with an impact on the illicit drug
trade within the United States. For example, the DEA’s response to our
report states that the DEA has “successfully contributed to the reduction in


                                 165
                      REDACTED – PUBLIC VERSION
                      REDACTED – PUBLIC VERSION
                                                              APPENDIX VII
drug use.” However, nowhere in its response or in its 32-page attachment
does the DEA provide data to validate that assertion.

Annual Performance Plan

       Our audit found that the DEA operated without a performance planning
instrument for DEA foreign offices for fiscal years (FY) 2004 through 2006.
In June 2006, during our audit work, we were told that the DEA was
circulating a draft foreign office planning instrument through its Regional
Directors and DEA headquarters management and that we could obtain a
copy once the document was finalized. At the audit close-out meeting, the
DEA again informed us that its Foreign Region Management Plan was not yet
finalized and that DEA executive management would have to approve our
review of this document in draft form. Subsequent to the close-out meeting,
we were provided with a copy of the plan and, as a result, we were able to
comment on the draft plan in our report.

       The DEA states that it informed the OIG that its Foreign Region
Management Plan would be composed of individual country plans. The DEA
also states in its response that information in our report related to the DEA’s
performance planning is inaccurate. Both of these statements are
misleading. Following issuance of the draft audit report, a senior DEA official
explained to the audit team that individual, documented country office plans
would not be required by DEA headquarters, as we recommend in our
report. Instead, we were told that it would be obvious to Regional Directors
that they should hold discussions with their various Country Attachés and
they would consider these discussions when developing the official,
documented plan for the region. Following lengthy discussions with the
audit team on the matter, this DEA executive informed the OIG that the DEA
would agree to augment the instructions for its Foreign Region Management
Plan to include an instruction to its Regional Directors to have its country
offices submit annual country plans for consolidation into an overall region
plan. We told this DEA official that we would consider this action sufficient
to resolve our recommendation to implement performance planning
instructions and guidelines at both the region and country office-level, and
we instructed the DEA to include these actions in the DEA’s official response
to our report. Therefore, the DEA’s Corrective Action Plan states that it will
require its Regional Directors to perform annual performance planning in the
manner discussed above.

      The DEA also contends that the OIG did not interview appropriate
personnel about the agency’s performance planning instruments and that
some of the information in our report about this topic is inaccurate. We
believe that all information related to DEA foreign performance planning in

                                 166
                      REDACTED – PUBLIC VERSION
                      REDACTED – PUBLIC VERSION
                                                               APPENDIX VII
our report is accurate and supported. We also note that during the audit we
interviewed the DEA officials who were identified as knowledgeable on the
issues by other senior DEA officials. In this audit, we made it clear to DEA
officials that we were reviewing the agency’s performance evaluation
activities, and we were directed to certain individuals, all of whom we
interviewed at length about the subject. Additionally, we provided the DEA’s
Executive Policy and Strategic Planning Staff ample opportunity in
discussions following the audit close-out meeting to present its perspective
on the performance planning efforts of the DEA’s foreign offices.

Principal Objectives for Working with Foreign Counterpart Agencies

       The DEA states in its response that the OIG identified the DEA’s five
principal objectives for working with foreign counterpart agencies, and the
DEA response states that the report did not address its objectives on foreign
institution building and the gathering and sharing of intelligence.

       While the focus of our audit was not on the DEA’s “institution building,”
our report does include elements related to DEA’s intelligence sharing and
institution building in foreign countries. For example, our discussion on the
DEA’s efforts with foreign counterparts to create and maintain working
relationships, to provide opportunities for training, and to effectively operate
its SIU Program addresses aspects of the DEA’s intelligence sharing and
institution building efforts.

Sensitive Investigative Units (SIUs)

      Our report contains significant discussion on the DEA’s vetted unit
concept and its SIU Program specifically. We reported that the DEA
performed an internal assessment of its SIU Program in FY 2005 and, as a
result of this review, promulgated revisions to the DEA SIU operating
protocol. We also note that we included these policy changes in the criteria
we used in our evaluation of the SIU Program. Although the DEA performed
an internal assessment in 2005 and promulgated revisions to its SIU
operating protocol, our review identified ongoing deficiencies with the
management of the program and its practices that were either not corrected
by the prior review or were not identified in the DEA’s internal assessment.

       The DEA response also states that the OIG failed to properly recognize
the SIU Program as a successful and critical foreign institution building
effort. We noted in our report that DEA believes vetted units are critical to
its foreign activities and we identified operational highlights of its SIU
Program in Colombia, Mexico, and Thailand. However, our ability to further
report on the accomplishments of the SIU Program was hindered by the fact

                                 167
                      REDACTED – PUBLIC VERSION
                       REDACTED – PUBLIC VERSION
                                                                APPENDIX VII
that the DEA does not collect data of the results directly attributable to the
efforts of its SIUs. As a result, we recommend in our report that the DEA
“identify performance measurements and implement a methodology to track
and evaluate the activities and accomplishments of its SIU Program.”

      However, the DEA responded in its Corrective Action Plan that it did
not concur with this recommendation. The DEA dedicates about $18 million
each year to its SIU Program, not including the DEA personnel resources it
spends on SIU-related activities in foreign countries. Also, in its FY 2007
budget request, the DEA requested an additional $11 million to expand the
SIU Program to four additional countries. We believe the DEA is remiss in
not collecting data to analyze the accomplishments specific to a program it
considers critical to its international success and to which it dedicates
substantial resources each year. We also found it troubling that the DEA
touts the success of the program, and criticizes the OIG audit for not
confirming these successes, when the DEA declines to collect data that
would accurately measure the impact of the program.

Personnel Utilization Data and Investigative Work Hours

       In its response, the DEA disputes the OIG’s reporting that DEA
management stated that it does not use personnel utilization data as a
measure to evaluate foreign office activity. In response, the DEA comments
that the DEA Chief of Operations states that many high-level managers use
personnel utilization data to assess how DEA foreign office personnel spend
their time on different types of investigative activity. Yet, the DEA official’s
comment is contrary to what several DEA personnel told us directly. In
addition, other DEA officials did not mention this type of analysis when
commenting on the evaluation techniques they used to assess performance.
During our audit, DEA headquarters personnel also gave conflicting accounts
on the use of such data and only two of five foreign Regional Directors
indicated to us that they actually used personnel utilization data to identify
the focal areas of investigative activity in their region.

       Additionally, the DEA notes in its Corrective Action Plan that in the
second quarter of FY 2007, the agency will begin to prepare and distribute
quarterly office work-hour statistical reports to appropriate DEA
headquarters management and to Regional Directors “to facilitate the
monitoring of foreign office performance against established regional
priorities and office goals.” By stating that it will begin this process in the
second quarter of FY 2007, the DEA indicates that it was not performing
such reviews previous to our recommendation.



                                  168
                       REDACTED – PUBLIC VERSION
                         REDACTED – PUBLIC VERSION
                                                                          APPENDIX VII
Imprest Fund Transactions

      At the audit close-out meeting we agreed to provide samples of our
imprest fund findings to assist the DEA in resolving identified deficiencies.
We later forwarded the sample documents to the appropriate DEA
headquarters personnel, and the audit team worked extensively with DEA
personnel to clarify the exceptions noted during our review. Additionally,
the audit team agreed with the DEA’s decision to make further inquiries of
the foreign offices to resolve the deficiencies that we identified during our
fieldwork.

      As a result, after the audit close-out meeting we received and
reviewed additional DEA documentation that had not been provided to us
during our fieldwork in two foreign offices. In one of the two offices, some
of the documents were apparently obtained from a secondary filing system
that we were not informed of during our field testing.

      However, contrary to the DEA’s response, the overall finding in our
report about the weaknesses in the DEA’s management of imprest funds in
foreign offices remains accurate and troubling. In total, we identified
165 exceptions in the 233 imprest fund transactions that we tested, and we
reviewed each of these exceptions with DEA financial personnel prior to the
issuance of our final report.81

       The DEA also commented in its response that it wished to review
documentation related to operational advance account transactions that we
identified as exceptions. We explained to DEA headquarters personnel on
several occasions that for the majority of these expenditures our finding
related to a lack of documentation and therefore we could not provide
documentation that was not available to us. We also reiterated to DEA
headquarters personnel that this finding was discussed with the appropriate
DEA foreign office management who agreed with our results. As a result, we
were told by the Chief of the DEA’s Financial Operations Section that DEA
headquarters personnel did not need to view information related to our
operational account findings.

       However, if the DEA has reversed its position and now wishes to obtain
such information, the OIG will work with the appropriate DEA headquarters
personnel and provide available information to assist the DEA in resolving
this issue.


             81
                 For some transactions tested, more than one exception was noted.
      Additionally, the 165 exceptions do not include 2 findings related to flash rolls
      returned in an untimely manner.
                                    169
                         REDACTED – PUBLIC VERSION
                      REDACTED – PUBLIC VERSION
                                                               APPENDIX VII
Summary

      We believe that the OIG’s report on the DEA’s international operations
is an objective, independent representation of the work performed, and is in
accordance with the audit’s stated objectives. It contains accurate and
supported information. We appreciate the DEA’s attention to our findings
and recommendations and, where appropriate, have made changes to our
report based on its comments. We look forward to working with the DEA to
improve its international operations through the resolution and closure of
each of the 22 recommendations in our report.

Editorial Comments

      The DEA also provided an attachment containing numerous editorial
comments on the draft report. We considered these comments and, where
appropriate, made minor adjustments to our report language. These
adjustments related to the DEA’s imprest fund activities, the specificity of the
types of sophisticated training requested by foreign counterpart agencies,
and the organization of DEA’s foreign offices. These adjustments were
technical in nature and do not affect the validity of our findings and
recommendations.




                                 170
                      REDACTED – PUBLIC VERSION
                     REDACTED – PUBLIC VERSION
                                                             APPENDIX VII
Status of Recommendations

1.   Resolved. In its response to the draft report, the DEA concurred with
     our recommendation to implement a standardized system for foreign
     offices to use in tracking and prioritizing investigative leads and
     assistance requests received by these offices. The DEA stated that in
     an upcoming meeting with its Regional Directors it will develop a
     system and protocol to address this need.

     As stated in our report, we determined the Milan Resident Office (not
     the Bogotá Country Office as erroneously noted by the DEA in its
     response) had the most comprehensive system for tracking and
     prioritizing leads and assistance requests, and we suggested the DEA
     review this system for possible use in the development of an agency-
     wide model.

     To close this recommendation, please provide us with a template of
     the tracking system format and the associated protocol. In addition,
     please forward examples of the use of this tracking system covering a
     3-month period from the following country offices: Mexico City,
     Bogotá, and Bangkok.

2.   Resolved. The DEA concurred with our recommendation to
     implement performance planning instructions and guidelines for DEA
     Regional Directors to use in developing performance plans for its
     foreign regions and Country Offices. The DEA also indicated that it
     would require each Regional Director to provide a copy of the Foreign
     Region Management Plan (FRMP) to every Country Office within their
     area of responsibility, instructing them to complete the FRMP at the
     Country Office level for inclusion in a consolidated regional response to
     DEA headquarters.

     To close this recommendation, please provide the finalized FMRP
     containing instructions for executing Country Office performance
     planning, a completed planning packet for one DEA foreign region
     (including the final regional plan and all associated country plans), and
     certification that all foreign regions complied with the planning
     requirements.

3.   Resolved. The DEA concurred with our recommendation and stated
     that appropriate headquarters executive management and Regional
     Directors will annually review the FMRPs to monitor foreign office
     performance against DEA’s goals and priorities. To close this


                                171
                     REDACTED – PUBLIC VERSION
                    REDACTED – PUBLIC VERSION
                                                            APPENDIX VII
     recommendation, please provide us with evidence of this review by
     DEA headquarters management and by the Regional Directors.

4.   Resolved. The DEA concurred with our recommendation for DEA
     headquarters and foreign regional managers to routinely monitor
     work-hour data in evaluating foreign office performance against
     established regional and office goals. The DEA stated that beginning
     with the second quarter of FY 2007, DEA headquarters will generate
     quarterly foreign office work-hour statistical reports for review by
     executive management and distribute these reports to Regional
     Directors.

     To close this recommendation, please provide us with the foreign office
     work-hour statistical reports for the second, third, and fourth quarters
     of FY 2007, as well as evidence that the reports were distributed to
     appropriate headquarters personnel and to the Regional Directors.

5.   Resolved. The DEA concurred with our recommendation to
     incorporate in DEA internal reviews (such as its annual “rightsizing”
     review and routine on-site inspections) an assessment of the impact
     that increased regional responsibilities place on foreign offices. The
     DEA also indicated that it would forward to the OIG a copy of its next
     annual rightsizing report in April 2007.

     To close this recommendation, please provide us with a copy of the
     upcoming rightsizing report, along with the instructions that have been
     added to its internal review processes to address the impact of added
     regional responsibilities.

6.   Unresolved. The DEA does not concur with our recommendation to
     identify performance measurements and implement a methodology to
     track and evaluate the activities and accomplishments of its SIU
     Program. The DEA contends that the SIU Program is an enforcement
     strategy and that evaluating SIU activity would not aid DEA local
     management in prioritizing the use of resources or evaluating office
     accomplishments. We agree that the vetting of foreign personnel is a
     strategy, but the use of SIUs and the policies governing SIU
     management and activity is programmatic. Additionally, Congress has
     provided the DEA with significant funding specifically tied to the SIU
     Program. Currently, the SIU Program receives over $18 million each
     year, and in its FY 2007 budget request the DEA asked Congress to
     increase funding by over 50 percent to expand the SIU Program to
     four new countries. In our opinion, the DEA needs to produce an
     objective assessment of the SIU Program because it receives

                               172
                    REDACTED – PUBLIC VERSION
                     REDACTED – PUBLIC VERSION
                                                              APPENDIX VII
     substantial resources and the DEA considers it critical to its work
     overseas.

     To resolve this recommendation, please provide us with further
     information about how the DEA can objectively identify and evaluate
     the activities and accomplishments of its SIU Program.

7.   Resolved. The DEA concurred with our recommendation to
     implement improvements in the vetting of SIU members.

     a.




                        [SENSITIVE INFORMATION REDACTED]




     b.




                        [SENSITIVE INFORMATION REDACTED]




                                173
                     REDACTED – PUBLIC VERSION
                     REDACTED – PUBLIC VERSION
                                                              APPENDIX VII
     c.




                         [SENSITIVE INFORMATION REDACTED]




8.   Resolved.




                     [SENSITIVE INFORMATION REDACTED]




9.   Resolved. The DEA concurred with our recommendation for foreign
     offices to maintain a record of equipment issued to SIU teams. The
     DEA stated that to ensure compliance with its policy, it will draft and
     issue procedures requiring country offices that participate in the SIU
     Program to submit annual certifications of equipment inventories. To
     close this recommendation, please provide us with the instructions
     issued to the field offices and evidence of the annual certifications of
     equipment inventories when completed.

                                174
                     REDACTED – PUBLIC VERSION
                      REDACTED – PUBLIC VERSION
                                                                 APPENDIX VII
10.   Resolved. The DEA concurred with our recommendation and is in the
      process of revising its SIU guidelines and controls for supplying salary
      supplement payments to unit members. To close this
      recommendation, please provide the OIG with the revised guidelines
      that are expected to be issued by October 2007. We believe these
      guidelines should include a requirement to obtain signed receipts and
      conduct periodic comparisons of the signatures on signed receipts to
      signature examples obtained from each SIU member.

11.   Resolved. The DEA concurred with our recommendation to ensure
      that the span-of-control ratios for managing SIUs in Bolivia, Colombia,
      Mexico, Pakistan, and Peru are in compliance with DEA guidelines. The
      DEA also stated that some Regional Directors may request an
      exception to this policy until the DEA can increase foreign staff to
      comply with the guidelines.

      To close this recommendation, please provide us details of the SIU
      participants, advisors, and span of control ratios for each named
      country as of March 31 and September 30, 2007, as well as
      documentation of any requests and approvals for an exception to the
      stated policy. We believe that any exceptions granted to the DEA
      foreign offices in regards to this policy should include a justification for
      the reprieve and an assessment of risk associated with operating the
      SIU with an elevated span of control ratio.

12.   Resolved. The DEA concurred with our recommendation to determine
      if all SIU members received the basic training course. The DEA
      indicated that it issued a directive requiring the Regional Directors to
      provide by November 15, 2006, a listing of SIU members who have
      not received basic training. This list will then be reconciled to the
      Office of Training’s records, and any members who have not received
      basic training will be scheduled to attend a class during FY 2007. To
      close this recommendation, please provide us with a copy of the
      directive that was issued to the Regional Directors, evidence of the
      results of the reconciliation with the Office of Training’s records, the
      listing of SIU members who have not attended basic training, and
      confirmation that these individuals have completed the training.

13.   Resolved. The DEA concurred with our recommendation and said it
      plans to issue a teletype to all foreign offices re-emphasizing the
      importance of complying with DEA policy to conduct exit briefings of
      departing SIU members and to submit semi-annual reports of this
      activity to DEA headquarters. To close this recommendation, please


                                 175
                      REDACTED – PUBLIC VERSION
                      REDACTED – PUBLIC VERSION
                                                               APPENDIX VII
      provide us with a copy of the issued teletype and the following two
      semi-annual report submissions.

14.   Resolved. The DEA concurred with our recommendation to issue
      guidance to assist foreign office management in creating and operating
      non-SIU foreign vetted units, [SENSITIVE INFORMATION REDACTED].
      To close this recommendation, please provide us with a copy of the
      teletype issued to all foreign offices providing the guidance discussed.

15.   Resolved. The DEA concurred with this recommendation and included
      in its comments several additional planned actions as follows. First,
      the DEA said it plans to issue a teletype reminding all offices having
      imprest funds to strictly adhere to published imprest fund guidance.
      Second, the imprest fund audit program will be modified to include an
      additional requirement to sample the DEA-12s to ensure the cashier is
      signing as a witness. Third, the CFO will issue a reminder to all
      cashiers to maintain all appropriate supporting documentation and to
      comply with all policies and procedures identified in the cash
      management chapter of the DEA’s Financial Manual and Policy
      Handbook. To close this recommendation, please provide us: (1) the
      reminder teletype, (2) the modified imprest fund audit program, and
      (3) the CFO reminder to imprest fund cashiers.

16.   Resolved. The DEA did not concur with this recommendation, but
      said that it will issue a reminder to all operational advance holders of
      policies and procedures in the DEA’s Financial Manual and Policy
      Handbook, which requires obtaining prior approval before incurring
      expenses. We believe this action satisfies the intent of our
      recommendation and we therefore consider this recommendation
      resolved. To close this recommendation, please provide us with a
      copy of the DEA’s reminder to operational advance holders on proper
      fund control policies and procedures.

      The DEA also commented in its response that the DEA asked the OIG
      to review documentation related to operational advance account
      transaction exceptions noted in the report. In discussions with DEA
      headquarters personnel, we explained that for many of these
      transactions there was no documentation available. We also informed
      DEA headquarters personnel that these exceptions were discussed with
      the appropriate DEA foreign office management who agreed with our
      findings. As a result, DEA headquarters personnel told us that they
      did not want to view documentation related to these transactions.
      However, if the DEA now wants to obtain and review such information,
      the OIG will provide all available transaction information to the DEA.

                                 176
                      REDACTED – PUBLIC VERSION
                      REDACTED – PUBLIC VERSION
                                                               APPENDIX VII


17.   Resolved. The DEA concurred with our recommendation and agreed
      to issue a teletype to all foreign offices reiterating the DEA and State
      Department policies on proper cell phone practices, the care and use
      of safes, and the changing of safe and door combinations. To close
      this recommendation, please provide us: (1) a copy of the issued
      teletype, and (2) certification (including the applicable Regional
      Security Officer’s signature) that safe and door lock combinations
      noted in the report as being overdue for a combination change have
      been addressed.

18.   Resolved. The DEA concurred with our recommendation to direct
      firearms coordinators to forward an employee’s firearms file to their
      next post of duty or the Firearms Training Unit, and to ensure that
      firearms qualification files for existing agents are current. The DEA
      stated that its Office of Training would issue a teletype reinforcing
      these requirements. To close this recommendation, please provide us
      a copy of the issued teletype.

19.   Resolved. The DEA concurred with our recommendation to revise its
      firearms qualification policy to address situations where a DEA agent is
      located in a country without a compliant firearms testing facility and
      who does not travel to the United States during his or her tenure at a
      foreign post. The DEA stated that the Office of Training will issue a
      teletype reinforcing or amending policies for ensuring that firearms
      qualification standards are maintained while in the foreign post. To
      close this recommendation, please provide us with a copy of the
      teletype along with any revisions to the DEA firearms policy.

20.   Resolved. The DEA does not indicate its concurrence with our
      recommendation for the DEA to determine why agents carrying
      firearms in foreign countries were not included on the DEA Training
      Division’s centralized list of foreign DEA personnel certified to carry
      weapons in foreign countries. Instead, the DEA states that it will
      review our sample data and determine the necessary procedural or
      policy adjustments to ensure information is provided to the Training
      Division on a timely and accurate basis. We believe this plan is
      sufficient to resolve this recommendation and, under separate cover
      we will forward to the DEA Training Division the names of the sampled
      DEA Special Agents carrying firearms in foreign offices who were not
      included on the DEA Training Division’s centralized list.

      To close this recommendation, please provide us verification that the
      DEA has developed procedures to ensure that the DEA Training

                                 177
                      REDACTED – PUBLIC VERSION
                      REDACTED – PUBLIC VERSION
                                                               APPENDIX VII
      Division maintains accurate and current records of DEA foreign
      personnel weapons proficiency certifications. Additionally, we request
      that the DEA please forward a complete listing of DEA personnel
      carrying firearms in foreign offices, including the latest dates of their
      firearms qualification.

21.   Unresolved. The DEA’s response indicates that the agency concurs
      with the first half of our recommendation, but does not concur with the
      remainder.

      a.    The DEA agreed to clarify its policy of firearms qualification
            requirements pertaining to foreign service nationals (FSN),
            stating it will require FSNs to qualify on a semi-annual basis. To
            close this portion of the recommendation, please forward a copy
            of the revised policy once it is finalized.

      b.    The DEA does not concur with our recommendation to clarify
            that FSNs are prohibited from carrying personal firearms during
            official DEA duty and that FSNs are to be issued weapons and
            ammunition on a day-to-day basis unless specifically authorized
            by a Regional Director to carry a DEA-issued firearm on a
            permanent basis. The DEA stated in its response that its policy
            allows FSNs to carry personally owned weapons and appears to
            infer that FSNs can carry DEA-issued firearms on a permanent
            basis.

            Following the audit close-out meeting, we were provided a copy
            of the DEA FSN firearms policy. During our review of this policy
            we submitted the following inquiry through official DEA channels:

               Is the policy's intent to apply to FSNs carrying personally
               owned firearms, as well as DEA-issued weapons?

            The DEA replied with an answer from its Training Division, which
            oversees the DEA’s Firearms Training Unit:

               The intent of this policy is for that FSN to have a DEA weapon
               and ammunition temporarily issued to the FSN on a daily
               basis. After the day is done the weapon and ammunition is
               returned to DEA. Unless the RD [Regional Director]
               specifically authorizes the FSN to carry the weapon on a 24
               hour basis the FSN has to return the weapon and
               ammunition. No personally owned weapons are allowed.
               (emphasis added)

                                 178
                      REDACTED – PUBLIC VERSION
                      REDACTED – PUBLIC VERSION
                                                              APPENDIX VII


            Comparing this response from the DEA Training Division to the
            DEA’s response on the draft report shows obvious conflict within
            the DEA on the interpretation of its FSN firearms policy. To
            resolve this recommendation, the DEA needs to develop a
            consistent position on its policy on FSNs carrying personal
            firearms during official DEA duty and also spell out the DEA’s
            position regarding the issuance of weapons to FSNs. In addition,
            the DEA needs to provide its plan for clarifying its FSN firearms
            policy so that it clearly addresses its intentions and to publicize
            its position to all employees. To resolve this portion of the
            recommendation, please forward us with additional comments on
            DEA’s final position on its policy on FSNs carrying personal
            firearms during official DEA duty.

22.   Resolved. The DEA concurred with our recommendation to ensure
      that personnel assigned collateral administrative duties receive the
      necessary training to correctly perform these functions. According to
      the DEA’s comments, it will issue a teletype to all foreign offices to
      ensure that applicable personnel receive the necessary training. To
      close this recommendation, please provide us with a copy of the
      teletype and evidence that training was provided and will continue to
      be offered as necessary to foreign office personnel with assigned
      collateral duties.




                                 179
                      REDACTED – PUBLIC VERSION
